<html>
<title> - A FRESH START FOR NEW ORLEANS' CHILDREN: IMPROVING EDUCATION AFTER KATRINA</title>
<body><pre>[Senate Hearing 109-626]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-626
 
  A FRESH START FOR NEW ORLEANS' CHILDREN: IMPROVING EDUCATION AFTER 
                                KATRINA

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EDUCATION AND EARLY CHILDHOOD DEVELOPMENT

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

             EXAMINING THE EDUCATION SYSTEM OF NEW ORLEANS

                               __________

                    JULY 14, 2006 (New Orleans, LA)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
28-864                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                               __________

       Subcommittee on Education and Early Childhood Development

                  LAMAR ALEXANDER, Tennessee, Chairman

JUDD GREGG, New Hampshire            CHRISTOPHER J. DODD, Connecticut
RICHARD BURR, North Carolina         TOM HARKIN, Iowa
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
MICHAEL B. ENZI, Wyoming (ex         EDWARD M. KENNEDY, Massachusetts 
officio)                             (ex officio)

                      David Cleary, Staff Director

                James M. Fenton, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                         FRIDAY, JULY 14, 2006

                                                                   Page
Alexander, Hon. Lamar, Chairman, Subcommittee on Education and 
  Early Childhood Development, opening statement.................     1
Landrieu, Hon. Mary L., a U.S. Senator from the State of 
  Louisiana, opening statement...................................     3
    Prepared statement...........................................     4
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina, opening statement....................................     6
Johnson, Linda, President, Louisiana Board of Elementary and 
  Secondary Education; Sarah Ottinger, Parent, Audubon Charter 
  School; Father William F. Maestri, Superintendent of Catholic 
  Schools, Archdiocese of New Orleans; Carole Butler-Wallin, 
  Deputy Superintendent, Louisiana Department of Education; Robin 
  Jarvis, Ph.D., Acting Superintendent, Recovery School District; 
  Greg Richmond, President, National Association of Charter 
  School Authorizers; Brian Riedlinger, Ph.D., Chief Executive 
  Officer, Algiers Charter Schools Association; Phyllis Landrieu, 
  President, Orleans Parish School Board; Senator J. Chris Ullo, 
  Chairman, Louisiana State Senate Education Committee...........     8
    Prepared statements of:
        Linda Johnson............................................     9
        Sarah Ottinger...........................................    12
        Father William F. Maestri................................    19
        Carole Butler-Wallin.....................................    21
        Robin Jarvis.............................................    25
        Greg A. Richmond.........................................    37
        Brian A. Riedlinger......................................    41
        State Senator Ullo.......................................    46

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Letter from Gordon Alexander Cole............................     7
    Scott S. Cowen, prepared statement...........................    58
    Response to questions of Senator Alexander and Senator 
      Landrieu by:
        Scott S. Cowen...........................................    61
        Sarah Ottinger...........................................    62
        Linda Johnson............................................    63
        Father William F. Maestri................................    64
        Carole Butler-Wallin.....................................    64
        Robin Jarvis.............................................    65
        Greg A. Richmond.........................................    67
        Brian A. Riedlinger......................................    69
        Phyllis Landrieu.........................................    70
        State Senator Ullo.......................................    71

                                 (iii)

  


                     A FRESH START FOR NEW ORLEANS'
                     CHILDREN: IMPROVING EDUCATION
                             AFTER KATRINA

                              ----------                              


                         FRIDAY, JULY 14, 2006

                                       U.S. Senate,
Subcommittee on Education and Early Childhood Development, 
                           Committee on Health, Education, 
                                       Labor, and Pensions,
                                                   New Orleans, LA.
    The subcommittee met, pursuant to notice, at 3:09 p.m., in 
the Supreme Court Hearing Room, Louisiana Supreme Court 
Building, 400 Royal Street, New Orleans, Louisiana, Hon. Lamar 
Alexander, chairman of the subcommittee, presiding.
    Present: Senators Alexander, Burr, and Landrieu.

                 Opening Statement of Senator Alexander

    Senator Alexander. In the interest of time, we'll bring the 
Subcommittee on Education and Early Childhood Development to 
order. First let me thank the witnesses who are here. As they 
know, the military plane we were coming on couldn't fly, so we 
were late. You all are extremely busy individuals. You all had 
other things to do today. You've adjusted your schedule so that 
we could hear you, which is why we came, and we thank you for 
that. I know that several of you spent time this morning in 
discussion, which I hope was useful to you, and we look forward 
to hearing about that.
    Let me suggest the rules of procedure that we'd like to 
follow, since we are pressed for time. I'll make a very short 
statement in the beginning and I'll invite Senator Landrieu and 
Senator Burr to do the same. There's no need for you to read 
your testimony to us because we and the staff have that, but 
we'd like to have some discussion with you. What I'd like you 
to do is to take about 3 minutes, not to read your testimony to 
us, but to tell us the one or two things that are most on your 
mind or to summarize what you'd most like for us to hear. Then 
Senator Landrieu, Senator Burr, and I will ask questions for a 
while.
    There are nine of you and if you each take about 3 minutes 
and we don't get too long-winded up here, then we'll have 
another 30 or 45 minutes for questions, and that'll give us 
some time to focus. If that raises some questions, then we 
would like to have the opportunity to ask you to answer those 
in a written form. You also may send us other ideas.
    I don't see this as the last chance for discussion. We've 
had one meeting before. A few of you were here a few months 
ago. I intend to be involved with Orleans Parish as it works to 
rebuild its schools as long as it is useful for our committee 
to do that. I'm here for the long term, as long as we can help 
put the spotlight on what you're doing and create an 
environment in which you can succeed.
    We can't do it from Washington, and don't intend to try. 
But we can be supportive, shine a spotlight, help create that 
environment, and provide some money. That's why we're here.
    These are the remarks I would like to make. At the end of 
World War II there was terrible devastation in Japan caused by 
the bombing and one of the casualties was the Japanese steel 
industry. It was leveled to the ground. It was a terrible 
tragedy, but one of the results was that the industry had to 
rebuild, it had to come back. Instead of just doing again what 
they had done before, they looked around the world and created 
the most efficient and best steel mills in the world in Japan. 
Within a few years they were competition for the U.S. steel 
industry; by the end of the 1950s they'd nearly put us out of 
business, because they started from scratch and they used the 
tragedy as an opportunity to create the best steel mills in the 
world.
    In some ways what has happened here in New Orleans in terms 
of public schools and private schools is the same. I think 
there's widespread agreement that the public school system here 
was challenged, and most of the public schools in Orleans 
Parish were destroyed or severely damaged.
    New Orleans has an opportunity out of that tragedy that no 
other city in America has. It has permission, because of what 
had gone on here before, to build schools from scratch. It has 
a green field because of the hurricane, the tragedy, to do that 
from scratch. It has money to do it, or at least it has a lot 
of new Federal dollars.
    The Federal Government has put about $170 million new 
dollars this year into restarting Orleans Parish schools, plus 
another $44 million to create charter schools in New Orleans 
and all of Louisiana. Those of us from outside New Orleans and 
Louisiana are very excited about this prospect. There are 
different kinds of schools being created here. We'll hear more 
about that.
    But the charter school phenomenon here is of special 
interest to me. Eighteen of the twenty-five New Orleans schools 
opened in the spring of this year are charter schools. Thirty-
three of fifty-six public schools that will be open this fall 
will be charter schools. There are 3,600 charter schools in the 
United States and they have been around for about 15 years, and 
in just 1 year New Orleans will be the leading big city in 
America in terms of creating new charter schools.
    A charter school is simply a public school that frees 
parents and teachers from rules and regulations and empowers 
them to make the best possible decisions about educating 
children whose parents choose for them to go to that school. 
Charter schools are accountable to the board that created them, 
to the parents who choose to send their children there, and now 
to the No Child Left Behind Act, which requires that we know 
what the scores are for children in grades 3 through 8 in math 
and in reading.
    If I were to think of one single step that New Orleans 
could take, not just to rebuild itself, but to reestablish 
itself as one of America's most important cities and to be a 
magnet to attract people here, it would be to say that, you are 
creating and building the best big-city public school system in 
America--and that you've taken this tragedy, clean slate, and 
extra Federal dollars that have come in in order to go on the 
path of doing that.
    What I am here today to do with Senator Landrieu and with 
Senator Vitter's active interest and with Senator Burr is to 
say that we want to put the spotlight on what you're doing. We 
want to hear what you think we can do to help. We want to help 
to create an environment for that and we want to do it over the 
long term.
    I want especially to thank Senator Landrieu and Senator 
Vitter for working on a consistent basis to educate the rest of 
us in this. While nobody in New Orleans and Louisiana votes for 
me, it brings back a lot of memories from 40 years ago to be 
back here in the old Wildlife-Fisheries Building.
    Senator Landrieu.

                 Opening Statement of Senator Landrieu

    Senator Landrieu. I thank you, Senator Alexander, for 
leading this effort on a field hearing. But for those from 
Louisiana here in New Orleans and on the panel, Senator 
Alexander stepped up within days of Hurricane Katrina and Rita 
hitting our area. He stepped up with Senator Enzi, Senator 
Kennedy, Senator Carper, and a handful of Senators on both 
sides of the aisle, to see what they could do to help the over 
300,000 school children in all of our schools, public, private, 
and parochial, that were displaced--children who had literally 
showed up to go to school 1 week, were in school a few days, 
and then a storm took their school, their homes, their 
churches, their neighborhoods, and everything they knew away 
from them.
    It's never happened before in the history of our country in 
that way exactly, not the magnitude of it, not the quickness of 
it, not the devastation of it. These Senators stepped up to 
pass truly unprecedented--no precedent for the legislation that 
moved through, and it was one of the first pieces that moved 
through, to try to provide funding at least to stabilize the 
situation to where all these hundreds of thousands of children 
could find at least a temporary home in some school, somewhere, 
in some community, that could help them.
    The reason that we pushed for that, and it was really the 
push from our superintendent, who is not here, but I want to 
give Cecil Picard tremendous credit publicly, is because he 
knew what many parents knew and what leaders should know 
instinctively, that once kids are safe, parents can calm down 
and start assessing what happened; getting their feet 
underneath them, and getting children in school was a very 
important thing for many families. Now, not every family that 
was displaced obviously had school-aged children. But for 
parents, grandparents, aunts and uncles, concerned cousins, it 
was weighted on their minds to get their children safely to 
school.
    We didn't do it all perfectly, but we did it pretty well. 
Now our challenge is to build a better system than the one that 
has been left behind or torn asunder by the water and the wind. 
Before Katrina and Rita these Senators know that this State was 
about the business of building and strengthening our school 
system, it had made a tremendous amount of progress in my view. 
In fact, we were cited by some of the outstanding education art 
magazines and publications as having the finest accountability 
system in the country. The BESE board, Linda, under your 
guidance and many of the board members that are here, had 
already done a tremendous amount of work. Chris, as the 
Chairman of the Education Committee, you had stepped up for 
many years. Phyllis, as the Chair of the New Orleans School 
System--there had been a tremendous amount of work under way 
already.
    But now we can take the pieces that were there and put them 
together, with the help of these Senators and Congressmen and 
the added focus and the willingness of Washington to help.
    I'll end only with this. We have already appropriated, 
unlike the panel before that's still looking for where their 
money is coming from. You heard their stories. We have $450 
million already appropriated for this restart effort, already 
appropriated. That was appropriated 6 months ago and I can say 
with confidence that as this plan emerges, if it emerges in a 
strong reform way that can build bipartisan support, there will 
be more resources available to build it, because we need to 
build it, not just for the city, not just for the State, but 
for the Nation as well.
    So I thank you all for what you're doing. It has not been 
easy, but it is going to--we're going to do it. It's doable, 
it's attainable, and I just thank you, Senator, for your 
leadership.
    [The prepared statement of Senator Landrieu follows:]

                 Prepared Statement of Senator Landrieu

    Good morning everyone. I would like to thank the Health, 
Education, Labor and Pensions Committee for holding this very 
timely hearing on K-12 education in New Orleans. I would 
especially like to thank Senator Alexander and Senator Burr who 
are with me today. I am also pleased that our esteemed 
panelists could join us and I know they will offer depth to our 
discussion.
    We are all here today because we care about the children of 
New Orleans. We want them to be able to rebuild this great city 
into something that we have been proud of and will continue to 
call home. In order to prepare them for this challenge, it is 
our duty as lawmakers, educators and parents to allow them 
every available educational opportunity. Unfortunately in the 
past, we have failed our children. I will not stand for failure 
again.
    As you all know, New Orleans has a school system with 
multiple governing bodies, all of which are represented here 
today, including the Recovery School District, the Louisiana 
Department of Education, the Orleans Parish School Board and 
the Louisiana Board of Elementary and Secondary Education. All 
of these entities have worked tirelessly to make a difference 
for the children of New Orleans.
    Before Katrina, the New Orleans Public School System was 
the 49th largest school system in the United States, with 
60,000 students in 117 public schools. Our school system was 
one of the worst in the country. After Katrina, only 20 percent 
of enrollment with 25 schools open and 12,000 students 
enrolled. Eighteen of these schools are charter schools. 
Thirty-one schools are scheduled to reopen in the fall, fifteen 
of these being charter schools, with 22,000 more students 
expected. Fifty percent of our children will be back in the 
city and sixty percent of the schools will be charter schools.
    As I have said many times before, Hurricanes Katrina and 
Rita have given us an opportunity to start fresh with a clean 
slate. We must take this challenge and run with it. It is 
incomprehensible to even think of slipping back into the old 
patterns of our destructive behavior. Our children have 
survived the storms, but mark my words--they will not make it 
through a failed schools system with such resiliency.
    We have brought you together today to discuss innovative, 
new ideas for the future and how we can transform these ideas 
into a concrete, concise plan. There is no time for nebulous 
ideas or a bureaucratic pace. We have a call to action and the 
call is now. As our children and families trickle back into the 
city, we must have a state-of-the-art school system awaiting 
them.
    I believe that the school system in New Orleans should 
incorporate the ideas and spirit that the ``Bring New Orleans 
Back'' plan that Scott Cowen and the ``Bring New Orleans Back'' 
Education Committee, appointed by Mayor Ray Nagin, has 
formulated. This plan was created by collecting facts based on 
our previous and present school system that allowed all members 
of the community to participate and stay informed. The 
committee heard from more than 1,500 New Orleanians, including 
principals, teachers, parents, and students about their 
experiences, needs and hopes for the future of the schools 
system. This committee has worked with various experts 
including everyone from: pastors of local churches to 
policymakers with best practices. Student achievement and 
success is the basis for this plan.
    As President Cowen will discuss in detail, the Bring New 
Orleans Back plan is a series of charter school networks with a 
shared service provider. There will be clusters of charter 
schools, anywhere from 4-10 schools, in a network. These 
networks will be run by local universities, authorizers, 
businesspersons, etc. Each network will have a shared service 
provider. In essence, this provider will take care of food 
production, garbage disposal, financial services, and any other 
service the principal may need additional assistance with. In 
creating this type of model with assistance in the very areas 
that many charter schools fail, we are setting up our schools 
for inevitable success. This plan, however, cannot be set aside 
on a shelf. We must act quickly and put this type of model into 
place immediately.
    As I imagine this city in the future, I dream of the way 
New Orleans was when I was growing up--only better. I dream of 
families being reunited, I dream of classic restaurants 
reopening, I dream of people being able to move back to their 
ancestors' land, I dream of a bustling river and music in the 
streets, I dream of the soul of New Orleans that has never 
quite left us even though the largest storms in our most recent 
history have knocked us to our knees. But my biggest dream, the 
one that gives me the greatest pleasure--is the dream of a 
greater schools system for our children that literally cannot 
take another blow. Our children deserve the greatest we have to 
offer them.
    I know that we can make this happen, but it is not going to 
happen on its own. We have to fight for what is best and stand 
united. I know that it is imperative that we get the next 31 
schools open as quickly as possible in the fall, but I also 
know that the long-term is what will carry our great city to 
its ultimate success. The Bring New Orleans Back plan is a well 
thought out plan that can work and will be a model for the rest 
of the country.
    I urge you, as lawmakers, educators and parents, to take a 
closer look at this plan and to work to see it implemented. 
When the country looks at New Orleans in 5 years, I want them 
to see a model school system with innovative ideas and excited 
students. I want charter school authorizers from all over the 
country to fight for the chance to open schools in New Orleans. 
I want the children who graduate from our schools to take New 
Orleans and all that we love about it and claim it as their 
own. I want them to know that hurricanes cannot destroy the 
spirit of a city--for it is the people that hold the spirit and 
the people that will bring it back. Let us educate our people, 
empower their spirit and soul and give them the tools to 
continue on the great legacy of New Orleans.
    I know that you all will work to the best of your ability 
to make this happen for all of our children. I stand ready to 
help you in any and every way possible. Educating the children 
of New Orleans has and will continue to be my top priority. Let 
us work to promote a transparent education system so that all 
children can grow up in a healthy learning environment, in an 
atmosphere of happiness, love and understanding. Thank you 
again for being a part of this panel and to my colleagues, 
Senators Alexander and Burr for being here with us today. 
Please do not hesitate to contact me with any further 
questions.
    Senator Alexander. Senator Burr.

                   Opening Statement of Senator Burr

    Senator Burr. Thank you, Lamar.
    I thank each and every one of you for your patience. Trust 
me, when the hood of a plane is up, you don't press your luck 
until somebody says it's fine.
    For the future of New Orleans, the State of Louisiana, and 
every State and locality in this Nation, it's imperative that 
we do all that we can do to assist all students, regardless of 
background, to reach academic standards that are high. Focused 
on the positive opportunities of the future, the New Orleans of 
today offers its students, parents, and educators a clean 
educational slate. The innovative ideas in education being 
implemented here and planned for the new New Orleans offer this 
city the opportunity to build a world-class educational system 
that may one day be a model of reform in the Nation's school 
districts as a whole.
    I want to thank you for your willingness to be here, but 
more importantly for the level of passion that you display for 
the children of this community.
    Mr. Chairman.
    Senator Alexander. Thank you, Senator Burr.
    There's one other important person I'd like to introduce 
before we begin the testimony. Gordon Alexander Cole is here. 
He is 12 years old. Gordon, will you stand for just a moment, 
please.
    [Mr. Cole stands.]
    He delivered to me a letter. He wanted me to know about an 
organization he's starting entitled HELP, Helping Educate 
Louisiana Pupils, to get people to donate books in satisfactory 
condition to traditional public and charter schools in New 
Orleans. Gordon, what I'm going to do is put this in the 
Congressional Record so more people will know about what you're 
doing, and I wanted to introduce you and thank you for your 
work.
    [Applause.]

                                 ______
                                 
                   Letter from Gordon Alexander Cole
                            Gordon Alexander Cole, Student,
                            Isidore Newman School, New Orleans, LA.
  
    To whom it may concern: Hello, my name is Gordon Alexander Cole. I 
am 12 years old, and I attend Isidore Newman School, New Orleans, 
Louisiana. I would like to inform you about an organization that I am 
starting, entitled ``H.E.L.P.'' (Helping Educate Louisiana Pupils). Its 
purpose is to donate books in satisfactory condition to the public and 
charter schools of New Orleans.
    Reading is very important to me because it exponentially increases 
the knowledge and vocabulary of the reader. Books also provide an 
endless window to places you have never ventured to. They also 
stimulate your imagination, not to mention providing personal 
satisfaction. That stimulation helps you to become more innovative and 
resourceful. Reading also provides an opportunity to open people's eyes 
to new experiences, while increasing intellectual curiosity, 
competence, ambition and dreams. Without that ambition and personal 
drive, there would not be any goals in life for many people.
    I couldn't let this opportunity pass without attempting to 
contribute something to the common good. Therefore, I decided to start 
this organization to help replenish the libraries of the public and 
charter schools of New Orleans.
    If you have any old books in medium/good condition, please send 
them to: Gordon Cole, 1435 Henry Clay Ave., New Orleans, LA 70118.
    Thank you for your time and consideration regarding this matter.
            Sincerely,
                                             Gordon Alexander Cole.
                                 ______
                                 

    Senator Alexander. Now, let me suggest that we start with 
Linda Johnson, President of the Louisiana Board of Elementary 
and Secondary Education, and move right down the line to 
Senator Ullo. If you could each take about 3 minutes to give us 
a summary or the one or two things that highlight your 
testimony, then Senator Landrieu and I and Senator Burr will 
have a chance to ask some questions, and go back and forth.
    Linda Johnson, thank you for being here.

  STATEMENTS OF LINDA JOHNSON, PRESIDENT, LOUISIANA BOARD OF 
  ELEMENTARY AND SECONDARY EDUCATION; SARAH OTTINGER, PARENT, 
      AUDUBON CHARTER SCHOOL; FATHER WILLIAM F. MAESTRI, 
SUPERINTENDENT OF CATHOLIC SCHOOLS, ARCHDIOCESE OF NEW ORLEANS; 
    CAROLE BUTLER-WALLIN, DEPUTY SUPERINTENDENT, LOUISIANA 
     DEPARTMENT OF EDUCATION; ROBIN JARVIS, PH.D., ACTING 
   SUPERINTENDENT, RECOVERY SCHOOL DISTRICT; GREG RICHMOND, 
PRESIDENT, NATIONAL ASSOCIATION OF CHARTER SCHOOL AUTHORIZERS; 
   BRIAN RIEDLINGER, PH.D., CHIEF EXECUTIVE OFFICER, ALGIERS 
   CHARTER SCHOOLS ASSOCIATION; PHYLLIS LANDRIEU, PRESIDENT, 
 ORLEANS PARISH SCHOOL BOARD; SENATOR J. CHRIS ULLO, CHAIRMAN, 
           LOUISIANA STATE SENATE EDUCATION COMMITTEE

    Ms. Johnson. Thank you very much.
    Senator Alexander. If each of you would introduce 
yourselves, I think that will speed things up as we go.
    Ms. Johnson. Thank you very much. I'd like to thank the 
committee for coming to New Orleans. In particular I'd like to 
thank Senator Landrieu for the hand-holding, for the support, 
for the money, for coming back, and for helping us through this 
disaster. I know you're from here, but we really appreciate it.
    Also, I'd like for you to know that one of the other BESE 
members is in the audience, who represents this area, Mrs. 
Louella Gibbons, and she's sitting right here. I want you to 
know that.
    Senator Alexander. Welcome.
    Ms. Johnson. There are some things that I think I should 
tell you about what I believe is the best thing that we could 
have ever done. Pre-Katrina we had a problem with the schools 
in New Orleans in terms of performance, student performance, 
pre-Katrina. Pre-Katrina, as a board we were sitting around 
trying to decide how do we make them better. This was pre-
Katrina. We had in place a Recovery School District where we 
were placing one or two schools as they failed into the 
Recovery School District, which absolutely would not cure the 
problem.
    That was pre-Katrina. Post-Katrina we realized that now we 
have an opportunity to do something and to make it better. So 
we amended basically the Recovery School District law that we 
had. We actually came up with another one. And we ended up with 
108 of the schools. Please understand, 60 of those schools 
would have been academically unacceptable prior to Katrina, so 
we would have had that magnitude of problems.
    One of the things that I support--and as I sit here and as 
you look at me, I actually look like 98 percent of the kids who 
were in the public school system. So I'm very supportive of the 
New Orleans public school children, and I'm supportive to the 
point of I want them to have the best opportunity possible. The 
way you make opportunities, you give people choice. That is one 
of the ways that you make opportunity. If you have the 
opportunity to send your child to school A or to school B and 
school A is better but you have that opportunity, that is where 
you will send your child.
    I firmly believe that people in New Orleans support this, 
that they were looking for and are looking for places for their 
children to be successful. So what we have done at BESE is we 
have--I think we have created a model. I personally believe it 
is a model in the Recovery School District. We have schools 
that will be operated by the State and we have schools that 
will be operated by charter.
    We have left intact the Orleans Parish School Board system 
and its schools that they will operate, and there's a reason 
for that. You look across the country at some of the 
literature, you'll find that once you get into the governance 
issue you get off of the education issue. So we decided to stay 
on the education issue.
    In order to stay on the education issue--oh my goodness.
    Senator Landrieu. Three minutes is quick.
    Senator Alexander. Go ahead and finish your thought.
    Ms. Johnson. But in order to stay in the education issue, 
we chose not to tackle the governance piece. We didn't go after 
the superintendent, we didn't try to change the board, we 
didn't try to get a committee to come in. We--and I think I 
speak for the other 10 members--we're about the children. So we 
wanted to create academic excellence. We wanted to create it 
for all the children in the public school system in Louisiana 
and in New Orleans in particular. So we didn't get involved 
with the governance piece. We're strictly involved with the 
academic piece.
    I think we have created a system, and anything that you 
create that's new, you know it's change, so it takes some 
getting used to. It takes some communications processes that we 
may have to improve upon in order for people to understand what 
it is we're doing. I have heard some of that today.
    But yes, it's not as transparent as we would like for it to 
be, but it's getting there. So I'm very satisfied with the 
system of education, the model that we have, and I do think 
it'll be a model for the country.
    [The prepared statement of Ms. Johnson follows:]

                  Prepared Statement of Linda Johnson

                                OVERVIEW

    Elsewhere in the country, when a State or city ``takes over'' a 
failing school district, they really take over the governance, by 
changing the school board and/or controlling the superintendency. The 
new governing authority inherits the existing central office, the 
existing policies and procedures and the historical culture of the 
district. These efforts to reform the ``system'' have met with some 
limited success, but have not transformed the academic performance of a 
low-performing district.
    In New Orleans, the State's takeover is the reverse of other 
efforts nationally. The local school board and its superintendent were 
left intact, and the board retained the right to run 16 schools and 
remains the taxing and bonding authority for all public schools in 
Orleans Parish. The State, in essence, took over empty school 
buildings, the right to operate the schools, and the money (local, 
State and Federal) to educate the students attending State controlled 
schools. The State did not take over the central office; it did not 
retain existing employees, it did not inherit existing policies and 
procedures.

                    A NEW MODEL FOR URBAN EDUCATION

    As the State reopens schools, it is doing so in a new framework. 
The State Board of Education (BESE) has approved an operational plan 
for the Recovery School District (RSD) that outlines the principles and 
goals of the RSD and how the RSD will operate its own schools and work 
with schools it charters.
    The Bottom Line.--New Orleans now has the most free market public 
education system in the country. The challenge for the RSD is to find 
the right balance between the free market and the need for 
systemization of some areas of operation.

                          PUBLIC SCHOOL CHOICE

    Parents can choose to send their child to any school in the RSD, 
space allowing. The RSD operated and chartered schools are open to any 
student, and none of the schools have attendance zones. If demand 
exceeds supply, the school must hold a lottery. Schools are also 
required to provide transportation for any student who lives more than 
1 mile from school.

                        EQUITY OF SCHOOL FINANCE

    Whether RSD operated or RSD chartered, the money will follow the 
student. BESE has adopted a school financing formula that provides one 
funding amount for a regular education student and different funding 
for students with special needs. Schools will only be funded for the 
students they educate.

                 STRONG AND TRANSPARENT ACCOUNTABILITY

    All RSD schools are subject to Louisiana's school accountability 
system, which was ranked No. 1 in the country by Education Week. Every 
summer, the State will release the performance scores for all RSD 
schools, so parents can exercise informed choice.
    BESE has established the 2006-2007 school year as the baseline 
year. Charter schools must meet certain growth requirements by the end 
of year three, or their charter is revoked. They must meet additional 
growth requirements by the end of year five, or their charter is not 
renewed.

                       COMPETITION FOR EMPLOYEES

    A majority of schools in the RSD and in the city will be charter 
schools. Each charter school can establish their own pay and benefit 
structure and is not subject to a collective bargaining agreement or 
the State's tenure law.
    BESE has adopted a salary schedule for all RSD operated schools, 
and the RSD operated schools must provide tenure.

                  COMPETITION IN NONACADEMIC SERVICES

    BESE is requiring all RSD schools to use the same Student 
Information System and IT platform. Otherwise, schools will be able to 
purchase services from a shared service center operated by the State, 
or from other vendors. This structure requires that the RSD build 
quality support services that schools value, or schools can purchase 
services elsewhere. Some of these services include transportation, food 
service and building maintenance

                              SCHOOL FOCUS

    The RSD began operations with no central office staff. It will be 
operating schools with a minimal central office, allowing resources to 
be spent at the school site.
    RSD chartered schools have control over their time, people and 
money. The plan adopted by BESE recognizes the autonomy of the charter 
schools. The funding formula passes 98.4 percent of the per-pupil 
funding directly to the charter school.
    The RSD operated schools are being managed in a more traditional 
manner, although the State is allowing principals to select and manage 
their staffs.

                       CURRICULUM AND INSTRUCTION

    New Orleans has a tradition of highly mobile students. While a 
family can move and attend the same school (there are no attendance 
zones), the RSD is working to balance the autonomy of charters with the 
need for some continuity among schools.
    All but one school in the RSD will be using Louisiana's 
Comprehensive Curriculum. All schools will participate in tests based 
on Louisiana's Grade Level Expectations, which will require that 
schools cover the same content in each grade. The professional 
development provided to RSD operated schools will also be offered to 
RSD chartered schools.

                     OTHER POLICIES ADOPTED BY BESE

    Special Education.--All charters must have 10 percent special needs 
students.
    Expulsion.--The State will conduct all expulsion hearings for RSD 
schools.
    Alternative Schools.--The RSD will be operating 2-3 alternative 
schools to serve students citywide.

                         SHORT-TERM CHALLENGES

    <bullet> Need to ``camouflage'' the complexity of the governance 
model

        <bullet>  One place for parents to get information on schools, 
        register, file complaints, etc.

    <bullet> Need for a clearinghouse for Community Involvement

        <bullet>  Anyone wishing to interact with the charter schools 
        has no place to go. This includes donors, business partners, 
        volunteers, social service agencies, etc.

    <bullet> Educating the Public

        <bullet>  Everyone is accustomed to a top-down model for public 
        education. They are used to going to the board and/or the 
        superintendent to get a decision made affecting all schools. 
        With the majority of schools in the parish now chartered, New 
        Orleans has a decentralized decisionmaking structure.

                   UNINTENDED CONSEQUENCES (POSITIVE)

    <bullet> More civic engagement.--Sectors of the community that long 
ago abandoned public education are now serving as charter board members 
and engaging in public education.
    <bullet> No more circus-like board meetings.--The OPSB board 
meetings were destructive and prevented civil discourse. Now, with the 
lack of one central authority, the obstructionists cannot gain a 
foothold. While charter board meetings are subject to the open meetings 
law, they are not televised, there are too many meetings to monitor, 
and truly interested parties now participate, preventing the 
obstructionists from gaining control.
    <bullet> This structure was the only way to terminate OPSB central 
office employees, eliminate the collective bargaining agreement and 
leverage the opportunity to start anew.

    Senator Alexander. We'll come back to you. Thank you very 
much.
    Ms. Ottinger.
    Ms. Ottinger. Good afternoon. My name is Sarah Ottinger. 
I'm a parent of a 3rd grader at Audubon Charter School here in 
New Orleans, and I just want to let you all know that my son 
turns 9 today and that this is a very good place for me to be 
on his birthday.
    I'm really enormously grateful for the opportunity to talk 
about public school education in New Orleans today, and thank 
you very much, Senator Alexander, for inviting me to do so.
    In my 3 minutes, the points that I'd like to emphasize: I 
come from a school that prior to Katrina, or my son goes to a 
school that prior to Katrina, was what we called a citywide 
access school, CWAS, with a very unique curriculum that had 
been in place for 25 years. We have a part French program and a 
part Montessori program, and we were a very strong community 
and we have very, very strong values, cultural values, in our 
community, that have really carried us through Katrina in a way 
that has allowed us to rebuild our school so that it's better 
than we could have imagined. I understand that I have 
tremendous--my son, I, all of the parents and kids at Audubon 
have a tremendous privilege to be in that position right now.
    A couple things that I want to emphasize. One of the things 
is that we were a very diverse population before Katrina. We 
had about 59 percent of our student population whom were 
African-American. Forty-one qualified for free and reduced 
lunches. We are continuing--we made a very important decision 
this year within our charter school to remain an open 
enrollment school, so that children throughout the city have 
access to our school. We do that because we believe the 
Montessori curriculum and the French curriculum is made for all 
kids and that kids will succeed within that environment.
    I would like to stress that I think that parent involvement 
makes for a very, very good school. We talk a lot about parent 
involvement as a passive concept. I think that parents need to 
become a force, not that we need to run schools, because we all 
know we're not qualified to, although sometimes we think we 
are. But parents need to be there organizing and advocating on 
behalf of their children, on behalf of their communities. It's 
something that needs to come from within the community and not 
from the school administration, although I think that the 
resources are very, very necessary in order for that to come in 
all school communities in New Orleans. I've set out more in 
detail what I think about that in the written testimony.
    The final thing I'll do in 3 seconds, which I have to do, 
is that one of the biggest struggles we've faced as a school is 
that our funding has not come through in a prompt manner. We 
have had a lot of difficulty meeting payroll and the only 
reason that we were ultimately able to do that and have kept a 
really happy school environment for doing that was because we 
happened to have a PTO account of a substantial amount of 
money. But we've had a tremendous amount of difficulties. We're 
still waiting on title I funding that was for the 2005-2006 
year and we're not sure it's even going to be awarded, as I 
understand it, before September. So the money that has been set 
aside is not making it quickly to us.
    Thank you very much for the opportunity.
    [The prepared statement of Ms. Ottinger follows:]

                  Prepared Statement of Sarah Ottinger

    Good morning. My name is Sarah Ottinger and I am the mother of an 
Audubon Charter School student here in New Orleans. My son turns 9 
today, and I can think of no better way to spend the morning of his 
birthday than talking about public school education in New Orleans.
    First I'd like to thank you, Senator Alexander, for this 
extraordinary opportunity to share my thoughts about New Orleans public 
schools following the tragic flooding of our beautiful city. When I was 
first invited to do so, I thought I would be on a panel of parents 
today. When I later discovered that I would be the only parent, I felt 
a bit overwhelmed. I must point out that I am only one parent whose 
privilege and work experience has made it possible for me to take full 
advantage of the opportunity this horrible disaster ironically offered 
to participate in rebuilding my son's school so that it is better than 
I could have imagined before August 29, 2005. Everyone involved in 
rebuilding New Orleans public schools should strive to make the same 
true for all our public school parents and children.
    I'd like to share our school's story because I think it is 
illustrative of what parents and children need in a New Orleans public 
school system.

                 THE EARLY PERIOD: WRITING OUR CHARTER

    In early September of last year, I found myself in Houston, Texas, 
disconnected from my home, my life, and everything familiar. Some of 
the first contacts I made, by text messaging and e-mail, were with the 
parents and teachers at my son's school. I was President of the PTO at 
the time and we had several e-mail systems in place that allowed those 
of us who had the means to evacuate to contact one another easily. 
Those early communications were welcome lifelines in a sea of despair. 
Our school community was a strong one and it helped us all survive the 
tragedy unfolding before our eyes on television.
    Early on, we exulted in learning that our school building was 
intact and had not been flooded. But our joy was short-lived. Soon 
afterward, we heard that our school as it existed prior to Katrina 
would be closed. Instead, it would reopen as an open access citywide 
school that would not preserve Audubon's community or our curriculum. 
We were a unique school with two unique and separate pre-K through 8th 
grade curricula: a Montessori program and a French program. Our school 
was founded in 1980, and we were about to celebrate our 25th 
anniversary. The storm apparently had wiped us out.
    In late September, still in Houston, I received a call from one of 
the founders of Audubon Montessori/L'Ecole Franco-Americaine. She and 
the second founder wanted to explore the viability of writing a charter 
school proposal for Audubon. Would I be willing to contact as many 
parents and teachers as possible and to schedule a meeting in New 
Orleans to discuss chartering Audubon?
    Yes, I was willing! It would be our only chance to survive as a 
school and a community. So, many phone calls and e-mail discussions 
later, a small group of us met in New Orleans on October 8 to discuss 
our options. We all agreed and committed to push forward to preserve 
our school in the only way possible--by seeking a charter.
    I cannot say that the process of writing the charter proposal was 
easy. It was a Herculean task that needed to be accomplished in a few 
short weeks, by October 27, and we reached several junctures of 
passionate disagreement that required swift, sometimes ruthless, 
compromise for the greater goal of completing the charter application. 
My job in the process was to contact parents and teachers to poll their 
support for the charter and to write the portions of the charter 
dealing with legal issues and parent involvement. The co-founders of 
our school, Jill Otis and Joyous Van Buskirk, worked with two teachers 
to write the remainder of the charter application. I do not know how 
they did it, although I know the process involved deep commitment and 
significant sleep deprivation.

               AUDUBON CHARTER SCHOOL: OPENING OUR DOORS

    The Orleans Parish School Board approved our charter school 
proposal unanimously on October 28, 2005 and we became Audubon Charter 
School. We had promised to reopen the school's doors for students on 
January 3, 2006. The newly created non-profit organization responsible 
for accomplishing this task, French and Montessori Education, Inc. 
(FAME), had a bank account with a balance of zero.
    At that time, I knew of only five parents from our community living 
in New Orleans, however several PTO Board members spread out across the 
country had been actively involved in reestablishing connections with 
other parents. Our PTO had been incorporated as a non-profit 
organization for 6 years and had, along the way, managed to save almost 
$140,000 designated for capital improvements to our school. Parents 
organized to collect all the e-mail addresses we had and establish an 
online voting site to approve a loan of $50,000 to FAME so that it 
could begin the job of opening our school. With that money, FAME was 
able to rehire our Principal, Janice Dupuy, and to pay for the early 
expenses involved in reopening our school and registering students. 
During the 2 months leading up to reopening Audubon Charter School, 
everything else was accomplished by volunteers and donations.
    I cannot overstate our Principal's leadership abilities or her 
commitment to our school and our community. She had lost family members 
and her house to the flooding, and her own children were in schools in 
Baton Rouge and St. Francisville. She had no place to live in New 
Orleans. Yet she returned, organized volunteer parents, teachers, and 
staff, and began the tremendous process of recreating our safe, 
vibrant, academically excellent school in a devastated city. She did 
all this with grace, compassion, and composure that were rare in our 
city following Katrina, for we were a city of traumatized people who 
were all very raw around the edges.
    We knew our success and viability as a school depended on 
registering a sufficient number of students (we estimated 200) for the 
spring semester. We also knew that preserving the culture of our school 
and community meant reaching our diverse parent body and an equally 
diverse new parent body. We were terrified, frankly, that our school 
would lose its economic and racial diversity. Prior to Katrina, 41 
percent of our student body had been receiving free or reduced lunches 
and 59 percent of the student body was African-American.
    Our online communications were reaching only 10 percent of parents 
and largely those with economic privilege, so we organized a phone 
outreach campaign. A single parent combed through the emergency 
contacts for every child that had been registered to attend Audubon in 
the fall and compiled a database of last known telephone numbers. 
Several parent volunteers then called the 500 previously registered 
families one by one, generally reaching families through cell phone 
numbers. Those who made the phone calls were overwhelmed by the losses 
our overall community of parents had sustained, yet equally overwhelmed 
by the tears of joy and relief shed when parents learned that Audubon 
would reopen. Many parents expressed that the knowledge that their 
child or children were assured a place at Audubon, beginning either in 
January or the following August, gave them hope that they might return 
to New Orleans despite the significant losses they had sustained.
    Meanwhile our Principal located and hired as many of our previous 
faculty and staff as she could contact and began the hiring process for 
new school personnel. Her almost 30 years' experience in the Orleans 
Parish Public Schools, her excellent reputation as a teacher, 
administrator, and leader, and Audubon's excellent reputation as a 
school made it possible for her to recruit and hire the most qualified 
and committed administrators and teachers.
    As we began envisioning reopening, we realized that we needed to 
put as many of our former strengths as a school back in place. For a 
long time, after school care at Audubon, offered through the New 
Orleans Public School ADEPT program, had been considered inadequate by 
many parents due mainly to what we considered to be a failure to 
provide both structured and enriching activities for the children as 
well as adequate adult supervision and interaction with children. For 2 
years prior to Katrina, the PTO had organized and offered an after 
school arts program, called Arts Reach, to children who wished to 
register for a fee. We did our best to make scholarships available to 
children who could not afford the fee. We offered classes taught by 
local art teachers, musicians, and artists ranging from music and 
dance, to painting and pottery, to basketball and chess (we had a broad 
definition of ``arts''!).
    We knew we needed to get our after school arts program up and 
running by January. The former director of the program would not be 
returning to New Orleans, but we found a parent artist who had 
previously expressed interest in directing the program. She spent 
countless hours from Florida tracking down previous teachers and 
creating a new curriculum without any sense of the number of children 
who would be returning to Audubon. When Audubon reopened in January it 
did so with a full curriculum of after school arts classes and we were 
able to give out 50 scholarships to students who could not afford to 
register for the classes.
    In addition, Ms. Dupuy, our Principal, hired an extremely qualified 
coordinator for after school care. The new coordinator ran the program 
as her own stand-alone program, though the program maintained a bank 
account administered through Audubon Charter. The new coordinator hired 
her own staff for the program and made numerous changes to what had 
existed before, resulting in much higher quality after school care. 
Adults staffing the program engaged meaningfully with children and 
provided many activities, allowing children to choose what they liked 
to do with their time. My son, who had always resented after school 
care, starting asking me if he could stay for it on days I didn't need 
it. The main and very simple difference for him was that he was allowed 
as much time as he wanted to play outside on the basketball court and 
playground equipment.
    I should point out in this context that the playground equipment at 
our school, which is excellent, was not something we had obtained 
through the public school system. Instead, a couple years earlier when 
parents became disgusted with broken-down rusty playground equipment, 
and concerned at the number of injuries to children that occurred on 
the equipment, the PTO voted to spend about $70,000 of its capital 
improvement fund to have the equipment installed.
    In addition to strengthening our after school programming, we were 
able to provide our children with many additional opportunities for 
learning and growth during the school day. Given the anticipated 
budget, Ms. Dupuy was able to hire a full-time art teacher, physical 
education teacher, and music teacher as well as a part-time dance 
teacher. Ms. Dupuy was also able to hire part-time teaching assistants 
through the FAME budget for the school, something the school system had 
never provided and parents had diligently worked to raise funding for 
through the PTO.
    Finally, we were able to do what we had been frustrated from doing 
for many years as an Orleans Parish Public School. We are now able to 
provide ongoing Montessori training and certification for our teachers 
and administrators in the Montessori program, as well as ongoing 
training in France through the French government for our teachers and 
administrators in the French program. Particularly when it came to our 
Montessori program, for years prior to becoming a charter school we had 
fought systemwide curriculum requirements and teacher training imposed 
on our school that had no relevance to the educational curriculum 
provided there. Freeing ourselves from requirements that did not make 
sense at our school was truly liberating to administrators, teachers, 
staff, and parents alike.

             AUDUBON CHARTER SCHOOL: SURVIVING AND GROWING

    We reopened in January with 250 students and crept up in numbers in 
the course of the spring semester to 350 students. Our biggest 
challenge in the beginning was that we did not have a steady source of 
money and had very little in our bank account. Without grants from the 
French government and loans from the PTO capital improvements account, 
Audubon would not have met payroll and expenses on several occasions 
through March. Both Federal and State funding was shamefully slow in 
coming and did not arrive on dates we had been promised it would 
arrive.
    Audubon also would not have opened its doors or kept them open 
without the valuable business operations assistance of a past Audubon 
parent who quit her job so that she could put all her time, on a 
volunteer basis as a member of the FAME Board of Directors, into 
working through the myriad of services and ongoing maintenance related 
to keeping a school building open. She was assisted by Alvarez & 
Marsal, which met with all the newly-opening charter schools in New 
Orleans as a group, to provide guidance and group bargaining power to 
the charter schools working through the complexities of repairing storm 
damage to school buildings, reestablishing office communications 
systems, providing school lunches and custodial services, obtaining 
adequate insurance, establishing payroll and billing systems, and the 
many, many other tasks that had formerly been handled by the school 
system.
    Seeking funding to sustain our viability as a charter school was 
critical. Until the FAME Board of Directors was up and running and 
fully established as a 501(c)(3), the PTO Board identified grant 
opportunities and wrote applications for them. We also sent out a 
fundraising letter to every French and Montessori school we could find 
across the country. Once school reopened, the FAME Board established an 
executive fundraising committee composed of FAME and PTO Board members 
and other parent volunteers. Our FAME Board Chair secured a donation of 
a part-time experienced fundraiser and grant writer and under her 
direction we had weekly phone conference calls to aggressively pursue 
grants and donations. The end result was that between January and the 
close of our fiscal year on June 30, we raised $500,000 in private 
grants and donations. This includes a local grant we recently received 
for a full-time social worker, a particularly critical need for all 
schools post-Katrina.
    Meanwhile, our Principal and her very capable administrative staff 
applied for every form of State and Federal funding appropriate to our 
school and student body. This was no easy task, as deadlines and 
requirements kept changing. While several applications for title grants 
have been successful, my understanding is that we must spend the money 
before we can receive it through reimbursement. Our goal in private 
fundraising is to have a sufficient reserve of cash on hand to benefit 
from title funding.
    We have actively sought in-kind donations as well as monetary ones. 
Our teachers have wish lists, and we provide those to people who 
contact us wanting to make donations. In the course of the spring 
semester we have received donations of books, sports equipment, musical 
instruments, video equipment, and art supplies, and we have a large 
donation of computers forthcoming. Over the summer, a parent carpenter 
will be building wood cubbies in Montessori classrooms for the cost of 
the materials, to be paid for by the PTO. And we received an 
extraordinary donation from the Rex Parade Crewe's Project Purple. They 
donated the services of a local landscaper and the plants and trees the 
landscaper selected, then recruited an out-of-town pharmaceutical 
company that was in New Orleans for a convention to do the planting. 
The ongoing watering of the plants and trees became the project of 
several Montessori classes. Our school grounds have never been so 
beautiful.
    The FAME Board made a critical decision back in February, one that 
I wish all charter schools would make. We will be an open enrollment 
school in Kindergarten through 3rd grade. While preference will be 
given to students who attend Audubon's pre-K or students with prior 
Montessori or French education, the remaining spots will be determined 
by lottery once the application procedure has been completed. Admission 
to the 4th-8th grades, which will likely have very few spots available, 
will be determined by a matrix system that factors in an applicant's 
ability to excel in our French or Montessori curriculum.
    In May, the Orleans Parish School Board granted Audubon's request 
for an additional school building. We will open in August with two 
campuses, the Broadway Campus and the Carrollton Campus. The Broadway 
Campus will house students in Kindergarten through 5th grade. The 
Carrollton Campus will house our pre-K and 6th through 8th grade 
students. Our enrollment will expand significantly with an anticipated 
650 students next year. The numbers are being added primarily in pre-K 
through 3rd grades. Over the next several years, our numbers will 
increase in the 4th through 8th grade classes and our overall 
enrollment will increase to 850 students. This represents an increase 
of almost 350 students from our pre-Katrina days.
    Audubon is an oasis in the midst of the destruction to our city and 
our lives following the levee breaks. The atmosphere of the school is 
lighter, less tense, more optimistic following becoming a charter. 
People are happy--teachers, administrators, staff, and parents. 
Governing decisions are made by a Board that wholeheartedly supports 
our culture and curricula, and makes its decisions in an even-handed, 
fair manner. We have more resources and are able to allocate them 
consistent with the mission of our school. We are stronger than we have 
been for a long, long time and are no longer subject to constantly 
changing policy in constantly changing school system administrations. 
We have experienced a rebirth.
    There is not a day that goes by when I do not feel how fortunate I 
am to drop my son off at Audubon. We are blessed beyond what I could 
have imagined. I'm not an educator, but I think what I have learned as 
an involved parent can be applied systemwide in public schools.

                            LESSONS LEARNED

    Schools thrive when their community and culture are strong. A 
strong school community and culture develops over time with strong 
leadership; with a strong academic curriculum, enhanced by 
opportunities outside the academic--the arts, physical education, 
excellent after care programming; with competent and committed 
administration, teachers, and staff who are appreciated, supported, and 
compensated for their commitment and caring; with welcoming, well-
maintained school facilities and grounds that include high quality play 
and sports areas; and with the active involvement of parents and 
caregivers. If everyone involved in rebuilding New Orleans Public 
Schools aspires to these essential components, we will thrive as a 
public school system.

               WHAT PARENTS AND CAREGIVERS CAN CONTRIBUTE

    I want to spend my time today talking about what we call ``parent 
involvement.'' There is universal agreement that parent and caretaker 
involvement in schools is an essential component to successful schools. 
Certainly the RSD Plan identifies parent, as well as community, 
involvement as one of its seven core principles in rebuilding schools.
    But ``parent involvement'' is a passive concept: it implies schools 
reaching out to parents to direct their participation in the school 
community. That is not enough to make schools strong. Parents and 
caregivers need to become not just ``involved'' in school communities; 
they need to become a force in school communities, not dependent on 
school administration for their survival as a force.
    At Audubon, parents are a force. We have our own separate 
existence, our own separate non-profit corporation, and we define our 
mission and goals for the work we do for our school independent of the 
school administration. Do I think we are able to do all this because we 
are somehow better parents than those in other schools who do not have 
such structure in place? Not at all. I think we are able to do it 
because some of our parents have the incredible resource of time to 
devote to our school. We have several parents who are not working 
outside the home and others who have jobs that allow flexibility, 
making it easier to spend time in and around the school. We also have a 
good pool of skills in our parent body that have been essential to our 
organizing: business, secretarial, fundraising, legal. We actively seek 
out and utilize those skills. The bulk of the work we do is 
accomplished by a handful of parents. We then meet once a month as a 
full parent body to update and take direction from every parent and 
caretaker who chooses to participate in our PTO.
    I believe that every school will have at least one natural parent 
or caretaker leader, probably many. The real issue is whether those 
leaders can afford to spend their time in their children's school. We 
need to create paid parent organizer positions in schools with a budget 
for the organizing work they do. These would not be ``liaison'' 
positions, as we had in the past. The job of the parent organizer would 
be to organize, not just to facilitate communication. And the parent's 
organizing role would need to be supported by the Principal and overall 
school administration. Too often, those in control fear true 
empowerment, which implies independence. Good leadership recognizes 
that we all benefit from the independence and creativity of differing 
perspectives.
    A good parent organizer with a modest budget would be able to draw 
upon and enlist help from the community at large. Our PTO, for example, 
would be happy to meet with other parent groups to talk about defining 
mission and goals, setting up organizational structure, stimulating 
parent interest in and attendance at meetings, even incorporating as 
non-profit organizations should that be the direction groups wish to 
take. In fact, just last August before the levees broke, a number of 
PTOs and PTAs had begun meeting to share our knowledge and ideas for 
the future of our schools. This is just one example of resources out 
there. Others include free training on fundraising and grant-writing, 
free training on advocating for students with special needs, free 
leadership training. The list goes on and on, and a good organizer can 
put that list together and make it happen.
    A good parent organizer would set up avenues of communication that 
work for parents, through a newsletter or informally, by being there 
when parents drop off and pick up their children. I had some of the 
most important conversations with parents at the school gate in the 
morning. They couldn't show up to meetings, but they could contribute, 
right there, where they were most able to do so. Phone trees are 
essential to communication as well and can include phone numbers of 
relatives or neighbors who can pass on information to those who don't 
have telephones. While e-mail works for some, it leaves many in the 
dark and simply cannot be relied upon to communicate meaningfully with 
parents and caregivers.
    A good parent organizer would schedule meetings in a time and 
manner that is most convenient, providing free food and childcare, 
advertising topics that parents do not wish to miss. In doing so, the 
organizer would begin to build interest and momentum. Word of mouth 
travels fast, and if meetings are interesting and well-run, increasing 
numbers will show up for meetings.
    These are just a few cornerstones of organizing communities. We 
know a lot about successful community organizing techniques--there's 
lots of literature out there about it. But the most important aspect of 
organizing any community is that ongoing leadership be developed from 
within. The school system itself must make the initial investment in 
developing parent leadership from within, by hiring a parent organizer 
and giving that person a working budget, but then it must get out of 
the way so that parents and caregivers can learn their own power.
    I'm sure there are many who would say that I have no idea what I'm 
talking about, that I come at this as a parent in a privileged 
community. I do--that is certainly my experience as an Audubon parent. 
But I also come at this as an advocate and organizer. When I worked at 
the Juvenile Justice Project of Louisiana, and we were trying to put an 
end to abusive conditions of incarceration for kids and envision more 
effective rehabilitative alternatives to incarceration, we worked with 
parents of children in prisons across the State. With minimal and non-
intrusive support from our office, parents formed a group called 
Friends and Families of Louisiana's Incarcerated Children, they 
developed a mission statement and goals, and they ultimately ended up 
powerfully advocating in the State legislature for closure of juvenile 
prisons. Due in large part to parent efforts, the population in 
Louisiana's juvenile prisons has been cut in half.
    If you know anything about which children we lock up in Louisiana, 
you know it is children from our most oppressed communities. The 
parents who organized against abusive incarceration came mostly from 
very poor communities and were mostly African-American. They also 
overcame the stigma of being dead-beat parents, because we regularly 
and completely inappropriately assume that parents cause all their 
children's problems, rather than acknowledging that societal conditions 
make it virtually impossible for so many children to succeed and 
thrive.
    It is possible, indeed necessary to the survival of public schools, 
for parents from oppressed communities to organize around their 
children's education. Such organization and participation, combined 
with excellent school leadership, teachers, and staff, a strong 
curriculum that meets the needs of a diverse student body, and 
resources and opportunities that benefit all children, together create 
strong school cultures and communities. We desperately need to move in 
this direction in all schools in New Orleans.
    Talk is cheap, and I hesitate to put out all these opinions without 
making a commitment to following through on what I suggest. I challenge 
this Senate Committee, as well as the distinguished community leaders 
that are part of the two panels speaking today, to find a way to devote 
resources to a full-time parent organizer in each and every school that 
reopens without an organized parent body in place. In exchange, I 
commit here and now to work with other parents in the city to establish 
a non-profit citywide parent organization devoted to securing private 
funding and training opportunities for parent groups in the schools 
most in need of resources in New Orleans.
    Thank you again, very much, for the opportunity to share my views 
on this critical topic.

    Senator Alexander. Father Maestri.
    Father Maestri. Mr. Chairman and members of the committee: 
My name is Father William Maestri and I'm Superintendent of 
Catholic Schools for the Archdiocese of New Orleans. I find 
myself in somewhat of a different position because I represent 
the private and religious sector of our community, which is 
quite profound. But I would like to suggest to you that it is 
crucially important to understand that this private sector 
serves the common good and serves the public good.
    During the height of Katrina, in the aftermath, over 500 
public school children were taken into our schools, many of 
whom could not pay tuition. None was charged, none were 
rejected. All were welcomed, because we thought it was so 
important to bring children back to schools. Schools were 
hopes, were magnets of hope for all people, irregardless of 
race or creed or belief. It was crucial that we bring students 
back to school.
    If you read the Andrew after-action report, the two most 
important factors in reviving communities were energy and 
schools. So therefore we wanted to make sure that all children 
were welcomed.
    Before Katrina we had 107 schools and 50,000 children. 
Almost immediately, we began reopening schools, so that to date 
we have 83 schools reopened and 40,000 children back in school. 
Many of them are not our own. At Archbishop Rummell High 
School, we had over 2,000 displaced students taken in from 14 
schools. All were welcomed, again because we believe that it's 
so important to provide a safe education environment for our 
children.
    The Archdiocese of New Orleans finds itself in somewhat of 
a different position than public entities. We did not wait. We 
responded. I think an important lesson from all of this is the 
importance that the greater the level of crisis, the greater 
the degree of decentralization. You have to empower local 
entities to respond. You have to empower local entities that 
know best their particular resources, not simply economic 
capital, but also personal capital, moral capital, social 
capital. That's where the wisdom is. Trust the people that you 
have put in charge at the local level and they do an incredible 
job.
    I would simply want to end, because my time is running out, 
and because I'm a Catholic and a person of faith, we also ought 
to be grateful. I want to express my deep thanks to Senator 
Alexander. You had a previous life before this in which you 
were Governor of Tennessee and also Secretary of Education, in 
which your far-thinking brought about a tremendous amount of 
reform in education. So you are not a newly arrived member to 
this issue of education. I have spoken to you before and we, in 
the Archdiocese, are tremendously grateful for your sustained 
commitment, and I want to acknowledge that publicly if I may.
    I'm also very grateful to Senator Vitter, and I have to say 
how grateful we in the Archdiocese and I am to Senator Landrieu 
and her work with the Kennedy-Enzi bill, with including us in 
the process and including us at every kind of public discussion 
and public hearing as a private and religious entity. It has 
meant a great deal to us and has meant a great deal to our 
recovery to allow us to continue to go forward and to serve 
what we believe is the common good.
    I would simply end by saying that, Senator Alexander, you 
began by talking about World War II. Well, right after World 
War II, Winston Churchill was being lauded and praised on the 
BBC about what a great job he did during World War II, and he 
said: ``The men, the men, theirs were the heart of lions. I was 
but privileged to give the roar.'' So in my position as 
superintendent I did nothing but give the roar. The real work 
was done by so many people in our communities, both public and 
private, who work for us, and many in our State Department of 
Education have done tremendous work for us in the Archdiocese 
and we are extremely appreciative of that and appreciative of 
your presence here, and I want to thank you on behalf of us.
    [The prepared statement of Father Maestri follows:]

            Prepared Statement of Father William F. Maestri

    The Archdiocese of New Orleans is both a responder to the 
devastation caused by Hurricanes Katrina and Rita as well as a victim. 
Throughout these past months, the archdiocese has continued to place 
ministry over money; the needs of people over our financial concerns. 
This is a great challenge given the damage the archdiocese has 
suffered. Consider the following:

    1. The Archdiocese owns over 1,200 properties throughout eight 
civil parishes. 1,100 of these were damaged by wind, water, or both.
    2. The Archdiocese has sustained an $84 million gap between storm 
damage and insurance coverage.
    3. The Archdiocese continues to provide spiritual and material 
ministry at a deficit of $1 million a month.

    One of the most significant achievements of the archdiocese's 
response to Hurricanes Katrina and Rita is the story of our Catholic 
schools. Before the hurricanes, the archdiocese operated 107 schools 
(both elementary and secondary) with 50,000 students in eight civil 
parishes. To this date, we have reopened 83 schools with almost 40,000 
students in all eight civil parishes. In addition to our own students, 
the archdiocese provided schooling for hundreds of public and private 
school students whose places of learning had not reopened. NO STUDENT 
was turned away from ANY school because of tuition.
    Our approach was simple: return children to school. Schools 
supplied and continue to supply anchors for community restoration and 
provide stability during very unsettling times. Our philosophy was to 
open schools to allow families to return, for common sense says a 
family cannot return to begin restoring the area without having a safe 
place to send their children where they could receive a quality 
education.
    At one point after the storms, the archdiocese had students 
displaced to 49 States. We set as a priority and our first level of 
response the location of our displaced students and teachers. Our major 
task was to locate them and then relocate them into a Catholic school 
or assist them with placement in an appropriate private or public 
school where they settled.
    The second phase of our response was re-entry. That is, our 
Catholic schools had to be re-opened--safely and quickly. Our first 
schools were reopened in the third week of September. In October, we 
reopened the first schools in Orleans Parish. As the population 
returned and facilities were made ready, schools were gradually opened 
to accommodate the growing student population into March 2006.
    The Federal aid attained for private schools and private school 
students through the tremendous efforts of Senators Landrieu and Vitter 
along with the entire Louisiana delegation and the great support of 
Senators visiting our State to witness first-hand Katrina's wide-spread 
devastation has been extremely helpful to the Catholic schools and our 
families in recovery. This landmark legislation that broke the barriers 
of public and private for the sake of children is to be commended.
    Thanks to the immense legislative efforts on behalf of schools 
throughout the New Orleans area, our displaced students, many of whom 
lost everything, were eligible for tuition reimbursements totaling $3 
million. This funding also provided relief to schools who did not take 
tuition from students who could not afford to pay. Our schools are also 
eligible for $20 million in Restart funding which will help pay to 
replace lost data, textbooks, computers and other classroom supplies 
necessary to the learning environment. Federal funding also made it 
possible for the Board of Regents for the State of Louisiana to create 
the Return to Learn Program which will provide $1,000 financial aid 
awards to eligible high school seniors entering State colleges and 
universities in the fall as well as students returning to these 
institutions. These are just a few examples of the ways cooperation has 
benefited the archdiocese and the entire area's recovery.
    We expect, and hope, to increase our student population in the fall 
with the opening of more schools, both elementary and secondary, 
throughout the area. We know that it is schools that bring back 
families and prepare children to become leaders. We are, as before 
Katrina and Rita, committed to providing a quality Catholic education 
to anyone who wants it, for we do not educate children because they are 
Catholic, we educate children because we are Catholic.
    Thank you for the time to speak with you and for all of your work 
on our behalf.

    Senator Alexander. Thank you, Father.
    Ms. Wallin.
    Ms. Wallin. My name is Carole Wallin, the Deputy 
Superintendent of Education. Cecil Picard, the State 
Superintendent, was not able to come today, so on his behalf I 
want to thank you for allowing us to talk to you today.
    I want to start out also by saying how much, how grateful 
we were and how thankful we were for our two Senators, Senator 
Vitter, Senator Landrieu, and our congressional delegation and 
their staffs who supported us. Senator Landrieu lived in our 
office day after day after the storms, meeting with us, trying 
to find out where we were, trying to help us. Her staff 
listened to us every single day on the telephone. That kind of 
support in the midst of the crisis that our State and our 
schools and our kids were going through will never be 
forgotten, and I just want to say publicly how much that really 
meant to us as we had a whole lot of work to do immediately.
    I'd also like to say that, unsurprising to us--and I was 
asked to give the statewide view, so just quickly I'd like to 
say: Unsurpris-
ing to us was how the education community stepped up to take 
care of our kids and our children. Like Senator Alexander said, 
the first thing we asked was for people across the country to 
take in our kids and take in our teachers, and they never 
asked; they did. Our colleagues from Alabama and Texas, 
Mississippi and Florida called us up and said: ``We're just 
going to take the kids.'' Our people across our State took our 
kids, never asked, ``where am I going to get the money,'' ``how 
am I going to open the schools,'' ``when are the textbooks 
coming?'' They welcomed our kids and they welcomed our 
families, and I have to say especially that the gentleman that 
is sitting next to me is a prime example of the way the 
community, whoever they were, the education people take care of 
their own, and if we didn't know it before we know it now, 
because every single day of those first awful weeks that is 
what we experienced. It really will tell you deep in the heart 
of people in this State how much education means and how much 
our kids mean to us, and we are absolutely committed to going 
forward and making this a better place.
    I was also asked to talk just a bit about the numbers of 
our kids and also the money that we've received. Our estimates 
right after the storm as soon as we could get them showed that 
about 72,000 of our children were in 48 States across the 
Nation. We also found that 42,000 of our students were 
scattered across our Congress. Six months later, we still have 
65,000 of our kids across the country and we have about 35,000 
of our kids still scattered across the State. So that will tell 
you the impact of these storms and the difficulty that we have 
all had in getting a grip of what has happened to them and 
trying to figure out what will happen to them.
    I'd like to talk just briefly about the money, as my time 
line is down. I know you have an interest in that. Let me say 
four things. We are tremendously grateful how quickly you got 
us the money. Two, the funds have been allocated. Funds are 
being spent. We have challenges and will have ongoing 
challenges for a while getting this money spent. Many of the 
districts have. We will work through those challenges. But I 
will tell you, as good educators we will spend every penny 
appropriately and we will probably be back for more.
    [The prepared statement of Ms. Butler-Wallin follows:]

               Prepared Statement of Carole Butler-Wallin

    State Superintendent Cecil Picard is unable to meet with you today 
so on his behalf I want to thank you for this opportunity to talk with 
you today.
    As all of us work frantically to get our schools repaired, our 
students accounted for and registered, principals, teachers, and 
support workers recruited and hired, it is difficult to think back 11 
months ago to the destructive hurricanes that ravaged our districts, 
wiped out our neighborhoods and communities and changed forever the 
lives of many of our citizens.
    The first few weeks and months after the storms we focused on 
finding schools for our displaced children, which we believed would 
provide much needed stability and structure to their lives, and helping 
our displaced teachers and educators find jobs.
    Not surprising, the education community, in Louisiana and across 
the country opened their hearts and their arms to our children, their 
families and our educators.
    They did not ask how they would pay for opening additional schools, 
hiring additional teachers, buying more books and desks, providing 
transportation and food . . . they just took our kids in and gave them 
a place that was safe and a place to learn, while adults worked out the 
other details.
    I remember talking to the State superintendent from Alabama, Joe 
Morton, and the superintendents from Mississippi and Texas and Florida 
as soon as we had phone service and the first things they said to us 
was, ``we are not concerned about records and information . . . we are 
taking in the kids.''
    Our first estimates showed us that 72,000 Louisiana students were 
displaced in 48 States, with the bulk of them in Alabama, Arkansas, 
Florida, Georgia, Mississippi, and Texas. There were 42,000 students 
displaced to other districts within Louisiana. Six months later we 
still had 65,000 students displaced in other States. And 35,000 remain 
displaced throughout Louisiana.
    The steadfast support we received from our two Senators: Senator 
Landrieu, Senator Vitter and their staffs along with the rest of our 
Louisiana Delegation has been crucial to the work that we are doing. 
They have remained in constant contact with us and helped us navigate 
through the uncharted waters of Federal agencies we are not accustomed 
to working with. They have never turned down a request for assistance 
and we have had many. We will never forget their assistance and advice 
and the time they have spent working for us.
    We are accustomed to working with the Department of Education and 
we have received tremendous support through the leadership of Secretary 
Spellings and her staff.
    Her appointment of Henry Johnson, a long time friend and colleague 
of the State Superintendent, as her personal liaison to our agency, her 
announcement in December awarding $20 million dollars for the support 
and start up of charter schools, and the Department's support of the 
Hurricane Education Recovery Act funds have been so important to us.
    I would like to give you a brief statewide overview of the impact 
of the Hurricane Education Recovery Act funds for Louisiana: as you 
know HERA funds are made up of three pots of money: Impact Aid for 
Displaced Students, The Assistance for Homeless Youth, and the Restart 
School Operations Program.

               IMPACT AID FOR DISPLACED STUDENTS PROGRAM

    <bullet> Louisiana has to date awarded to school districts and 
nonpublic schools a total of $197 million.
    <bullet> $174.1 million to public school districts and $22.9 
million to nonpublic schools affected by the storms.
    <bullet> Another $15 million is currently being processed for 
release to increase the per pupil amounts to $1,095 for regular 
education and $1,369 for special education.
    <bullet> On average, for each quarter of the year, public school 
districts reported approximately 41,658 regular education and special 
education students.
    <bullet> All 68 public school systems had displaced students.
    Funds to public school systems:

    <bullet> Of the $174.1 million dollars . . . $73.6 million or 42 
percent of the funds has been allocated to public schools in the New 
Orleans metropolitan area:

        <bullet> Recovery School district 1.7 million
        <bullet> Orleans 12.6 million
        <bullet> Jefferson 36 million
        <bullet> Plaquemines 3.1 million
        <bullet> St. Bernard 4.3 million
        <bullet> St. Tammany 15.9 million

    Funds to nonpublic schools:

    <bullet> Nonpublic schools reported an average of 6,611 regular and 
special education students per each quarter this year.
    <bullet> A total of $22.9 million has been awarded to nonpublic 
schools affected by the hurricanes.
    <bullet> Approximately $12.6 million or 55 percent of these funds 
are going to schools in the greater New Orleans area.

    Use of funds:

    <bullet> School districts and schools may use these funds for 
operational expenditures to support activities related to both 
displaced and nondisplaced students.
    <bullet> Some examples of how these moneys are being used include 
salaries in schools enrolling displaced students, curricular material 
and classroom supplies, basic instructional services and reasonable 
transportation costs.
                  assistance to homeless youth program
    <bullet> Louisiana has awarded $1.5 million to assist with homeless 
youth.
    <bullet> All students displaced because of the storms were eligible 
for these funds.
    <bullet> These moneys were allocated to 68 school systems and 13 
charter and lab schools.
    <bullet> These funds have just recently gone out and districts are 
writing plans on how funds will be expended.

    Use of funds:

    <bullet> These funds are being used for identification of displaced 
students, enrollment assistance, supplies, and assessment and school 
placement assistance.
                   restart school operations program
    <bullet> Louisiana was awarded a total of $445 million in Restart 
funds.
    <bullet> A total of $245.6 million has been awarded to public and 
nonpublic school districts at this time.

    Public school funds:

    <bullet> $186.4 million of 90 percent of these funds has been 
allocated to schools in the New Orleans metropolitan area:
    <bullet> Recovery School District 121.7 million
    <bullet> Orleans 12.5 million
    <bullet> Jefferson 13.3 million
    <bullet> Plaquemines 7.3 million
    <bullet> St. Bernard 20.6 million
    <bullet> St. Tammany 11 million

    Nonpublic school funds:

    <bullet> A total of 37.9 million has been awarded to nonpublic 
schools affected by the hurricanes.
    <bullet> Approximately 34 million or 97 percent of these funds are 
being provided to schools in the greater New Orleans area.

    Remaining Restart Funds:

    <bullet> We are currently developing criteria to allocate the 
remaining $193.5 million.
    <bullet> Our goal is to gather data to ensure we identify and 
target those schools and districts that were hardest hit by the storms 
and will need the most help in recovery.

    Challenges and solutions:

    <bullet> We have been faced with a number of challenges in 
administering this program.
    <bullet> Gathering detailed information on the devastation has 
delayed the allocation of these funds.
    <bullet> School Districts and schools were struggling even 4 and 5 
months after the storms to grasp the enormity of the devastation and 
quantify it.
    <bullet> Assessments of the damages were slow and time consuming.
    <bullet> Competing priorities added to the delays in identifying 
needs.
    <bullet> Getting schools open and serving students were foremost on 
their minds.
    <bullet> Providing services to the nonpublic schools has also been 
a challenge for us.
    <bullet> The law requires that all services be provided by a public 
entity.
    <bullet> Local school districts face their own struggles and taking 
on the task for the nonpublic schools would have been problematic and 
slowed down their progress as well.
    <bullet> So we believed the solution was for the State to take on 
the administrative role for all nonpublic schools and their allocated 
funds.
    <bullet> We took this on in the midst of State mid-year budget cuts 
and a loss of agency positions . . . but we felt it was the right thing 
to do.

    Use of the funds:

    <bullet> School Districts have primarily used these moneys for 
operating expenses that are allowable under the law, i.e., the local 
portion of salary and benefits, supplies and equipment, and purchased 
services.
    <bullet> This has freed general funds dollars that can now be used 
for repairs and renovations.
    <bullet> Nonpublic schools have primarily used these moneys to 
replace instructional supplies and equipment lost from the storms.

    As you drive along our gulf coast or make your way through our 
cities and communities impacted by the storms you know we have miles to 
go and promises to keep.
    But, we remain determined and focused on our efforts to assist our 
districts and schools across this State in recovery and rebuilding, in 
a manner that will provide our children with better opportunities for 
an education they need and deserve.

    Senator Alexander. Thank you very much.
    Dr. Jarvis.
    Dr. Jarvis. Good afternoon. I'm Robin Jarvis. I'm the 
Superintendent of the Recovery School District. I appreciate 
the opportunity to speak with you this afternoon about our 
efforts here in New Orleans.
    As Senator Burr said, we have a unique opportunity here to 
build a world-class public education system that can be the 
model for urban education in this country. We've been very busy 
over the past few months in getting schools open, getting them 
restarted, and moving forward. The activities we've had to 
engage in have included repairing schools, restaffing schools, 
replacing the furniture, the equipment, the textbooks, and 
other curriculum materials, as well as planning and developing 
curriculum and professional development for the teachers and 
principals we are hiring.
    The restart funds that you've provided have been critical 
in helping us get all of those tasks under way and moving 
forward as quickly as possible. As we're doing the short-term 
rebuilding work, we're also laying a foundation for the long-
term transformation of public education in New Orleans by 
investing in developing talent and leadership at all levels, 
and we're doing that through our work with national 
consultants, people like Greg Richmond of the National 
Association of Charter School Authorizers, Michael Fullin of 
the Ontario Institute for Studies in Education, Dr. Alan 
Coulter with the National Center for Special Education 
Accountability Monitoring. We're finding the best and we're 
using them as our resource to build a better educational system 
here in New Orleans.
    We are also working very hard to create collaborative 
relationships with our charter schools. As I've watched the 
charter school movement grow across this country over the last 
few years, we've really seen antagonistic and competitive 
relationships grow between charter schools and districts. We 
have an opportunity to build a different model in New Orleans. 
We are relying heavily on charter schools, and to me it's about 
the children of New Orleans, not about who's operating their 
schools. It is critical that all of our schools be successful, 
the charter schools and the schools that we operate, and so we 
plan to work hand in hand with the charter schools to ensure 
their success and to provide them the support and assistance 
that they need to be successful. In doing that, we've worked 
with New Schools for New Orleans that provides support for them 
in order to provide them that assistance.
    We also understand the fundamental role that public 
education plays in rebuilding the city and the State. So we are 
working collaboratively with the Orleans Parish School System 
and the citizens of Orleans in their rebuilding and 
neighborhood planning efforts. The schools are a critical part 
of each community and we need to be a part of the planning 
process.
    I do want to say something about an issue that seems to 
come up periodically, and I may run a little over my time. But 
there's been a lot of issues, I guess, around the fact that 
Superintendent Picard did not go out and find a nationally 
recognized superintendent to lead these efforts and chose 
instead to bring in somebody who was on his own staff, who had 
worked in accountability, title I, and a number of other areas 
within State education.
    What I would say to you is, when we started these efforts, 
I too believed that we needed to go out and seek a world-class 
superintendent who had proven themself somewhere else. However, 
after 8 months of engaging in this work I now realize that 
really right now New Orleans needs somebody who understands the 
tragedy that we've all been through, who understands the work 
that has to be done, and who is a Louisianan. While I wasn't 
raised here in Louisiana, my family's roots go back to the 
1700s here in this State and I was born here and came back here 
after college and after high school in North Carolina to really 
be part of my State. I'm committed to rebuilding this State. 
I'm committed to having my family remain here, and it's really 
about the rebuilding, not about me. So that's really critical 
right now. That's the short-term answer. It may not be the 
long-term answer for New Orleans, but it is an answer for us 
right now, and it's important that whoever's here doing this 
work really understands what needs to happen here and really 
understands the culture and the people of New Orleans and of 
Louisiana.
    So I do want to end with another comment, a quote from Andy 
Hargraves and Michael Fullin. They say in one of their books 
that ``Hope is rooted in the confidence that the direction one 
is taking makes sense, even if the obstacles seem 
insurmountable.'' As the Superintendent of the Recovery School 
District, I have confidence that the direction and actions 
we're taking to rebuild education in the city of New Orleans 
makes sense and are grounded in research on urban education and 
systemic reform. At times our challenges seem insurmountable. I 
sleep about 4 hours a night right now. I know the resiliency 
and determination of the people of Louisiana, of New Orleans, 
and so I have the hope and the confidence that we are going to 
rebuild a model urban education system in this city and we are 
going to show the country what can be done. With the bright 
people, the resources, and support, the Recovery School 
District will meet the challenges and ultimately we will help 
Orleans Parish rank among the best performing school districts 
in this country.
    [The prepared statement of Dr. Jarvis follows:]

               Prepared Statement of Robin Jarvis, Ph.D.

                              INTRODUCTION

    Almost 11 months after the devastating Hurricane Katrina ravaged 
New Orleans, there is still great uncertainty about how and when the 
city itself will recover. This uncertainty and many other circumstances 
impact our schools, particularly those in the custody of the State, the 
Recovery School District (RSD) schools. These ambiguities will affect 
how the RSD schools will be opened and operated.
    The RSD's approach to responding to these uncertainties and 
changing circumstances will require vigilance by the RSD and a spirit 
of flexibility. However, the RSD must move forward with providing 
education immediately and with plotting a course for the future. A 
course that leads to improved outcomes for children and to 
sustainability of educational reforms enacted.
    In the wake of Hurricane Katrina, there is a once-in-a-lifetime 
opportunity to create a fundamentally better public education system in 
New Orleans. As a result of legislation passed in 2005, authority for 
107 of the lowest-performing public schools in Orleans Parish was 
transferred to the RSD. The RSD is focused on opening fundamentally 
better schools for the returning students, meeting the specific 
educational needs of every returning student, and laying the groundwork 
for the creation of a world-class public education system in Orleans 
Parish.
    Furthermore, the RSD understands the fundamental role public 
education plays in the rebuilding of the city. Therefore, the RSD is 
also committed to working with the city of New Orleans, the Orleans 
Parish School Board (OPSB), and the citizens of Orleans Parish to 
collaboratively develop and implement a vision of public education that 
will create a public school system that produces graduates prepared and 
committed to helping with the rebuilding and revitalization of New 
Orleans.

                         HISTORICAL PERSPECTIVE

    Even before the devastation of Hurricane Katrina, the Orleans 
Parish School System had struggled for years with low academic 
performance and continuing financial and organizational struggles. As a 
result of the chronic low academic performance, the district had been 
identified by the State as a District in Academic Crisis and had failed 
to meet District AYP as required by the No Child Left Behind Act. 
Compared to the 100 largest school districts in the United States, New 
Orleans was among the worst performing and had the seventh-highest 
drop-out rate--despite having a better-than-average teacher/student 
ratio and comparable average spending per student. Financial 
mismanagement and a lack of internal controls had led to Federal 
investigations, indictments, and a Federal audit finding questioning 
the use of $71 million in title I funds. These indicators and others 
clearly provided the signs of an urban school system in crisis even 
before Katrina's impact.

Measures of Performance
            Poor Academic Performance
    In 2004-2005, 63 percent of schools in the New Orleans Public 
School system (NOPS) were deemed academically unacceptable, whereas 
only 8 percent of schools across Louisiana were academically 
unacceptable. This fact illustrates that a substantial and 
disproportionate number of schools in New Orleans were failing to 
provide the quality education that the children of New Orleans 
deserved. The scores in the table below from the Louisiana Educational 
Assessment Program show that poor academic performance in New Orleans 
was systemic; students across various grades tested significantly below 
acceptable levels.


----------------------------------------------------------------------------------------------------------------
                                                                        2005 Percent Basic or Higher
                                                           -----------------------------------------------------
                                                               LEAP Fourth       LEAP Eighth      Graduate Exit
                                                                  Grade             Grade          Exam (GEE)
                                                           -----------------------------------------------------
                                                              Math   English    Math   English    Math   English
----------------------------------------------------------------------------------------------------------------
New Orleans...............................................      41%      44%      35%      29%      39%      32%
Rest of Louisiana.........................................      63%      66%      55%      54%      65%      65%
----------------------------------------------------------------------------------------------------------------

    Beyond these statistics, the following startling facts illustrate 
the degree of the overall low academic performance in New Orleans:

    <bullet> Only 15 to 25 percent of elementary public schools had 50 
percent or more of students achieving above minimum basic proficiency 
in math and English.
    <bullet> Only 1 out of 19 public high schools in NOPS had an 
average higher than the national average on the ACT.
    <bullet> A three-point gap in average ACT scores existed between 
schools in NOPS and all schools in Louisiana.
            Large Achievement Gap
    Pre-Hurricane Katrina, achievement gaps persisted among schools in 
the NOPS. The following statistics help illustrate the reality of the 
situation:\1\
---------------------------------------------------------------------------
    \1\ Orleans District Accountability Report, 2003-2006.

    <bullet> Between African-American and Caucasian students, an 
achievement gap of 50.6 points existed in English and 52.8 points in 
math.
    <bullet> The achievement gap between African-American and Caucasian 
students in New Orleans was twice as high as that for all of Louisiana.

    Furthermore, as the graphs below illustrate, the situation for 
those subgroups that make up the majority of the enrollment in Orleans 
Parish public schools was dire. While their performance was improving 
gradually, it was not improving at a rate rapid enough to stay ahead of 
the State's Annual Measurable Objective in either English/Language Arts 
or Math.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Low high-school graduation rates
    In the pre-Hurricane Katrina education system, a select cluster of 
public, private, and parochial schools out-performed the vast majority 
of public schools. New Orleans's schools showed limited achievement on 
the graduate exit exam (GEE):

    <bullet> Only 30 to 35 percent of schools achieved at least basic 
proficiency on the GEE English and math sections, and only four schools 
achieved basic proficiency or higher for at least 80 percent of 
students (of 19 high schools reporting results for both English and 
math).
    <bullet> Student retention, that is, the percent of students who 
are required to repeat their grade level at the 12th-grade level was 15 
percent in Orleans Parish, compared to only 5 percent across the 
State.\2\
---------------------------------------------------------------------------
    \2\ Orleans District Composite Report, 2003-2004.
---------------------------------------------------------------------------
            History of Inequity
    A pre-Hurricane Katrina assessment of Orleans Parish schools 
suggested that some inequity existed between the make-up of the student 
body in NOPS and that of other schools in the district:

    <bullet> Pre-Hurricane Katrina city demographics indicated that 67 
percent of the citizens of New Orleans were African-American and 28 
percent were white.\3\ However, 93 percent of the students in NOPS 
schools were African-American and only 4 percent were white.\4\
---------------------------------------------------------------------------
    \3\ Orleans Parish quick facts from U.S. Bureau of the Census.
    \4\ Southwest Educational Development Laboratory, Small Learning 
Communities District Information.
---------------------------------------------------------------------------
    <bullet> While only 40 percent of students attending schools across 
New Orleans were eligible for free/reduced lunch, 74 percent of the 
student body in NOPS schools were eligible.\5\
---------------------------------------------------------------------------
    \5\ 2005-2006 Free/Reduced Lunch Subgroup Performance Scores (GPS).
---------------------------------------------------------------------------
    <bullet> These gaps between public and private/parochial schools 
did not appear to be closing. Enrollment in public schools in Orleans 
Parish had fallen by approximately 20 percent, while there was still a 
moderate increase in private and parochial school enrollment.\6\
---------------------------------------------------------------------------
    \6\ Louisiana Annual Financial and Statistical Reports 1998-1999 to 
2003-2004.
---------------------------------------------------------------------------
Disadvantaged Inputs: Demographic and Socioeconomic Factors
            High Poverty Rates Among the Student Population
    Prior to Hurricane Katrina, 40 percent of children in Orleans 
Parish lived below the poverty line.\7\ Statistics on median household 
income further indicate that Orleans citizens earned 35 percent less 
per year than the average individual in the United States.
---------------------------------------------------------------------------
    \7\ U.S. Census and Orleans Parish District Composite Report.
---------------------------------------------------------------------------
            High Illiteracy Rates Among the General Population
    Prior to Hurricane Katrina, one in four citizens in Orleans Parish 
had not completed high school, and 40 percent of adults could not read 
beyond a 5th-grade level.
An ineffective school system
            Ineffective Governance and Frequent Turnover in Leadership
    Even before Hurricane Katrina, a history of mismanagement and 
ineffective governance at NOPS led the school district to nearly go 
bankrupt:\8\
---------------------------------------------------------------------------
    \8\ Alvarez and Marsal.

    <bullet> NOPS had $265 million in legacy debt and a severe revenue 
shortfall from which to fund all the schools. In an attempt to cut 
costs, seven schools were closed just before Hurricane Katrina.
    <bullet> Up to 4,300 of the 7,000 checks issued in any given pay 
period were inaccurate.
    <bullet> On December 16, 2004, the FBI issued indictments against 
11 people for criminal offenses against the OPSB related to financial 
mismanagement.
    <bullet> In 2003-2004, expenditures exceeded revenues by $25 
million--and the shortfalls had been an increasing trend since the late 
1990s.\9\
---------------------------------------------------------------------------
    \9\ Louisiana Department of Education annual statistical and 
financial reports, 1998 to 2004.
---------------------------------------------------------------------------
    <bullet> The budget that the OPSB approved before Hurricane Katrina 
had a $48 million shortfall.
    <bullet> The district underestimated salaries and benefits by $11 
million.

    Frequent turnovers in leadership may have also made it difficult to 
maintain order in the school system.
    In July 2005, due to the lack of internal controls found in the 
U.S. Department of Education's Office of Inspector General's audit, 
management of the school district's finances was handed over to a 
financial management and turnaround company, Alvarez & Marsal. Alvarez 
& Marsal's analysis revealed a number of pre-
existing financial circumstances, among them:

    <bullet> An outstanding long-term debt of $265 million.
    <bullet> $35 million in annual debt servicing.
    <bullet> $26 million in accrued liabilities payable.
            Poorly Maintained Facilities
    Years of neglect at NOPS facilities have created a huge backlog of 
deferred maintenance issues and unsafe conditions. In total, the 
estimated cost of bringing the buildings up to pre-Hurricane Katrina 
building codes is $52 million. This figure does not include the cost of 
deferred maintenance items that may not be related to building code 
violations but are nonetheless necessary to create safe, healthy, and 
aesthetically pleasing educational environments for the children of 
Orleans Parish. Not only were the facilities in poor condition, but 
they were severely underinsured, requiring the OPSB to pay $165 million 
in penalties (assuming that 100 percent of the facilities are rebuilt), 
under the FEMA reimbursement requirements.
The Direct Impact of Hurricanes Katrina and Rita
    Hurricanes Katrina and Rita devastated a school system that was 
already in severe distress. The current estimates of the cost of 
physical damages to the school facilities and infrastructure is $800 
million. The FEMA match requirements will cost the OPSB $55 million 
(assuming that 100 percent of the facilities are rebuilt).

                      THE RECOVERY SCHOOL DISTRICT

    The RSD is an organization dedicated to helping struggling schools 
to turn around their performance. The district is operated by the 
Louisiana Department of Education (LDE).
Establishment of the RSD
    Legislation passed during the 2003 Regular Legislative Session 
calls for the takeover of schools that are determined to have 
``failed'' under the school and district accountability program. For 
the purpose of the original legislation, a failed school is one that 
has been identified as being ``academically unacceptable'' for at least 
4 years. The law allows for the operation of a special State school 
district, called the Recovery School District, to be administered by 
the LDE and subject to the authority of the Louisiana Board of 
Elementary and Secondary Education (BESE).
    Legislation (Act No. 35) passed in the November 2005 Special 
Session of the Louisiana Legislature expanded the definition of a 
failed school to include schools that scored below the State average 
and that operated in school systems which had been declared to be in 
``Academic Crisis''--that is, with at least one school labeled as 
failing for 4 or more years.
    As a result of this legislation, 107 of Orleans Parish's struggling 
public schools were transferred to the authority of the RSD. The RSD is 
now working in partnership with the people of New Orleans to reopen 
these schools, to welcome students and families back, and to build a 
world-class public education system in Orleans Parish.

                           MISSION AND GOALS

Mission
    The mission of the RSD is to create a world-class public education 
system in New Orleans, in which every decision focuses on the best 
interests of the children.
Main Objectives and Principles
    Our overall objective is to make the most of this once-in-a-
lifetime chance to reinvent public education in New Orleans. It is our 
hope that by creating a world-class public education system, we will 
attract students, families, and businesses back to New Orleans; 
rekindle our neighborhoods; and renew our culture.
    The RSD will dedicate its time, money, and people to focus on the 
following principles:
Principle 1: Student Achievement--The RSD is Committed to Promoting 
        Success for Every Student Through the Following Goals
    a. Baseline School Performance Scores and Sub-group Performance 
levels (per the Louisiana accountability system) will be established 
for all RSD schools following the 2006-2007 school year using data from 
the spring 2006 (if available) and spring 2007 assessments.
    b. Schools in the RSD will, on average, grow at a rate faster than 
the State average.
    c. Each school in the RSD and the RSD as a whole will grow a 
minimum of 20 points from the baseline set following the spring 2007 
assessment to the spring 2011 assessment. Any school not meeting this 
goal will be recommended to the Louisiana Board of Elementary and 
Secondary Education (BESE) for a change in management.
    d. The RSD will increase the percent of students scoring basic or 
above by 10 percent per year based on the spring 2007 assessment 
baseline.
    e. The RSD will close the achievement gap in RSD schools using the 
spring 2007 baseline data to set measurable goals for each year.
Principle 2: Quality Leadership--The RSD is Committed to Providing 
        Quality Leadership at all Levels
    a. Select high-quality school operators for any Type 5 charter 
school in the district.
    b. Select, hire, and develop strong academic leaders for leadership 
positions in RSD-operated schools and district leadership positions. 
The RSD will seek to recruit the brightest and best academic leaders 
from within the ranks of former Orleans Parish employees, from within 
the State of Louisiana, and from across the country.
    c. Select, hire, and develop qualified, competent, and skilled 
teachers and other staff for instructional positions in RSD-operated 
schools. The RSD will seek to recruit the brightest and best teachers 
and other staff for instructional personnel from within the ranks of 
former Orleans Parish employees, from within the State of Louisiana, 
and from across the country.
    d. For RSD-operated schools, create a comprehensive professional-
development program and professional learning communities at the school 
and system levels that will increase the number of teachers and staff 
members who meet highly qualified standards specified by the No Child 
Left Behind Act. Offer charter schools the opportunity to participate 
in this program if they desire.
    e. Create a performance-based compensation structure that rewards 
school staff members in RSD-operated schools for meeting or exceeding 
school-performance targets.
    f. Create and improve a method for effectively evaluating the 
quality of the leaders and teachers in RSD-operated schools before they 
are hired and during their performance. Support will be provided to 
improve performance, and successful staff members will be rewarded. If 
a teacher fails even after receiving support, he or she will not be 
allowed to continue teaching.
Principle 3: Parental and Community Collaboration--The RSD is Committed 
        to Developing a Strong Model of Parental and Community 
        Collaboration and to Creating a new Public Story for Education 
        in Orleans Parish
    a. Increase two-way communication with parents and the community.
    b. Develop community and business partnerships with the RSD and its 
schools.
    c. Increase parental engagement that results in higher performance 
by students.
    d. Engage with community and key stakeholders in an inclusive 
planning process for the RSD.
    e. Annually assess and report the perceptions (the satisfaction and 
dissatisfaction) of community stakeholders, parents, and certified 
support staff.
Principle 4: Transparency and Accountability--The RSD is Committed to 
        Ensuring Transparency Regarding its Processes and Practices and 
        Accountability (at all levels)
    a. Implement the Louisiana School and District Accountability 
System in the RSD.
    b. Implement an accountability system for charter schools in the 
RSD.
    c. Annually report fiscal accountability at school and district 
levels.
    d. Report regulation and compliance with local, State, and Federal 
laws.
    e. Report on equity and responsiveness to key communities.
Principle 5: Equal Access and Equity--The RSD is Committed to Ensuring 
        Equal Access to Resources for all Schools and Students as Well 
        as Equity in Course Offerings, Programs, and Services
    a. Create safe, student-centered learning environments.
    b. Work to ensure that all schools have the funding, facilities, 
equipment, and resources required to meet the needs of their students.
    c. Perform and report annual audits of access to, and the success 
of, course offerings, programs, and services in the RSD and each of its 
schools.
    d. Deliver resources to ensure that schools possess the resources 
necessary to achieve equity in the provision of course offerings, 
programs, and services that will support and ensure higher achievement 
among students.
    e. Accommodate all the students who are eligible to attend RSD 
public schools.
    f. Give parents and students the opportunity to choose from among 
available school options.
Principle 6: Recovery School District Charter Schools--The RSD is 
        Committed to Ensuring That Charter Schools in the District are 
        of the Highest Possible Quality by Ensuring Both Support and 
        Autonomy for the Schools
    a. Support the autonomy of charter schools, offering them the same 
support that other schools receive, assessing their progress, and 
rigorously holding them accountable.
    b. Make all RSD charter schools open-access schools.
Principle 7: Relationship with the New Orleans Public School System and 
        the Orleans Parish School Board--The RSD is Committed to 
        Developing a Collaborative Relationship With the OPSB to Ensure 
        the Provision of High-Quality Educational Opportunities for all 
        Students in Orleans Parish
    a. The State superintendent of education, RSD superintendent, and 
other staff will schedule regular meetings with the OPSB president and 
OPSS superintendent and staff. The purpose of these meetings will be to 
seek collaborative opportunities for the districts that are in the best 
interests of the children and families of Orleans Parish.
    b. The RSD will work with the OPSB to ensure clear communication 
with parents and the community.
Types of Public Schools in the RSD
    In order to address the needs of all students and to allow the 
maximum choice for parents and students, the RSD will include three 
types of public schools.
            RSD-Operated Schools
    RSD-operated schools will be administered directly by the RSD and 
will operate under procedures that are developed by RSD staff and 
approved, as appropriate, by the BESE. All RSD-operated schools will be 
open-access schools--none will have selective admission policies. Staff 
members in these schools will be hired by the RSD and will be State 
employees within the district. The RSD will determine the process for 
selecting staff, salary schedules, and school calendars. In order to 
ensure their accountability for student achievement, staff members 
within these schools will be held to specific academic performance 
standards that will be outlined in their employment contracts.
    To date, the RSD has opened three RSD-operated schools: Craig 
Elementary, Banneker Elementary, and Clark Senior High School.
            Type 5 Charter Schools
    These schools will be authorized by the BESE and will be overseen 
by the RSD. As with RSD-operated schools, Type 5 charter schools are 
public schools required to maintain open-admission policies. But unlike 
RSD-operated schools, these schools will have significant autonomy in 
their operations, as provided by the Louisiana Charter School Law. 
These schools will be empowered to develop their own staff-selection 
process, salary schedule, other staff benefits, curriculum, and other 
policies and procedures. Through contractual arrangements, Type 5 
charter schools will be held to specific performance targets and 
benchmarks, and they may also be required to implement certain policies 
and procedures approved by the BESE for the operation of all RSD 
schools.
    Type 5 charter schools will be authorized through a rigorous 
process developed by the National Association of Charter School 
Authorizers (NACSA). The authorization process includes reviewing all 
applications to assess compliance with State and Federal laws as well 
as to assess expertise in school governance, finance, curriculum, and 
other areas critical to the success of charter schools. National 
experts in school operation in general--and in charter school operation 
specifically--will be involved in reviewing charter school applications 
in Orleans Parish. This step will ensure that the only applications 
that are approved are those submitted by high-quality charter schools 
that have the capacity for long-term success.

                            PROGRESS TO DATE

    So far, the RSD has made significant progress in creating the 
capacity and infrastructure to support students returning to public 
schools in New Orleans. Over the course of the spring 2006 semester and 
into this summer, in addition to opening and operating three schools, 
the RSD also worked on the following additional tasks necessary for the 
rebuilding of the school system:

    <bullet> Coordinated the review of 43 charter applications with the 
National Association of Charter School Authorizers that resulted in the 
approval of an additional 10 charter schools to open in 2006-2007.
    <bullet> Completed the process to transition an additional six 
operating charter schools from OPSB to the RSD.
    <bullet> Worked with Alvarez and Marsal to coordinate the FEMA 
reimbursement, construction management, and content procurement 
processes to re-open an additional 33 schools in 2006-2007.
    <bullet> Began work on a shared services model that will be 
available to all schools and will include:

        <bullet>  Transportation,
        <bullet>  Food services,
        <bullet>  Custodial and maintenance services,
        <bullet>  Security,
        <bullet>  Pupil-appraisal services,
        <bullet>  Some special-education services (including 
        occupational therapy, physical therapy, and nursing),
        <bullet>  Professional development,
        <bullet>  Leadership development, and
        <bullet>  Facilities planning and management.

    <bullet> Conducted public outreach through the following 
activities:

        <bullet>  Toll-free hotline with trained staff answering 
        questions.
        <bullet>  RSD Web site to inform RSD of returning students and 
        to provide students with information on which schools are open.
        <bullet>  Media channels including radio announcements and 
        interviews with television, radio, and newspaper.
        <bullet>  Communication to individuals residing in FEMA 
        trailers through distribution of flyers in housing packets with 
        information about the LDE Web site and toll free phone number.
        <bullet>  School campus yard signs with contact information for 
        student enrollment.
        <bullet>  Involvement in neighborhood meetings, answering 
        questions related to school openings and the RSD process.
        <bullet>  National newspaper ads, radio and TV announcements to 
        inform New Orleans residents across the country about the 2006-
        2007 school registration process.
        <bullet>  RSD listserv newsletter to inform stakeholders in New 
        Orleans, across the State, and around the Nation of the status 
        and activities of the Recovery School District.

    <bullet> Developed an online school registration process that will 
allow displaced New Orleans residents seeking to enroll their child in 
school for the beginning of the 2006-2007 school year to do so via the 
Internet, through a toll-free number with operators to complete the 
registration process for them, through three walk-in registration 
centers in the city of New Orleans.
    <bullet> Conducted on-going recruitment, advertising, and selection 
processes for school staff, including principals, assistant principals, 
and teachers, designed to ensure quality of instructional staff.
    <bullet> Developed curriculum for all grade levels based on the 
Louisiana Grade Level Expectations and the Louisiana Comprehensive 
Curriculum.

                      STRATEGIES TO ENSURE SUCCESS

    Throughout these activities, the commitment of everyone involved 
has been to ensure that every child receives a quality education and 
that the schools of New Orleans are rebuilt in such a way as to re-
engage the community in public education. To ensure success, certain 
key strategies have been identified and will be carefully designed for 
both RSD-Operated Schools and RSD Charter Schools.
Actions to Ensure Success in RSD-Operated Schools
    <bullet> Maintain high standards for selection of all staff through 
a rigorous selection process including pre-interview screening and a 
rigorous interview process.
    <bullet> Require all principals to be at work on-time and for the 
full day every day. Take appropriate disciplinary action against 
principals who do not meet these expectations.
    <bullet> Require all teachers to be at work on-time and for the 
full day every day. Take appropriate disciplinary action against 
teachers who do not meet these expectations.
    <bullet> Contact parents of any child who is absent on each day of 
absence. Conduct home visits with parents of any child who has missed 5 
days of school. Make referrals to appropriate agencies for students 
with chronic absenteeism problems.
    <bullet> Reduce number of staff in central office and increase 
number of school-based staff providing onsite curriculum, instruction, 
and social support at school sites. Instead of providing workspace in 
the RSD central office to curriculum facilitators and other staff 
intended to provide support and assistance to schools, these staff will 
be housed at school sites and be directly supervised by the school 
principals to ensure that they are providing the support and assistance 
needed at the schools. These staff will be required to spend 80 percent 
of their work time in classrooms and with teachers providing support 
and assistance in planning instruction, modeling lessons, coaching 
teachers, or providing counseling or instruction to individual or small 
groups of students based on the job title and responsibilities of the 
individual.
    <bullet> Implement a standard curriculum in all schools that is 
based on an intervention model that assesses each student's progress at 
least monthly and provides for targeted instruction for any skill or 
concept with which the student is experiencing difficulty.

        <bullet>  Focus on reading and math at grades Pre-K-3 with 
        integration of other content areas and fine arts as 
        appropriate.
        <bullet>  Provide an Advisor/Advisee program in late 
        elementary/middle grades that allows students to gain a full 
        understanding of career options and planning as well as the 
        educational requirements to successfully pursue their future 
        interests. This program will include the designation of a 
        single adult within the school who will serve as each student's 
        point of contact for counseling, career planning, and course 
        scheduling for middle and high school students. Research has 
        shown that it is critical at this phase of the educational 
        process for students to have a direct connection with a single 
        adult in the school who knows them and is familiar with them to 
        assist them in their course planning and provide counseling and 
        assistance as needed.
        <bullet>  High School Design that includes Career Academies in 
        each high school in which students can pursue Industry-Based 
        Certifications and/or a college preparatory curriculum 
        simultaneously.
        <bullet>  Develop Freshmen Academies at all high schools to 
        provide specific support and instruction to 9th graders that 
        will allow them to catch up to grade level proficiency if 
        necessary. These will be designed with the assistance of Green 
        Dot Schools which operates 5 high schools in the Los Angeles 
        Unified School System that successfully provide 9th graders 
        with instruction that takes them from a 3rd or 4th grade 
        reading level at the beginning of 9th grade to on-grade level 
        proficiency by the end of the year.
        <bullet>  Develop programs that allow for dual enrollment at 
        community colleges and universities as well as Advanced 
        Placement and Honors courses.
        <bullet>  Availability of alternative schools that will 
        maintain students and return to traditional school settings if 
        desired.

    <bullet> Implement Schoolwide Positive Behavior Support (SWPBS) in 
every school in order to ensure that the appropriate and clear 
expectations, supports, and reinforcements are in place to increase the 
opportunities and rewards for appropriate behavior and reduce the 
opportunities and time lost on inappropriate behavior.
    <bullet> Reduce the number of removals from classrooms or school 
due to in and out of school suspensions or expulsions through the 
appropriate implementation of SWPBS, the appropriate process for 
suspensions and expulsions according to State law, and the provision of 
strong alternative schools and programs. Schools will not be allowed to 
counsel students out of school without following the appropriate 
procedures and referring these students to an alternative school. All 
expulsion hearings will be handled by a hearing officer designated by 
the RSD Superintendent.
    <bullet> RSD and LDE staff are currently working with Dr. Wayne 
Sailor of the University of Kansas, Dr. Alan Coulter of the National 
Center for Special Education Accountability Monitoring, and Dr. Phil 
Wilson with the LSUHSC Human Development Center on the implementation 
of the Schoolwide Applications Model and three tiered intervention 
which will support the implementation of both the academic and behavior 
programs described above. This model will allow for the integration of 
specialized services for students with disabilities and general 
education students in need of additional support into the general 
education curriculum and classrooms. This work is based on the work of 
the President's Commission on Excellence in Special Education and the 
expectations of the Individuals with Disabilities Education Improvement 
Act of 2004. The plan being developed is a 3-year plan for the start-up 
and implementation of the model.
    <bullet> Require principals and assistant principals to conduct a 
minimum number of classroom walkthrough observations weekly using an 
RSD designed checklist to ensure that all aspects of the instructional 
program are being implemented in every classroom and to determine 
whether teachers need additional support or assistance in 
implementation of the programs. In addition, principals and assistant 
principals will be required to maintain visibility around the school 
campuses through informal visits to classrooms and through maintaining 
a frequent presence in the hallways and other areas of the school.
    <bullet> RSD curriculum staff and Superintendent will review 
classroom walkthrough results with school leadership teams to assist in 
designing additional supports or assistance needed by the school to 
ensure implementation of all programs.
    <bullet> RSD Central office staff including the Superintendent will 
visit schools frequently and conduct formal walk-through observations 
using the RSD walk-through observation checklist to double check 
accuracy of observations by school administrative staff. In addition, 
RSD Central Office staff including the Superintendent will visit school 
sites frequently for informal walkthroughs and visits.
    <bullet> Arrange class schedules so that every teacher will have 
1\1/2\-2 hours each day for planning and professional development.
    <bullet> Provide a pupil/teacher ratio appropriate for each grade 
level.
    <bullet> Use research-based strategies such as starting school at 
times research tells us are most conducive for student learning.
    <bullet> Increase time on task through decreasing transitions 
during and between classes and reducing interruptions in instructional 
time.
    <bullet> Collaborate with Department of Health and Hospitals, 
Office of Public Health, and Charity Hospital to provide school-based 
health clinics that are available to all students for physical and 
mental health screening and care.
    <bullet> Recognize and respect the culture of the community through 
the provision of fine arts andSec. sic instruction.
Actions to Ensure Success of Charter Schools
    <bullet> Provide a Charter School Director and Coordinator within 
the Central Office staff reporting directly to the RSD Superintendent 
to provide ongoing support with the charter schools.
    <bullet> Schedule monthly meetings with all charter schools to 
review and discuss topics of interest or need.
    <bullet> Collaborate with the National Association for Charter 
School Authorizers to develop a set of checklists and other tools to 
monitor the compliance of charter schools with State and Federal 
requirements as well as their charter contracts. Require corrective 
action plans of charters that are determined to have areas of 
noncompliance.
    <bullet> Collaborate with the National Association for Charter 
School Authorizers and New Schools for New Orleans to develop a set of 
checklists and other tools to periodically review the quality of 
charter school programs and to provide guidance and assistance to 
charter operators on improving program quality.
    <bullet> Conduct regular visits to each charter school to monitor 
activities and to offer support and assistance. These visits will be 
both formal and informal and will be conducted not only by the Charter 
School Director and Coordinator, but also by the RSD Superintendent.
    <bullet> Collaborate with New Schools for New Orleans to provide 
needed training and assistance to charter school operators.
    <bullet> Include charter school representatives in planning for 5-
year systemwide capacity building model and invite their participation 
in the professional development provided through the model.
    <bullet> Invite charter schools to participate in professional 
development provided to RSD-operated schools.
    <bullet> Create a Shared Service model by developing contracts for 
services such as transportation, food service, custodial/maintenance, 
human resources/financial management so that charter schools can 
participate in the contracts at cost thereby creating a shared services 
arrangement that will increase contract scale and reduce costs for all 
participants.
    <bullet> Provide specific critical services such as Information 
Technology infrastructure and networking, student data management 
system, large scale grant management, and expulsion hearing processes 
to all charter schools.

                             SUSTAINABILITY

    While the actions described here will result in improved outcomes 
for students and an improved educational system for the city of New 
Orleans if they are implemented in each school with integrity, the key 
issue in all education reform efforts is sustainability. Even after a 
decade of whole school reform models and 5 years after the passage of 
the No Child Left Behind Act, we find educators struggling to maintain 
gains made once a visionary leader or core team of teachers leave or 
when a shift in student demographics occurs. In order for the gains 
seen from these reforms to be sustainable, we must think now about the 
issue of sustainability. As defined by Fullan,\10\ ``sustainability is 
the capacity of a system to engage in the complexities of continuous 
improvement consistent with deep values of human purpose.'' Through 
research, we have learned that sustainability is only possible when 
there is capacity building throughout the system at all levels that is 
developed intentionally. To this end, the RSD and OPSB have jointly 
entered into a partnership with the Ontario Institute for Studies in 
Education, headed by Dr. Michael Fullan, and the Center for Development 
and Learning in Covington, LA to develop and implement a 5-year plan 
for systemwide capacity building. This model will be based on the 
research on systemic reform-based capacity building and will address 
the 5 levels of each organization that research has shown are critical 
for success and sustainability of systemwide reform:
---------------------------------------------------------------------------
    \10\ Fullan, M. (2005). Leadership & sustainability. Thousand Oaks, 
California: Corwin Press.

    <bullet> Teachers
    <bullet> School Leadership Teams
    <bullet> Principals
    <bullet> System Capacity Team
    <bullet> System Leaders

    This long-term capacity building effort will provide a common 
language for all stakeholders within the district regarding systemic 
cultural change, instruction, and leadership. It will address the 
following components for all groups above based on their role in the 
organization.

    <bullet> Establish a culture of change
    <bullet> Understand and manage change
    <bullet> Focus on Quality Teaching and Learning Practices
    <bullet> Build and Share Knowledge
    <bullet> Develop Coherence through Planning

    Quality teaching and learning practices addressed in the model will 
include strategies that will help teachers increase the rigor and 
relevancy of their lessons while engaging students in higher order 
thinking skills. Instructional practices that will be addressed 
include, but are not limited to those from the books, Classroom 
Instruction That Works by Robert Marzano, Debra Pickering, and Jane 
Pollock and Beyond Monet: The Artful Science of Instructional 
Integration by Barrie Bennett and Carol Rolheiser.

                               CONCLUSION

    While Hurricanes Katrina and Rita brought tremendous and often 
overwhelming devastation to the people of Louisiana, they have also 
brought a unique and previously unheard of opportunity to rebuild an 
urban school system from the ground up. While there is much work to be 
done and the challenges at times seem insurmountable, the staffs of the 
Louisiana Recovery School District and the Louisiana Department of 
Education are committed to the vision of a world class public education 
system for New Orleans. We commit to this challenge not just with a 
focus on the short-term needs to re-open schools for the coming school 
year, but with a long-term vision of a successful and sustainable 
reform that can be used as a model for other school systems across the 
country.

    Senator Alexander. Thank you, Dr. Jarvis.
    Mr. Richmond.
    Mr. Richmond. Good afternoon. My name is Greg Richmond. I'm 
the President of the National Association of Charter School 
Authorizers. We're a Chicago-based nonprofit professional 
membership organization that supports charter school 
authorizers around the country.
    An authorizer is an agency that is entrusted to represent 
the public's interests in the contractual relationship with 
charter schools. Across the country they are mostly school 
districts, State education agencies, and universities. 
Authorizers evaluate applications from organizations wishing to 
start a school, decide who is approved to open, execute 
contracts, monitor schools' performance, and decide whether a 
school's charter is renewed.
    Since February my association, NACSA, has been deeply 
engaged in Louisiana through a contract with the State Board of 
Elementary and Secondary Education. Today I would just like to 
comment on four things that I think are going very well in 
Louisiana's charter school development.
    First, earlier this spring the State of Louisiana received 
applications to start 44 charter schools in New Orleans. My 
association managed the process for evaluating those 
applications and made recommendations to the State board. We 
ran a three-tier evaluation process involving dozens of 
experienced evaluators from across the country. We looked 
closely not just at educational plans, but also applicants' 
plans for school management, governance, community involvement, 
and finance.
    While no application is perfect, we employ a philosophy 
that all aspects of an application should be strong. Years of 
experience have taught us that a charter school application is 
only as strong as its weakest point.
    In the end, we recommended 10 applications to the State 
board, which in turn approved them. I must commend the State 
board for its steadfast adherence to our evaluation process. In 
other places around the country, politics sometimes enters into 
board decisions to approve charter schools. Not here. Although 
the board members received considerable pressure from some 
applicants, they stood by the process and only approved 
applications that were recommended.
    Second, we also worked very closely with the board and the 
department to develop a new accountability framework for 
charter schools. Louisiana now has an excellent set of clear, 
objective student performance measures upon which to evaluate 
each charter school's performance. These performance measures 
are linked to the State's excellent preexisting accountability 
system and to the No Child Left Behind Act.
    The third area we've been involved in is working closely 
with the State department's legal staff to develop a strong 
charter school contract that clearly spells out the school's 
and the State's rights and responsibilities. Among the 
highlights of that contract are strong provisions regarding 
governance, management, and finance. Charter school boards will 
be required to adopt conflict of interest policies, submit 
financial disclosure statements and quarterly financial 
reports, and conduct annual audits. Charter school boards that 
hire companies to manage their school are required to enter 
into contracts with those companies that safeguard the public 
interest.
    Fourth and finally, I'll note that that contract also 
addresses several very important issues related to students. 
That includes the procedures for conducting open and fair 
student admissions, the minimum requirements for fair student 
discipline actions, including suspension and expulsions, and 
the requirements for serving students with disabilities. It is 
essential that all schools treat students fairly and 
Louisiana's State-authorized charter schools will do that 
because of the provisions we have built into their contracts.
    Those are just four things that I think are going very well 
with charter schools in Louisiana and we are very honored to be 
a part of the effort in this State, and personally the people 
with me seated at this table to assist in this very important 
effort which is off to a strong start.
    [The prepared statement of Mr. Richmond follows:]

                 Prepared Statement of Greg A. Richmond

    Good morning Chairman Alexander, Senators and fellow guests of the 
committee. I am Greg Richmond, the President of the National 
Association of Charter School Authorizers (NACSA). Thank you for 
inviting me to speak with you this morning.
    New Orleans has embraced charter schools as a major component of 
its efforts to create a new public education system that meets the 
needs of all children in the wake of Hurricane Katrina. Charter schools 
are tuition-free public schools created on the basis of an agreement or 
``charter'' between the school and the community. The charter gives the 
charter school a measure of expanded freedom relative to traditional 
public schools in return for a commitment to meet higher standards of 
accountability. Many people believe that these autonomous and 
accountable schools provide the best opportunity for transforming 
public education from a centralized, standardized system that has 
failed many children into a differentiated, entrepreneurial, high-
performance system that meets the needs of all students. With 
bipartisan support, including both Presidents Clinton and Bush, the 
charter school movement continues to grow at a double-digit rate, 
adding 300 to 400 schools each year.
    My organization is the National Association of Charter School 
Authorizers. Authorizers are the agencies that are entrusted to 
represent the public's interest in the contractual relationship with 
charter schools. Across the county, they are school districts, State 
education agencies, universities, independent chartering boards, 
municipalities and even a handful of major nonprofit organizations. 
Authorizers evaluate applications from organizations wishing to start a 
charter school, decide who is approved to open, execute contracts 
defining the school's rights and responsibilities, monitor and evaluate 
the school's performance and decide whether the school's charter should 
be renewed.
    Our Association is a nonprofit, professional membership association 
based in Chicago serving the needs of the hundreds of authorizers 
across the country. Founded in July 2000, NACSA is the oldest national 
organization that is devoted exclusively to charter schooling. Our 
mission is to achieve quality charter schools through responsible 
oversight in the public interest. We do that by setting industry 
standards, called Principles and Standards for Quality Charter School 
Authorizing, by providing traditional member services, such as 
conferences and publications, and through direct consulting services to 
authorizers. Some of our recent clients have included the New York City 
Department of Education, California Department of Education, Colorado 
Charter Schools Institute, and the University of Missouri at Kansas 
City.
    Since February, we have been deeply engaged in Louisiana through a 
contract with the State Board of Elementary and Secondary Education. In 
that time, I have been impressed by many people at the Department of 
Education, including State Superintendent Picard, Carole Wallin, Robin 
Jarvis, Weegie Peabody and Gary Wheat, to name a few. I have also been 
impressed by the dedication of the members of the State Board, 
particularly its Chairwoman, Ms. Linda Johnson and Vice Chair Leslie 
Jacobs.
    Today, I would like to describe NACSA's work in Louisiana, tell you 
how that work is contributing to a system of quality charter schools, 
and tell you what I see as the major hurdles ahead.
    NACSA's work in Louisiana can be divided into three categories: (1) 
evaluating and recommending proposals for charter schools to open this 
fall, (2) establishing a framework for the operation of those schools, 
and (3) preparing for the future.

                          EVALUATING PROPOSALS

    On March 20 of this year, the State of Louisiana received 
applications to start 44 charter schools in New Orleans. NACSA managed 
the process for evaluating those applications and making 
recommendations to the State Board. With a NACSA staff person, Ms. 
Shenita Johnson Garrard, assigned to Louisiana on a full-time basis, we 
ran a three-tier evaluation process, involving dozens of experienced 
evaluators from across the country. We looked closely, not just at 
educational plans, but also applicants' plans for school management, 
governance, community involvement and finance. We brought evaluators 
from across the country to New Orleans to participate in interviews 
with the strongest applicants. While no application is perfect, we 
employed the philosophy that all aspects of an application needed to be 
strong. Years of experience have taught us that a charter school 
application is only as strong as its weakest link and we were committed 
to not recommending schools with weak links.
    In the end, we recommended 10 applications to the State Board, 
which in turn approved them. I must commend the State Board for its 
steadfast adherence to our evaluation process. In other places around 
the country, politics sometimes enters into board decisions to approve 
charter school applications. Not here. Although Board members received 
considerable pressure from some applicants seeking Board approval 
despite NACSA's recommendations to the contrary, the State Board stood 
by the process and only approved applications that we had recommended.
    Does that mean I can guarantee the success of every one of the 
schools we recommended? No, I can't. Due to the extremely difficult 
conditions in Louisiana and very limited time, we did not know 
everything we wanted to know about every applicant. In order to get 
schools approved and open on a timely basis, we had to make decisions 
with less than perfect information. While that fact does concern me 
somewhat, it is not an overwhelming concern. For while the initial 
evaluation and selection process for a charter school is extremely 
important, it is not as important as the on-going support and 
monitoring systems that are subsequently put in place.
    Here is what we have done since then to establish a framework for 
the operation of those schools.

                  ESTABLISHING AN OPERATING FRAMEWORK

    First, we worked very closely with the Board and department staff 
to develop and implement an accountability framework for charter 
schools approved by the State. This framework was approved by the State 
Board in May. Louisiana now has an excellent set of objective student 
performance measures upon which to evaluate each charter school's 
performance. These performance measures are linked to the State's 
excellent pre-existing accountability system for all public schools and 
to the No Child Left Behind Act. Louisiana's prior system for holding 
charter schools accountable was characterized by subjective site 
visits, unclear academic expectations, and mystifying timelines and 
processes. Those problems have been eliminated and Louisiana now has a 
model accountability system for its charter schools that are authorized 
by the State.
    Second, we worked closely with the State department of education's 
legal staff to develop a strong boilerplate contract for charter 
schools that clearly spells out both the school's and the State's 
rights and responsibilities. A comprehensive, detailed and fair 
contract is essential. Among the highlights of this new contract are 
strong provisions regarding charter school governance, management and 
finance. Charter school boards will be required to adopt conflict of 
interest policies, submit financial disclosure statements and quarterly 
financial reports and conduct annual audits. Charter school boards that 
hire companies to manage their school are required to enter into 
contracts with those companies that safeguard the public interest.
    The contract also addresses several very important issues related 
to students: the procedures for conducting open and fair student 
admissions processes; minimum requirements for fair student 
disciplinary actions, including suspensions and expulsions; and 
requirements for serving students with disabilities. It is essential 
that all schools treat students fairly. Louisiana's State-authorized 
charter schools will do that because of the provisions built into their 
contracts.
    The final piece of the operational framework is a set of 
requirements that each approved school must fulfill before it can open 
its doors this fall. These conditions will ensure that the school is 
operating professionally and responsibly. Some of the conditions 
include board bylaws, proof of nonprofit status, a formal student 
discipline code, balanced budget, evidence of highly qualified teachers 
under NCLB, evidence of criminal background checks on staff, school 
safety and emergency plans and evidence of insurance. By requiring 
schools to fulfill these basic requirements before opening, we can 
better protect the public's investment in these schools.

                        PREPARING FOR THE FUTURE

    Everyone associated with these efforts has been working extremely 
hard for many months to open quality schools for New Orleans' children 
this fall. The people seated with me at this table have worked harder 
than any group of people I have ever encountered. But we have all been 
working within a system that was not designed to do what we're trying 
to do right now.
    Louisiana's charter school laws, procedures and systems were 
designed to handle a small number of new schools each year throughout 
the entire State, not to transform an entire urban school system 
overnight. The State Board and department of education have realized 
this and have asked NACSA to develop a new charter school application 
process for schools to open in Fall 2007 and beyond. They have also 
asked us to make recommendations for improving charter school policies 
and procedures.
    We have not presented our final recommendations to the State yet, 
but we do have observations in several areas. First, we have observed 
that New Orleans may not have enough trained, experienced educators to 
open and operate these new entrepreneurial schools. When these schools 
do open, we are concerned many will be operating in isolation, not part 
of a broader system or network of support. The Bring New Orleans Back 
Commission also recognized this and recommended the establishment of 
networks of charter schools. Also, the New Schools for New Orleans 
organization is offering services to schools to help bolster capacity. 
Both efforts are important.
    Second, we are concerned that the State department of education's 
charter school work is operating under a pre-Katrina organizational 
structure. People working on charter schools are in different places 
within the organization and do not report up through a single chain of 
command. We believe that the Board and the State Superintendent should 
be able to hold a single office accountable for the oversight of all 
State-authorized charter schools. We are working with the Board and 
department to address this issue.
    Third, we are concerned that Louisiana's current system of 
overseeing charter schools is splintered between local and State 
oversight and because it is splintered the system does not do enough to 
safeguard student rights, protect the public interest and promote high 
academic achievement at all charter schools.
    Of the 33 charter schools expected to operate in New Orleans this 
fall, 21 will be schools that have been authorized by the State and 12 
will be charter schools that have been authorized by the Orleans Parish 
School Board (OPSB). All of the actions I have mentioned in my 
testimony--the high-quality evaluation of proposals, the accountability 
framework, the monitoring of school finance and management, the 
protection of student rights and pre-opening requirements--have 
involved only charter schools authorized by the State, not the 12 
charter schools that report to OPSB.
    Under Louisiana's charter schools law, the State has almost no 
authority over charter schools approved by local school boards. Thus, 
the evaluation procedures, contract provisions, student safeguards and 
accountability framework we put in place for State-authorized charter 
schools do not apply to schools authorized by Orleans Parish.
    As a result, New Orleans will be operating with two different 
systems of charter schools this fall: a system of State-authorized 
schools and a system of locally-authorized schools. Those systems will 
be considerably different, with different and lesser processes and 
procedures for evaluating applications to start schools, admitting 
students, serving special education students, disciplining students, 
monitoring school finances, ensuring professional conduct by board 
members, and holding schools accountable for high levels of academic 
achievement.
    In particular, I must draw attention to the fact that charter 
schools authorized by Orleans Parish will be allowed to use selective 
tests to determine who is admitted to their school, contradicting a 
cherished principle of open enrollment that is valued in the charter 
school movement throughout the country. Selective admissions will not 
only enable OPSB charters to cherry-pick the best and brightest 
students, these schools will almost certainly not serve their share of 
special education students nor their share of New Orleans' rapidly 
growing population of English Language Learners.
    To be fair, I must commend several individual members of the 
Orleans Parish School Board for their support for charter schools. 
Phyllis Landrieu, Lourdes Moran and Una Anderson led the effort to re-
open the first public schools in the city last fall by establishing the 
Algiers Charter School Association. Other board members, however, have 
not been as supportive. In addition, the greatly reduced size of the 
New Orleans school district has diminished its internal capacity to 
adequately authorize charter schools and the district has not retained 
qualified, professional assistance to compensate for this weakness. All 
told, OPSB's different procedures, lack of capacity and lack of 
qualified assistance could mean that the children, parents and tax-
paying public would not receive the schools they deserve.
    There are three actions Louisiana can take to improve this 
situation. First, the legislature should amend Louisiana's charter law 
to give the State Board of Elementary and Secondary Education legal 
authority over all of its charter schools. Second, the State Board 
should establish and enforce minimum professional standards for local 
school boards' approval and oversight of charter schools. NACSA's 
Principles and Standards already exist and are being followed at the 
State level. They can be quickly applied to local school boards as 
well. Third, the legislature should take a serious look at the student 
admissions processes in New Orleans this fall and consider eliminating 
the ability of charter schools to use selective admissions processes.
    At hearings such as these, it is often easy to focus on problems. 
Certainly there are problems facing Louisiana and New Orleans as they 
work to rebuild their public school system. But New Orleans would have 
experienced problems no matter what course of action it took to re-open 
its schools. Instead, let us recognize the great steps the State has 
taken to establish a quality charter school evaluation, oversight and 
accountability system. And let us recognize the opportunity before us 
all.
    Louisiana has seized the opportunity to create a new, high-
performance system of public schools. This has been a bold step. It 
would have been easier to re-open schools under the old system. Easier, 
but not better. There have been bumps in the road and there will be 
more bumps ahead. We must stay the course, work hard, learn from our 
mistakes and get better. If we do, we will be creating in New Orleans 
the model for a high quality public education system in the 21st 
Century.

    Senator Alexander. Thank you, Mr. Richmond.
    Dr. Reidlinger.
    Dr. Reidlinger. Good afternoon. I'm Brian Reidlinger. I'm 
the CEO of the Algiers Charter Schools, the schools right over 
there across the river, and I'd like to thank you guys for 
waiting until the hood of the plane was put down before you 
came. We're glad to see you.
    There really are two main issues about running schools and 
I'd like to highlight those. First is the management of the 
school, and the Bring Back New Orleans Commission talked about 
small associations of schools and we're mostly doing exactly 
what the Bring Back New Orleans Commission talked about. We're 
a small group of about eight schools next year and management--
we'll do most of the management in house, human resources, IT, 
and those kinds of things, so that principals can focus on what 
they need to do in schools. That's really what I'd like to 
spend my time talking about.
    Building capacity of the adults in the school is where 
we're putting all of our chips. We're doing most of that 
through the teacher advancement program that I know you all are 
somewhat familiar with, the Milken Family Foundation; and two, 
that means two master teachers at every school. We're also 
partnering with the Recovery School District and the Orleans 
Parish School Board, with the University of Toronto, and doing 
professional development through their group. We're also 
partnering with the School Leadership Center of Greater New 
Orleans to work with leadership and leadership team issues to 
improve student achievement, and we're partnering with Holy 
Cross College to present some future leaders, so that as our 
leaders roll off we'll have people to step into their place.
    I guess all of that speaks to the literature on school 
improvement research for the last 10 or 15 years, and that is 
why we keep changing structures, but we don't necessarily 
change what happens in the classroom. We're putting all of our 
effort into what happens in the classroom so we can improve 
teacher instruction.
    I'd like to thank the Senators and the Senate and the 
Congress for the money you sent to us. One piece of information 
I can give is that the regulations got to us pretty late and 
they shifted a couple of times, and it would be very helpful if 
we could get those in advance, know what we could spend the 
money on, so we could begin planning for that. But that's not 
to say we don't appreciate the money. We appreciate it very 
much.
    An issue I think we'll always drum on here in New Orleans 
is facilities. I know FEMA is going to come with money for 
facilities, but our facility needs pre-storm were monumental.
    I'd like to end with one statement: Opening schools in New 
Orleans post-Katrina was a monumental task, willingly accepted 
by a small group of very committed individuals. Opening better 
schools in New Orleans post-Katrina is a moral imperative that 
many of us sitting around this table are involved in, and 
that's something we just have to work on doing.
    Thank you.
    [The prepared statement of Dr. Riedlinger follows:]

               Prepared Statement of Brian A. Riedlinger

                            HISTORY OF ACSA

    Prior to Hurricane Katrina, a small group of Algiers community 
leaders began writing a proposal to charter all 13 schools in Algiers 
with the goal of opening these schools as an association of charter 
schools in the 2006-2007 school year. Then Hurricane Katrina struck. As 
a result, the Governor, Kathleen Blanco, and the Louisiana State 
legislature worked cooperatively with the Board of Elementary and 
Secondary Education (BESE) and the Orleans Parish School Board (OPSB) 
to grant approval for the opening of five (5) charter schools. The 
Westbank of New Orleans, i.e., Algiers, had the least amount of damage 
to its community and school buildings in particular and was, therefore, 
the natural selection for this opening. Three (3) Pre-K-8 and two high 
schools were opened by mid-December as Type 4 charters, through the 
OPSB. In order to open these schools, a process that should have 
encompassed months was accomplished within weeks. Thirty-five 
individuals were interviewed to select five principals. Over 600 
teachers were screened to select about 150. One additional K-8 school 
was opened in March to accommodate more returning families post-
Katrina. When the school year was brought to an end in early June 2006, 
nearly 4,000 students were enrolled in the Algiers charter schools, 
representing 35 percent of public school students in Orleans Parish 
post-Katrina. The extraordinary efforts of teachers, principals, staff 
and parents all assisted in garnering a year of success from what began 
as a tumultuous and devastating natural occurrence in the city of New 
Orleans.
    This initiative was made possible through the collaborative efforts 
of a small group of five individuals from the firm of Alvarez and 
Marsal. This firm created the ACSA business infrastructure and managed 
all day-to-day non-instructional activities for the schools, including 
human resources, technology, facilities, contracted school support 
services (custodial, cafeteria, transportation, etc.), finance, budget 
and accounting for ACSA schools. In November 2005, I was hired as 
Director to run the academic side of the association. Two other 
individuals were brought on to assist with instruction and special 
education. Alvarez and Marsal has, almost entirely selected and trained 
their full-time replacements and the transition is nearly complete. 
When all is said and done, the central staff of the association will be 
comprised of approximately 15 individuals allowing principals to focus 
on the work of student achievement.
    In the spring of 2006, ACSA applied for six additional schools from 
the State Recovery School District (RSD). To date, two additional 
schools have been granted charters and will open in the fall of 2006, 
bringing the total to eight charter schools. Chronologically speaking, 
the first five schools opened by ACSA were chartered by the OPSB. In 
the spring of 2006, the State legislature began the State RSD into 
which over 100 of the 120 Orleans Parish schools fell. These schools 
were deemed as underperforming. Of the six schools ACSA had just 
recently opened, four were swept into the RSD while two remained under 
the control of the OPSB. The two new schools that will open in the fall 
under ACSA leadership are also RSD schools. In short, six of the eight 
ACSA schools are now Type 5 charters, chartered by the RSD to ACSA and 
were categorized as underperforming prior to the storm. The two 
remaining schools are Type 4 charters, chartered by the OPSB to ACSA.

                            PROGRESS OF ACSA

    In order to evaluate the success of Algiers schools in its 
shortened first year of operation, three tools were selected to 
determine progress:

    1. pre and post testing,
    2. a year-end parent survey, and
    3. a persistence survey.

    A nationally-normed standardized reading and mathematics test was 
selected from the Pearson Company, with the pre-test being given in 
January to all students K-12. The post-test was given in May to the 
same body of students. Preliminary results indicate progress at all 
grade levels with the exception of 7th and 8th grade, which reflects 
the national trend. We feel this demonstrates positive growth given a 
less-than-normal year. Parent surveys were sent to all parents. One 
question asked parents to respond to the statement, ``Overall, my 
child's school does a good job.'' Seventy-five percent of the responses 
stated ``almost always'' or ``always.'' A persistence survey is simply 
how many students return to the school, and if they don't, the reason 
why is asked. This survey will be administered in the fall when the new 
school year begins and the students return.
    There are basically two ways schools can improve. The first is 
screening students so as to accept only the higher-performing students. 
The second is to increase the capacity of the adults who work with all 
types of students. ACSA has chosen the latter which is a longer but 
much more effective school improvement strategy and arguably better 
serves society as a whole. As a great move forward, the initial six 
ACSA schools will begin implementing the Teacher Advancement Program 
(TAP) in the fall of 2006 (the remaining two ACSA schools will begin 
this process in the fall of 2007). The TAP program is supported by the 
Milliken Foundation and is endorsed and supported by the State 
Department of Education (DOE). The TAP Program consists of two masters 
teachers and up to five mentor teachers in every school. The master 
teachers have no assigned teaching duties and spend their time helping 
teachers improve their instruction, and therefore student learning. 
Mentor teachers have regular teaching assignments but serve as cluster 
leaders of teachers to implement school improvement efforts. The TAP 
Program utilizes teacher evaluations and student data to determine 
incentive bonuses for teachers. We believe that the TAP Program will 
drive, or at the very least be the core of, our school improvement 
efforts.
    Research tells us that professional development is most successful 
when it is job-embedded, supported in the classroom and continuous over 
time. Rarely does professional development hit this triad. ACSA, in 
collaboration with the RSD, has begun planning for professional 
development which will be delivered by representatives from the well-
respected Ontario Institute for School Improvement (OISE) of the 
University of Toronto. Teachers will learn and/or improve teaching 
techniques such as cooperative learning and seeking relevance. It is 
then the Master Teachers' job to act as helpers in making sure that 
these pedagogical techniques are implemented correctly in the 
classroom. School improvement literature indicates that, almost always, 
school structures change (e.g., regular public schools to charter 
schools) while teaching in the classroom remains the same. This 
produces little significant gain in student learning. We believe that 
the sound combination of improved pedagogy (OISE) with support from 
master teachers (TAP), combined with the freedom from bureaucracy that 
is the cornerstone of charter schools will produce the much-desired 
effective schools New Orleans needs and deserves.
    Equally as important as teacher professional development is the 
personal and professional growth of the school leader. In conjunction 
with the School Leadership Center of Greater New Orleans' Learning 
Initiatives Program (SLCLI), Algiers principals will be afforded the 
opportunity to participate in 2 years of professional development by 
way of the SLC Fellows' Program. This research-based, proven program 
provides school teams with the ability to delve deeply into their 
school data and carefully plan school improvement. The SLC Fellows' 
Program demonstrates that public schools which participate in the 
program show an average of 54 percent increase in school performance 
scores (SPS).
    To insure a pool of highly qualified and competent future school 
leaders for Algiers' schools, ACSA has entered into a partnership with 
Our Lady of Holy Cross College (OLHCC) also located in Algiers. The 
goal of this collaborative program is to provide a selected group of 20 
future leaders a masters degree within 2 years at little or no cost to 
them. College professors, along with adjuncts who are practitioners in 
the field, will provide instruction in the State-mandated, newly-
redesigned 36-hour Educational Leadership program. The capstone 
experience for these masters' candidates will be an internship that is 
a combination of observation, participation and leadership that 
encompasses 250 hours which spans two internship semesters.

                             FUTURE OF ACSA

    Much as proven, school improvement is driven by correctly 
implemented professional development, decisions made at the level 
greatly enhance the possibility of school improvement. For that reason, 
ACSA placed much of the decisionmaking authority into the hands of 
school leadership. For example, for the upcoming school year, all 
schools were provided with a budget made up of core staff (e.g., pupil 
teacher ration 25:1) and mandated spending (i.e. transportation, 
janitorial, etc.) but were also provided the opportunity to create 
their own spending plan with the remaining budget funds available. With 
this flexibility, the principal could assess the unique needs at their 
particular school and implement programs of their choosing to address 
those unique needs, such as lowering pupil teacher ratio, creating an 
arts program, providing specialized professional development to staff, 
among a plethora of opportunities as needed at the school site level. 
Because of the efforts of the central staff and their dogged pursuit of 
effective and efficient spending, schools were provided an opportunity 
unheard of previously. It is the principle of efficient shared services 
on a manageable scale (8 schools) that helps to provide this 
opportunity.
    Mayor Ray Nagin's Bring Back New Orleans Commission on Education 
suggested, as a model for the city, small associations of schools that 
share services. To an overwhelming degree, ACSA is doing just that. In 
fact, when the entire teaching corps was asked to identify the thing 
they most liked about working with ACSA, over 60 percent stated they 
liked the other teachers they worked with. That is an important factor 
because creating a collegial atmosphere (building relationships) is an 
often forgotten element in creating strong teaching staffs--and strong 
teaching staffs created improved student achievement.
    Given the uphill environment of ACSA's beginning and the start-up 
nature of the entire year, ACSA did not start schools with a particular 
focus (e.g., an arts focus, a communications school, technology) and 
therefore did not engage the community and parents in developing a 
program unique and designed for each school. The focus was to open 
well-run and academically successful, improved schools. For that 
reason, ACSA schools will spend the 2006-2007 school year engaging the 
school community and the larger community in looking at and deciding 
upon a focus for each school. This is important because if the research 
on charter school success is reduced to a single common denominator--
parent and community involvement is the single most important predictor 
of success. We will backtrack and garner that input over the next year.
    Finally, I would be remiss if I did not mention the financial 
support from Congress. The 20.9 million dollar charter school 
initiative helped insure that a year of financial stability will pay 
dividends in the future. Additional funding will assure that the local 
portion of our schools' Minimum Foundation Program funding is adequate 
and even allow us to create innovative and imaginative programs for our 
students. While the funding did not arrive until near schools end, we 
have been able to leverage it to enhance our future. I bring to you the 
gratitude of our entire association.
    Margaret Meade has been quoted saying: ``Never doubt that a small 
group of thoughtful, committed people can change the world, indeed, it 
is the only thing that ever has!''
    Opening schools in New Orleans post-Katrina was a monumental task 
willingly accepted by a small group of very committed individuals. 
Opening better schools in New Orleans post-Katrina is the moral 
imperative that that committed group is dedicated to accomplishing.

    Senator Alexander. Thank you, sir.
    Ms. Landrieu.
    Ms. Landrieu. Thank you, Senator, and thank you all for 
coming.
    I want to say how proud our family is of Mary and the 
wonderful service she's been rendering to this cause. It's just 
been phenomenal, and we love her and we really are grateful, 
Mary. Thank you.
    Senator Landrieu. You can tell that's my aunt.
    Ms. Landrieu. I'm President of the Orleans Parish School 
Board and I've given you quite a bit of detail in my written 
statement, but I want to say that our highest priority is 
preserving or reestablishing the financial stability of our 
school system. In my written comments you can understand some 
of the serious problems that we had. I'm convinced that until 
we straighten out our financial problems and then acquire 
substantially more financial investment in our school system we 
are never going to be able to change. There are resources that 
we need, in order to improve, that we don't have the money for 
right now. So that will be our first priority.
    My second priority for our school board is preserving the 
high-performing schools that we inherited when the law was 
passed that set up the Recovery School District and left us 
with 16 schools. As you probably know, one of our schools was 
one of the leading schools in the entire country, and the rest 
of our schools led the State in their performance and their 
academic standards. In order to continue to provide critical 
thinkers and leaders in this community and to feed our 
universities and ensure that all of our population has the 
opportunity to have a free quality public education, our school 
board is focusing on making sure that we do everything that we 
can to preserve these high-performing schools so that they can 
continue to be an asset to our city.
    The third thing that we feel the responsibility for is 
getting schools ready to open. We have assumed, our school 
board has assumed, overseeing the entire opening, repair, 
funding and opening of all of the schools in our district, and 
so that's been something that has really kept us busy, and we 
are determined to continue to do that. We're quite frankly 
running out of facilities that we can repair and get schools 
open, so we'll have to look at a longer range option as far as 
that's concerned.
    Then our next responsibility that I'm focusing on is making 
sure that we have a unified school system, and I'm already 
naming it the Orleans Parish Unified School System, because 
until we have a seamless relationship between all of us and a 
seamless relationship between all of our schools, our children 
that will be moving around within the school system will not be 
able to access the various schools that they'll need to. 
Besides that, we need to maximize our investment and the only 
way we can do that is by not duplicating so many things around 
the system and making sure we're working together.
    I must say that we've received enormous cooperation from 
Superintendent Picard and his staff and Dr. Jarvis, and we 
really look forward to a great relationship with the charter 
schools and with the school district as we go forward.
    One of my newest interests is that I recognize that our 
children in New Orleans, because we are one of the highest 
poverty cities in the country, begin school with a gap, with 
disparities that put them in an unstable position in order to 
compete with the surrounding children in the parishes like St. 
Tammany, Jefferson, the rest of the State and the Nation, 
because they come to school from low-birth weight, poor 
nutrition, undiagnosed diseases and illnesses, child abuse, 
unstable families, and you know what the list is.
    So I would like to and I have formed an organization to 
address that, that has the participation of many of the key 
early childhood experts in the State. We're going to start 
developing a plan to do that. It's going to take a lot of 
investment to diagnose what the children's conditions or status 
is, to bring the kinds of resources they need to solve the 
problems that they come to school with, in order to put them on 
an even playing field once they are able to have their problems 
resolved so that they can compete successfully with their 
peers. So I'll be focusing on that.
    I think the highest priority in our school system is 
training our teachers. We had some very wonderful, wonderfully 
qualified and dedicated teachers in our last school system and 
many of them have returned and they are working very hard to 
establish quality classrooms. But our teachers are a whole--I 
don't know the word--generation below what the high-performing 
teachers in the rest of the country in the successful school 
systems are. So we have got to evaluate our school teachers, 
our teaching capabilities, and we've got to greatly elevate 
them through hard work, through training, through resources, 
through all kinds of things that will have to take place. But 
that's something that would be a high priority for our district 
in order to succeed.
    I want to salute all of the people at this table and behind 
all of us who helped us open our schools. We do now have 
adequate schools to address the community's demand at this time 
in terms of numbers and by fall and spring we fully expect and 
we are fully determined to make sure that we can provide a 
school and a seat in a classroom for every child who returns to 
New Orleans.
    It has taken the work of tremendous people, whose own 
personal sacrifice has been significant because in almost every 
occasion they've lost their homes or their own businesses and 
have suffered. But they've put that aside to work day and night 
to open our schools, and I think they really deserve a great 
recognition.
    So again, thank you very much. Thanks to the Governor and 
the superintendent of education and his staff, and thank you 
for your interest in coming to New Orleans. Thank you for the 
resources you've provided. We'll use them well and we'll make 
sure that we use them to improve our education system.

    Senator Alexander. Thank you, Ms. Landrieu.
    Senator Ullo.
    Mr. Ullo. Thank you very much. Again I thank you for coming 
here. It's an honor to be here before you today. I represent a 
district adjacent to the city of New Orleans and I've long been 
aware of the difficulty and seemingly intractable struggles of 
the New Orleans public school system. Louisiana has been on the 
forefront of developing and institutionalizing a statewide 
school and school system by school system accountability 
system. Our accountability system is and always has been 
centered on students' performance and it has been in place long 
enough to provide us with a reliable view of the performance of 
our students in each of the schools and the systems.
    The students' academic performance and the revealed lack of 
proper financial control combined in the early years of this 
decade to create, what the parents will to try to address in 
State law, the need to do something about New Orleans schools. 
We could no longer blame the poverty in which many of these 
students lived, although the poverty certainly was a factor. It 
was time to try to address the structure. Of course, at that 
time several significant and highly controversial politically 
difficult pieces of legislation were passed prior to Katrina 
that were attempts to get to the problem.
    We passed approximately five, but I'd like to concentrate 
on one since I have all of them. We created the Recovery School 
District as an interim educational unit, run by our State Board 
of Education, and provided that failing schools under an 
existing accountability program anywhere in the State that were 
not turned around by their local school boards would be 
transferred to the Recovery School District to allow the State 
to provide for improvements in these schools before returning 
them back to their home district.
    Ultimately, we enhanced the Recovery School District plan 
to redefine failing schools so that all schools performing 
below the State average that were in a system where the 
majority of the schools were unacceptable were moved into the 
Recovery School District. As a result, when Katrina washed away 
many of the facilities and the bulk of the students were forced 
to relocate to other parts of the State or the country, the 
largest portion of the responsibility for rebuilding the 
schools fell to the state-run Recovery School District.
    It's an awesome responsibility and it provides the 
opportunity to rebuild a system that will be the very heart of 
the rebuilding of the city itself. Recognizing this historic 
opportunity, the legislature placed over $40 million into the 
Recovery School District this fiscal year, and the fiscal year 
started July 1st.
    The legislature together with the Board of Regents for 
Higher Education has successfully redesigned our teacher 
preparation programs to the point where 99 percent of college 
graduates are meeting all State certification requirements at 
the point of completion. We are proud that Louisiana's 
determined efforts have been recognized in recent years. We 
have been acknowledged in ``Education Week'' and by others as 
having first been ranked No. 1 in the Nation in efforts to 
improve teacher quality for 2005-2006. We were also ranked No. 
1 in student standards and accountability in the same years. We 
were the first State in the Nation to institute high-stakes 
testing in elementary and middle schools.
    But how we respond to the devastation of Katrina is a story 
that will define our State for the next generation. Certainly 
I've got to thank you all for being knowledgeable about what 
our problem is and wanting to find out more about it by coming 
here to know and see what's happening. This city and State will 
need the full cooperation of all the parties if we're going to 
rebuild.
    But I believe that as we rebuild, providing a high quality 
education to all the city's children is the keystone to our 
success.
    Again, I want to thank you for allowing me to make this 
presentation on behalf of the State legislature.
    [The prepared statement of State Senator Ullo follows:]

                Prepared Statement of State Senator Ullo

    I have served in the legislature for over 30 years and, until 3 
years ago when I became chair of Senate Education, I have never served 
on an education committee. But education has always been a matter of 
great interest and concern to me. I represent a district adjacent to 
the city of New Orleans and I have long been aware of the difficult and 
seemingly intractable struggles of the New Orleans public schools.
    For many years I served with my friend, Senator Cecil Picard. His 
leadership was important to my view of educational policy then as it is 
now. Cecil's leadership in his role as State superintendent has been 
the basis for much of the progress Louisiana has made in its public 
schools.
    Louisiana has 69 local public school systems most of which are 
coterminous with the parish government. Four of these systems are city 
or community systems and this total includes the Recovery School 
District as well. These systems serve student populations ranging in 
size from barely 1,000 to 50,000+. The implementation of State law and 
State board regulation in these systems varies widely from one system 
to another yet all are monitored for compliance with State and Federal 
requirements. Some of these systems are providing outstanding 
educational opportunities to the students they serve; others don't do 
so well. Before Katrina, New Orleans Public Schools served 
approximately 10 percent of the public school students in the State and 
was one of the systems that was a matter of greatest concern both for 
the legislature and for the educational leadership structure.
    Under Superintendent Picard, Louisiana has been on the forefront of 
developing and institutionalizing a statewide ``school by school'' and 
``school system by school system'' accountability system. Our 
accountability system is and always has been centered on student 
performance and it has been in place long enough to provide us with a 
reliable view of the performance of our students and each of the 
schools and systems.
    Our accountability results, particularly as adjusted to comply with 
the Federal ``No Child Left Behind Act'', starkly revealed to all what 
was long felt to be true by many, that the vast majority of schools in 
New Orleans were performing well below the standard needed for our 
children to succeed. In addition, there were legislative hearings 
concerning the financial structure of New Orleans and two or three 
other schools systems which were stimulated in part by Federal concern 
regarding the use of Federal title I money.
    The students' academic performance and the revealed lack of proper 
financial controls combined in the early years of this decade to create 
the political will to try to address in State law the need to ``do 
something about New Orleans schools.'' We could no longer blame the 
poverty in which many of these students lived, although the poverty 
certainly was a factor. It was time to try to address the structure.
    Several significant, highly controversial, and politically 
difficult pieces of legislation, that were attempts to get at the 
problem, were passed prior to Katrina.

    1. We tried to transfer most of the authority from a dysfunctional 
school board to the local superintendent. At the time, New Orleans had 
a superintendent that had an impressive turn-around track record. 
Ultimately, this effort didn't solve the problem.
    2. We created the Recovery School District as an intermediate 
educational unit run by our State Board of Education and provided that 
failing schools under the existing accountability program anywhere in 
the State that were not turned around by their local school boards 
would be transferred into the Recovery School District to allow the 
State to provide for improvement in these schools before returning them 
to their ``home'' district.
    3. We created auditing structures designed to assure that we got 
some control over the financial mess that had developed.
    4. Ultimately, we enhanced the Recovery School District plan to 
redefine failing schools so that all schools performing below the State 
average that were in a system where the majority of the schools were 
unacceptable were moved into the Recovery School District.
    5. The State superintendent negotiated with State, Federal and 
local New Orleans officials to bring in Alvarez and Marsal to manage 
the finances and get the school board back on a sound fiscal basis.

    All of these things occurred before the storm.
    As a result, when Katrina washed away many of the facilities and 
the bulk of the students were forced to relocate to other parts of the 
State or the country, the largest portion of the responsibility for 
rebuilding the school fell to the state-run Recovery School District.
    It is an awesome responsibility and provides the opportunity to 
rebuild a system that will be the very heart of the rebuilding of the 
city itself. Recognizing this historic opportunity, the legislature 
placed over $40 million dollars into the Recovery School District this 
fiscal year.
    Dr. Robin Jarvis is here. She is the superintendent of the Recovery 
School District. She can tell you exactly what they are doing and how.
    The legislature, together with our Board of Regents for Higher 
Education, has successfully redesigned our teacher preparation programs 
to the point where 99 percent of college-education graduates are 
meeting all State certification requirements at the point of 
completion.
    We are proud that Louisiana's determined efforts in education have 
been recognized in recent years. We have been acknowledged in Education 
Week and by others as having:

    1. Ranked No. 1 in the Nation in efforts to improve teacher quality 
for 2005 and 2006.
    2. Ranked No. 1 in the Nation in student standards and 
accountability in 2005 and 2006.
    3. First State in the Nation to institute ``High Stakes'' testing 
in elementary and middle school.

    But how we respond to the devastation of Katrina is a story that 
will define our State for the next generation.
    I am glad you are here and want to know what is happening. This 
city and State will need the full cooperation of all the partners to 
rebuild. But I believe that as we rebuild, providing a high quality 
education to all of the city's children is the keystone to our success.

    Senator Alexander. Thank you very much for terrific 
testimony. If the entire U.S. Senate could be as succinct as 
you have been, we'd probably have a much better Federal 
Government.
    What we'd like to do now is ask you some questions. We'll 
take about 5 minutes each to ask questions and do some more 
listening of what you have to say.
    Let me ask you, Mr. Richmond. You've seen charter school 
laws all around the country. We have seen across America that 
the ability of a charter school to succeed has depended a lot 
upon the quality of a State's charter school law. What 
amendments would you make in the Louisiana charter school law 
to give charter schools a better chance to succeed in Orleans 
Parish and other places in Louisiana?
    Dr. Richmond. I think Louisiana does have a strong law that 
could use some refinements. In particular, the five types of 
charter schools that are written into Louisiana's law can 
provide some challenges on the oversight of those schools. 
Oversight of the schools is splintered. Some of the schools are 
overseen locally, some are overseen at the State level, and 
then even at the State level there are some types of charter 
schools overseen by one part of the State and another by 
another.
    So providing some consistency or consolidating that 
oversight I think would be very valuable. We now have in place 
through our work with the State this spring some very strong 
policies and procedures on accountability and things that I 
mentioned. The next step I think for the State of Louisiana 
would be to make sure those strong policies are in place for 
all charter schools in the State, not just some of them.
    Senator Alexander. Dr. Reidlinger, do you have any 
suggestions about changes in the State law to make your 
operation easier?
    Dr. Reidlinger. A couple of things. From what we're seeing, 
as I understand it, from what we're seeing there seems to be a 
layer of bureaucracy that charter schools are not generally 
used to. Now, I understand that from the State point of view, 
because we have so many people charting, you just don't want to 
do it willy-nilly. But there also seems to be more control than 
I understand charter schools generally deal with.
    One of the things Greg just mentioned, we will be answering 
to two different entities. We'll be answering to the Orleans 
Parish Board for two of our schools and the Recovery School 
District for six of our schools, and that means even our 
student data system will be different in both of those. So 
those present some challenges, and I don't think those are 
things that we can't work out, but certainly I think those are 
things that would help us.
    Senator Alexander. I would encourage you to be aggressive 
about trying to preserve your independence and autonomy for 
your schools, because the model I like to think of is our 
colleges and universities. They're the best in the world, 
everyone concedes, and one major reason is we don't try to 
micromanage them. Tulane or LSU, although subject to a lot of 
Federal regulations, are basically autonomous. Some colleges 
and universities are better than others, but on the whole our 
higher education system gives students lots of good choices.
    Dr. Jarvis, let me ask you, and maybe Ms. Landrieu, about 
Federal funding. We appropriated a lot of money, 170 million 
new dollars, into restarting Orleans Parish schools. The first 
$100 million in restart aid was sent to Louisiana in January of 
this year. Have the Federal dollars gotten to where they're 
supposed to go?
    Dr. Jarvis. Yes, the Federal dollars have gotten to the 
Recovery School District. We've used them largely in our 
restart efforts, setting up an IT system, ensuring that we have 
contents, furniture, equipment, textbooks, new computers.
    Senator Alexander. Can you use them for training teachers?
    Dr. Jarvis. We can use them for professional development. 
We'll use them in that way. We will use them to assist the 
charter schools further once we determine exactly--once we get 
the buildings up and ready, we'll have to determine what is 
remaining that FEMA's not--once we get FEMA reimbursement 
straight, what's not covered will have to be covered by restart 
in the area of contents, textbooks, those sorts of things. Then 
we'll be able to take what is remaining and determine how to 
allocate it across all of our schools in order to promote more 
equity and provide them great funding and also provide equity 
across the schools in that funding.
    Senator Alexander. What struck me about New Orleans' 
opportunity is that you have the conditions that most places 
don't have, which are, No. 1, you've got permission more than 
most; No. 2, you have as a result of a disaster a green field; 
and No. 3, you have some venture capital. Hopefully, as time 
goes on, as you create new charter schools, you will be able to 
make good use of these unique conditions. The idea would be 
like the Saturn plant that General Motors created years ago 
when they said: ``Take a year off, and go figure out what to 
do. Here's some money; now then go do it.''
    I know you haven't been able to do that this quickly. We 
talked about this a little earlier.
    Linda Johnson, all the testimonies I've read were very 
good, but your testimony was especially succinct and seemed to 
me to be a tremendous shorthand summary of a good framework for 
what we might try here. I want to just ask you to comment on it 
and answer this question. The idea of giving free market 
choice, as you call it, to the families of New Orleans and 
creating new schools for them to choose primarily benefits low-
income people, because people with money already have those 
choices. That's often not understood.
    Charter schools are nothing more than schools that are 
freer of rules and regulations so teachers may give the 
children what they need. If they need to be there an extra hour 
a day or on Saturday or have smaller classes or larger groups 
or whatever they need, they can do it. Charter schools let 
teachers use their common sense to help children.
    How do we help people understand that giving them choices 
and creating these more autonomous schools is actually an 
opportunity for low-income families to have more of the same 
opportunities for their children that rich people already have?
    Ms. Johnson. Thank you very much, and you put that exactly 
the way that I look at it, that in creating the charter schools 
in an urban area where there was already choice--remember, we 
had a tremendous number of parochial schools in this area that 
you pay for if you had the dollars. So what this is doing for 
poor people is to allow them that same opportunity.
    But first you have to make sure that they all understand 
that these are better schools. You have to almost believe that 
I can make a decision on where I'm going to send my child and 
that this decision is based on quality. Once I make that 
decision--this lady sitting next to me has a child in a 
Montessori program that has a French immersion in it, and if I 
were a parent living in Louisiana with a young child I really 
would want to have that opportunity.
    So to know that I could do it with no strings attached, 
meaning I don't have to pay money, transportation would be 
provided, and I can do it for my child, then I would do it. I 
feel personally that the issue for us now is to make sure that 
the message is communicated adequately to low-income parents, 
because if we don't communicate it adequately then their 
concept will be: It is the same as it was. So you have to have 
a really good communication piece that reaches people and hits 
them so that they will understand: Hey, the Recovery School 
District is running this particular school and it has this set 
of expectations, and I want my child there, because they keep 
telling me that if my child completes it my child will be able 
to go to this particular middle school or this particular high 
school and this particular university. But we have to just 
communicate that message.
    But I like the free market and I like to opportunity to 
have the choice, and I'm very much in favor, and what we've 
done with the Recovery School District is that it's open access 
and it's not selective. So you as a parent and a child can make 
that decision.
    Senator Alexander. Thank you.
    Senator Landrieu.
    Senator Landrieu. Thank you so much. Again, you have done 
tremendous work. This chart I look at weekly in my office, and 
of course it keeps changing. For those of us that are sort of 
organizational fanatics, we like to stay steady, but change is 
good.
    I used to get really focused on it looking a little odd, 
but after reading the testimony I can really understand how--
one of you used the words, to sort of camouflage the governance 
issue, but make it seamless for parents in the community, and I 
think that is a good consensus that you all have actually 
reached. As we go semester by semester, this will straighten 
itself out. But I think staying focused on quality, kids, 
opening schools, keeping the momentum and excitement is what I 
can see from the testimony you've submitted.
    Robin, I specifically want to ask you and Carol if you 
could state for the record how much money will the individual 
charter schools, based on their per-pupil allotment, how much 
can they depend on this September when they open? That's a very 
important question to be answered and I hope you can give us 
some idea. Is it $4,000 per child, $5,000, $6,000, $7,000, so 
these charter schools can start budgeting knowing that they're 
going to receive 200, 300, 400 children?
    Dr. Jarvis. Well, let me just say that one of the 
innovative things we did in the Recovery School District, that 
I don't think was included in the testimony, was that we have 
gone to a differentiated funding formula on a per-pupil basis 
with the State funding that goes to the district or to the 
schools within the district. So what we've done is for a 
regular education student and I believe the number is right at 
$5,000 per student. However, we then created three categories 
of students with disabilities and based upon the categories 
within those areas we have weighted additional funding, because 
we know that those children are more high cost to provide 
services to and to provide education to.
    The MFP, the State's MFP, actually has a weighting for 
special education students in it, but it's spread across all 
students. So we pulled it out and now are using it to weight an 
additional. So for students in that highest cost category--
which is your children, severe and profoundly disabled 
students, children with autism, some of your higher cost 
areas--they can expect to receive about $17,000 per child 
should they take those students.
    So they will have to look at the types of students they 
take and it will be based upon that. But for regular education 
students, just from State funding they can expect $5,000 per 
student. We're still working----
    Senator Landrieu. So we can say for the record that it's 
$5,000 to $17,000, $5,000 for an average student to $17,000 per 
child for special education children that need a lot of extra 
attention. Some of them are greatly challenged mentally and 
physically.
    Dr. Jarvis. If I can just say, that's before you get into 
the Federal funds. So that's before they get the title I 
allocation or the additional IDA allocation that they'll 
receive for special education students. That is just looking at 
the State funding.
    Senator Landrieu. That is very helpful to get out there, 
because we've been reading things in this testimony about 
$1,000 per child or $2,000 per child; I'm glad you clarified 
that, that it will be somewhere between $5,000 and $17,000.
    What is your plan to get the rest of your recovery schools 
chartered? You have several network charter schools. I think 
one of the great innovations that you have come up with, and of 
course the Cowen plan I guess is mostly responsible for this, 
and it's outlined in most of your testimony, is not just the 
creation of independent public schools that not only give 
children more choices, but teachers more choices, parents more 
choices, neighborhoods more choices, everybody more choices, 
but the twist or the added value, if you will, of the 
networking concept, which has the advantage of not having 
schools just out there alone by themselves, but they're also 
not trapped in a big system that sometimes is too impersonal.
    It's sort of like the right size to just get the job done, 
not too little, not too big, not too hot, not too cold--a 
little cluster of schools that can really work as a team 
together. That's sort of what the Algiers model has been 
developing, why we're watching it so closely. But that's the 
concept that is very unique, it doesn't exist anywhere in the 
country, that we have the chance to do, and I can see it 
emerging from this.
    So how are you moving these schools under the Recovery 
School District into that network model and what's your 
timeframe for that?
    Dr. Jarvis. Well, that will be our next project, to be very 
honest. Right now it's very much focused on getting schools 
open for this fall. But I would say that many of our networks 
are emerging kind of naturally. You have the Algiers situation. 
You have KIPP who is now coming in with their second school and 
are looking to bring in up to five schools over the next few 
years. You have UNO who has two schools that they've chartered 
and an additional two to three that they provide support to.
    As I see it and as Brian mentioned in his testimony--and 
we're both former school principals--it's really critical that 
the principal in the school be able to focus on instruction and 
that they not be so devoted to management. So having structures 
like the Algiers Charter School Association and these networks 
created that take some of that responsibility for them really 
assists them and helps them.
    So what we really need to work toward is the ones that are 
independent, that don't have an association that they are 
working within that has multiple charter schools that can 
provide that kind of support, how do we bring them together 
into networks and into working together? And then how do we, 
with our own schools that we operate, put them into groupings 
that allow them to provide support and share ideas between 
themselves. And that's the next piece of our work. That's part 
of what we're doing with Michael Fullin and the people on his 
staff.
    Senator Landrieu. Do you have a timeframe for that? You say 
that would take place in the next 6, 9, 12 months?
    Dr. Jarvis. I really do not have a specific time line at 
this point for that.
    Senator Landrieu. I think that's fine. I'll wait for my 
second round.
    Senator Alexander. Well, we may not have a second round.
    Senator Landrieu. Well, then let me just, Greg, ask if you 
have anything to add based on that networking model and how 
these networks should come together? What's the next step that 
you see?
    Mr. Richmond. On the network idea, no other city or State 
in the country has the opportunity to do something like New 
Orleans has right now on networks. You do see some scattered 
individual activities--the Aspire schools in California, High-
Tech High also out of California. In Chicago there are a few 
groups.
    We used to think 10 years ago that charter schools were 
just schools and they would replace the pre-existing normal 
district school. Well, they are a school, but they also now 
have to take on the responsibilities that the central office 
does for the normal school. So that's actually an additional 
set of burdens that a traditional district school doesn't have.
    What we have learned over the past 10 years is that the 
best way to do that is to create that right-sized network that 
can provide that kind of support to a school so the school 
leaders can focus on instruction and not on all the back 
office.
    Senator Landrieu. Really quickly, do we think that network 
is between 4 and 8, 4 and 10, 5 and--what is it in the plan 
that we are shooting for?
    Mr. Richmond. I don't recall what the Bring New Orleans 
Back plan figure was. But I'd say you're in the right ballpark 
there, 4 schools to 10, probably no more than 15.
    Senator Landrieu. I'd almost think 15 would be almost a 
little system, which we want to try to just work this network 
model if we can.
    Father Maestri, anything before we close that you want to 
add, and then I'll turn it over to the next person? Just a 
question about, I know the network model doesn't apply to the 
Catholic schools, but your facilities, you all are one big 
network, basically one big system.
    Father Maestri. Well, I think that the important thing to 
keep in mind, if I could speak for the Catholic system, is that 
we believe very much in the principal of subsidiary, which 
means never do on a higher level of organization what is more 
effectively done on a lower, more intimate level of 
organization.
    I have to say I'm so delighted to be here because never did 
I think I would hear such a celebration of the free market and 
choice. However, when it comes to the question of vouchers it 
seems that choice all of a sudden becomes a kind of political 
anthrax. My question is, why isn't that placed into the mix? 
Why isn't that part of it?
    I simply would say to you that in the Archdiocese of New 
Orleans our average tuition for elementary school children is 
$2,200, $2,200 for elementary school children. Every child who 
attends a Catholic school receives a scholarship because 
there's a tremendous gap between the amount that is paid and 
the amount of the actual education.
    We have 60 percent of our children in our Catholic schools 
in Orleans Parish that are not Catholic, not Catholic. And 
people say to me: ``Why do you educate non-Catholics?'' Well, 
we don't educate children because they're Catholic. We educate 
children because we're Catholic; that's what we do. And the 
vast majority of our children in Orleans Parish are African-
American, are children of color. The Archdiocese of New Orleans 
has never walked away from the city, continues not to walk away 
from the city, and has never abandoned the inner city school. 
That is one of the most important things in our Archdiocese.
    So when we talk about the idea of choice and we talk about 
the idea of cost, I think that the Archdiocese's record in that 
particular area is quite significant. And I certainly am so 
glad to hear that we are for the free market and for choice, so 
that the next time I go before Senator Ullo's committee in the 
State Senate I will certainly let all of you know and would 
welcome you there.
    Senator Landrieu. I wouldn't go that far.
    Senator Alexander. Senator Burr, will have the last round 
of questions. But I think, Senator Landrieu, one of the 
interesting things that we can watch, hopefully in future 
hearings, is the development of this cluster idea and how it 
works in Algiers, and how Dr. Jarvis looks at it and thinks 
about expanding it as time goes on. In my way of thinking, I 
don't know of any reason, a support services office couldn't 
include Catholic schools. That doesn't get the vouchers, but it 
might be a way of saving money and helping children. I don't 
know any reason that might not work, and New Orleans might be a 
good place to think about it.
    Finally, Father, next week I'll be introducing legislation 
in the Senate, that President Bush has recommended, that would 
provide $100 million in scholarship vouchers to children who 
attend public schools that consistently underperform under the 
No Child Left Behind Act, so that they can attend the public or 
private school of their choice. As you may know, I've also 
proposed a sort of Pell grant for kids, for low-income 
children, to use new Federal dollars to attend any school of 
their choice.
    Senator Burr, you'll have the last round of questions.
    Senator Burr. Thank you, Mr. Chairman. I will be brief.
    The one thing that comes across, at least to me, and I 
think it does to my two colleagues, is just how passionate each 
one of you are at making education work; that even faced with 
this tremendous challenge of the dislocation and the 
destruction, that all of you look at this as a new day and a 
new opportunity. I think that that's refreshing and I think if 
every community had an opportunity to do that we would solve K 
through 12 in very short order.
    Given that we can't approach it from that aspect, we look 
at it as a generational transition, and clearly No Child Left 
Behind is a great start.
    Dr. Jarvis, if I pressed you for three things that you see 
that are going to be different in the post-Katrina school in 
the Recovery District from the pre-Katrina schools, what would 
that be?
    Dr. Jarvis. Three things that will be different in the 
post-Katrina schools? I would say first of all quality of 
teaching staff and leadership in schools. I have to be very 
honest. In our failing schools in New Orleans, the ones that 
moved to the Recovery District, that is something that was 
clearly lacking.
    The second piece that will be very different is the way 
that we work with and approach the parents and the community 
members. I have parents and community members contacting me on 
a daily basis to attend neighborhood meetings, to talk about 
forming neighborhood leadership groups to work with their 
schools, and we are embracing all of those opportunities.
    It's my belief that the neighborhood and the community of 
New Orleans needs to re-engage with public education. They 
didn't feel like they could approach their superintendent in 
the past. I've heard it over and over again. It amazes me that 
they felt that way, even the teachers and the principals that I 
talked to, and they are just always surprised when I appear, 
when I come to a public meeting alone, without a security guard 
or a driver, and I attend the meeting, I talk with them about 
their concerns, and I share with them in that. I think that's a 
critical piece of the work that we do.
    The third thing I would say is we're going to have a strong 
curriculum aligned to our State contents standards and grade-
level expectations and the assessment framework of the State. 
I've spent the past 7 years working in the State education 
agency and for 2\1/2\ years of that I was the director of 
accountability for the State as we went through the approval 
process for our accountability system for No Child Left Behind. 
I know what it takes, my staff knows what it takes, we know 
what needs to be taught. And we're ensuring that we're choosing 
the best materials, the materials that are aligned with the 
State contents standards and the grade-level expectations, that 
we're implementing a model that will ensure that the needs of 
every child are met at the point in time where they need 
additional assistance, that we're not looking at a remediation 
process. Children don't need to be remediated years after 
they've fallen behind. They need to be intervened with as soon 
as we know there's a problem.
    Those are the critical things that we are doing that will 
be different from what was here in the past.
    Senator Burr. Thank you for that.
    Ms. Ottinger, I want to direct this question to you. In a 
lot of the testimony that we read, individuals described the 
various school rebuilding efforts that were going on in New 
Orleans. We all know that a school is not a school without 
children and students. My question is simple: How are the kids 
doing? What are the psychological and community supports, both 
short-term and long-term, that these children need? Are they 
being met?
    Ms. Ottinger. I'm not sure I'm the right person to address 
that. I can tell you what I know from my perspective. I think 
that there probably are tremendous communitywide needs for 
support for kids. I again come at it from a perspective of 
being in a community of folks who've returned to the same 
building. Our kids returned to the same school. We have a lot 
of the same parents, although a lot of different ones as well. 
But we have been really fortunate in being able to reopen in 
January with a good bit of what we had before, so I feel like 
our kids in our school have had a much higher level of 
stability than probably lots of other kids. And that's been 
good. I mean, that's been really important for our children and 
for our parents, because we've had something that we can count 
on.
    I think that one of the difficulties that's facing 
certainly the Recovery School District and then the Orleans 
Parish schools is that these are new communities of people 
coming together that haven't been together. So there is a lot 
of change going on, and we're all living in a world of 
tremendous change right now. So that I would think that there's 
a lot of resources that are needed to work with the kids, to 
work with the families, and to begin to rebuild a sense of 
community within the new structures that are coming around.
    I mean, we've just had an enormous advantage because we're 
in a familiar--I mean, it's been a lifeline for my family. 
We're in a familiar place, and I wish that every family could 
have that.
    Senator Burr. Thank you very much.
    I know we're short on time and clearly I want to personally 
thank all of you for your time and for your openness.
    Senator Landrieu. The Chairman's being very gracious. I 
just want to ask one more question because I know this came up, 
and I thank you all. I don't know if the audience knows this, 
but in the 2, 3, or 4 hours that we were delayed this group 
worked through the morning in a workshop and we are very 
grateful. So they literally have been working all morning.
    I understood from the briefing that I received that there 
was some discussion about the decisions about open enrollments 
and selective enrollments. But for the record--we don't have 
time to get into that--there are going to be, what, 53 schools 
in Orleans Parish opening, correct, not counting the parochial 
schools, right, Father?
    Father Maestri. Right.
    Senator Landrieu. So how many, counting the parochial 
schools? If you count the parochial schools, would it be--how 
many do you have in Orleans?
    Father Maestri. In Orleans Parish, we will have opened 30 
schools with approximately 15,000 children.
    Senator Landrieu. So you'll have 30 schools, and the 
district will have 53. That's 83 schools. And as the president 
of the school board has testified earlier, there will be a 
selective enrollment in how many of those schools? Six, 
fifteen?
    Ms. Landrieu. Yes, the high-performing schools.
    Senator Landrieu. Is it 15?
    Ms. Landrieu. Yes, more or less.
    Senator Landrieu. Well, can you try to give us----
    Ms. Landrieu. Two of our schools are Algiers charter 
schools, so that wouldn't be 15 that would have selective 
enrollment. Math and science doesn't have selective enrollment.
    Senator Landrieu. I really need for the record how many it 
will be. Can anybody give us an accurate number? If not, you 
can submit it to us, Phyllis, if you could.
    Ms. Landrieu. Yes.
    Senator Landrieu. But we'd like a specific number of the 
proposal, the numbers of schools, because this is a little 
different. It's a little unusual. I just want the record to get 
that in.

    [Editor's Note: The information requested was not available 
at print time.]

    Senator Alexander. What do you mean by ``selective,'' 
Senator?
    Ms. Landrieu. I think that's the other thing, that you have 
to have a definition on exactly what does that mean.
    Senator Landrieu. Well, why don't you say what your 
definition is.
    Ms. Landrieu. It means different things at each school, but 
there will be, for students who wish to apply for that, 
criteria that they have to meet in order to take a higher level 
of education.
    Senator Landrieu. Is the intention for ``selective'' 
enrollment to be for a small number of schools in Orleans 
Parish?
    Ms. Landrieu. Right.
    Ms. Ottinger. Can I? I think that the Orleans Parish, the 
type 3 charters--what is the total number of type 3 charters?
    Ms. Landrieu. I don't know what the total number of type 3 
charters is.
    Senator Landrieu. Chris, do you know, or Carol? Are type 3 
charters selective?
    Ms. Ottinger. My point is that my understanding right now 
is that only three of those type 3 charters are basically open 
enrollment. Others are using different criteria.
    Senator Landrieu. Well, let's for the record----
    Ms. Landrieu. Well, there are various criteria. For 
instance, in the French immersion plan they have to be able to 
speak French. There are certain things that are going on. So I 
think that that issue needs to be better understood.
    Senator Landrieu. The chairman has been gracious, but let 
me say this. We have to go, but the point is a public school 
system needs to be open and accessible to all students. There 
are examples, though, in public systems where there are special 
opportunities. So we don't want to say no to any of that, but 
we want to make sure it's being done appropriately, reasonably, 
and within our constitutional framework. So we need to get that 
for the record, and you just submit it to us in writing.
    Senator Alexander. Thank you, Senator Landrieu.
    Let me thank each of you for spending the day with us and 
with yourselves. We are very interested in what you're doing.
    I hope that we can do this again. Let me ask this 
specifically: there was a mention of title I money and, Dr. 
Reidlinger, you mentioned regulations changing. If you have 
specific points that have to do with Federal law or regulation, 
let us know about them, because Margaret Spellings, the 
Secretary of Education, wants to fix those things.
    For example, we had a problem with FEMA not treating 
charter schools like any other public schools and we got that 
fixed through Mary's efforts and David Vitter's and others of 
us. So if you'll let us know specifically, we can do these 
things one by one.
    We're very proud of you. We appreciate your effort and 
we're in it with you for the long haul. Thank you very much for 
being here.
    Senator Alexander. This concludes the hearing.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Scott S. Cowen

    Mr. Chairman and members of the committee, thank you for the 
opportunity to speak to you today regarding educational recovery in the 
city of New Orleans since Hurricane Katrina came ashore on August 29, 
2005. We have made enormous progress despite almost overwhelming 
challenges, but we still have a long way to go before education in our 
city and region are back to anything that approaches what we used to 
deem ``normal.''
    First, I want to thank the committee for your actions in helping 
higher education recovery efforts in New Orleans--specifically, 
legislation that provided loan forgiveness to our students, the 
reallocation of campus-based aid, and the waiver authority given to the 
Department of Education. I would also like to thank you for visiting 
New Orleans and for taking the time to witness firsthand both the 
progress we have made and the challenges we still face.

                             THE GOOD NEWS

    The damage from Hurricane Katrina and subsequent flooding in the 
city of New Orleans is still being tallied. But with disaster comes 
opportunity, and nowhere is that more evident than in K-12 public 
education in New Orleans. Prior to Katrina, New Orleans had one of the 
worst public school systems in the Nation. Katrina has given us a once-
in-a-lifetime opportunity to turn it into one of the best.
    The Orleans Parish public school district, with roughly 60,000 
students pre-Katrina, was the 49th-largest public school district in 
the United States. The numbers tell the story of the problems this 
school system faced:

    <bullet> Of 117 public schools, 102 were academic ``failures'' by 
any number of measures and were struggling to improve academic 
performance to avoid State takeover.
    <bullet> Seventy-five percent of 8th-graders scored below State 
averages and had failed to reach basic proficiency in English.
    <bullet> Dropout rates were the seventh highest in the United 
States and four times the Louisiana average.
    <bullet> With 10 superintendents in 10 years, the district lacked 
consistent leadership and direction.
    <bullet> Decades of neglect and mismanagement had created both a 
budget shortfall and serious debt load for the parish school board.

    For years, New Orleans had a two-tiered K-12 educational system: 
one for the haves and one for the have-nots. More often than not, 
students in the lower socioeconomic neighborhoods in the city were 
severely underserved and provided with a low-quality education. Before 
Katrina, the State of Louisiana developed a Recovery School District to 
take command of the five lowest-performing schools. After Katrina, the 
remainder of the 102 failing schools were put under the auspices of the 
state-run district.
    When schools began re-opening in November 2005, each school reached 
its full capacity within 2 weeks of opening. Twenty-five of the 117 
schools reopened, serving 12,500 students--which represents only 20 
percent of the pre-Katrina student population. Of the 25 schools that 
opened in the spring 2006 semester, 18 were charters, three were run by 
the State and four were run by the local school board.
    The U.S. Department of Education and Federal Government continue to 
provide assistance to help our city recover and get families back on 
their feet. In addition to restart aid, the Department of Education 
provided more than $20 million through a special charter school grant 
to Louisiana, enabling numerous public schools in New Orleans to reopen 
as charter schools, expediting children's education and the region's 
recovery. Thanks to these resources, New Orleans has an unprecedented 
opportunity to transform its public education system.
    Following Hurricane Katrina, New Orleans Mayor Ray Nagin formed the 
Bring New Orleans Back (BNOB) Commission, a collection of seven 
committees charged with creating a master plan to rebuild New Orleans. 
A major piece of that work involves rebuilding New Orleans public 
schools, and I was asked to chair the committee leading the development 
of plans to not only rebuild but repair the long-troubled public school 
system.
    The Education Committee's mission was to create an educational 
system that distinguishes New Orleans in a positive way, attracting 
both families and businesses to the city. The members of the committee 
were dedicated to developing a plan for a school system that will serve 
as a model for schools in the 21st century. To accomplish this great 
task, it led a comprehensive process to develop a transformational plan 
for the New Orleans school system. We received input from a diverse 
group of more than 1,500 students, parents, teachers, business leaders 
and community members from New Orleans to ensure the plan represented 
the voice of our city. Additionally, education experts from around the 
world provided insights into what has worked in high-performing schools 
with similar students and similar socioeconomic factors. Using this 
extensive research, the Education Committee developed a plan to 
fundamentally change the way we run our schools. In January, the 
Education Committee presented a blueprint for reinventing New Orleans' 
public school system. There is great hope for this plan, and 
recognition by everyone involved that we have a rare opportunity to 
turn things around.
    Among the plans and goals:

    <bullet> Delivering learning and achievement for all students, 
regardless of race, socioeconomic class or where they live in New 
Orleans, with the goal of graduating all students ready for college or 
the workplace. New Orleans public school students are 96 percent 
African-American, and three-quarters of them qualify for free or 
reduced-price lunch programs. These facts should have absolutely no 
bearing on the quality of the education they receive or the 
opportunities that education will afford them.
    <bullet> Developing a new school-focused philosophy that empowers 
the schools to make more of their own financial and administrative 
decisions (including time, money and people) rather than relying on a 
central oversight board or central office.
    <bullet> Establishing a new Educational Network Model that 
organizes schools into small groups, or networks, to provide support, 
foster collaboration and ensure accountability.
    <bullet> Encouraging new partnerships with business, faith-based 
and community groups to develop programs for learning enrichment and 
emotional and psychological well-being.

    The Education Committee's recommendations are designed around 
students and schools and provide more flexibility, options and 
accountability than ever before in order to drive student learning and 
achievement. We can take advantage of this opportunity to systemically 
transform the New Orleans public school system, which can be used as a 
model for other urban school districts.

                             THE CHALLENGES

    We have a unified vision for what the New Orleans public school 
system should look like. Our challenge as we move into the fall, when 
we expect up to 50 percent of our pre-Katrina public school students to 
return, is to make sure that schools are reopened in accordance with 
that long-term plan.
    There are two key challenges New Orleans faces as it reopens and 
rebuilds its public school system.
    First, the results of an extensive demographic study places fall 
student enrollment projections between 28,500 and 34,000. These 
statistics, and the fact that each school opened in spring 2006 was 
filled to capacity shortly after opening, substantiate the need for 
more schools in New Orleans for the 2006-2007 school year. In the 
upcoming school year, the Recovery School District and Orleans Parish 
School Board plan to open a total of 56 schools, with a mix of charter, 
state-run, and district-run schools.
    Roughly 60 percent of schools will be charters, with some operating 
independently and others forming groups (e.g., the Algiers Charter 
School Association). The charter schools have provided both the State 
and the school board with an expedient way to open schools and address 
a legacy of underperformance, while keeping operators free from past 
obstacles such as a bloated central office and the local school board's 
collective bargaining agreement. However, there are a number of 
drawbacks to having a large majority of charter schools, including the 
fact that it is difficult for individual schools to coordinate 
administrative activities and other shared services. Probably most 
concerning of all is that charter school performance is highly variable 
and there is not another school district in the United States where the 
majority of schools are charters. In addition, because of the highly 
fragmented governance structure, there is confusion over which entity 
has oversight for which schools and how that oversight will be 
achieved, which threatens to hamper recovery.
    Other challenges must be overcome before being able to open this 
many schools in the fall:

    <bullet> Of the schools that will be opening for the first time 
since Katrina, many have facilities in urgent need of repair but are 
without sufficient funding or time in which to do so. Ongoing 
discussions between the school oversight groups, FEMA representatives 
and insurance carriers have resulted in delays to the work that needs 
to be done in order to reopen the schools in September. Obviously, 
facility remediation must take place before students are allowed back 
into these damaged buildings.
    <bullet> A major hurdle for reopening schools in the fall is 
teacher recruitment and retention. The State's attention to the quality 
of teachers in our public schools is a long-needed step. However, New 
Orleans must convince good teachers that we are seriously committed to 
public education in order to get them here. And we cannot attract high-
caliber teachers--or any teachers at all--as long as the city's housing 
stock remains depleted. There is very little affordable housing in 
which our teachers can live.
    <bullet> Students who were already from two to four grade levels 
behind their age groups pre-Katrina have experienced great trauma, and 
many did not attend school last year at all, indicating a need for 
mental health services and special programs to close achievement gaps.
    <bullet> Since the majority of child care centers haven't reopened 
since Hurricane Katrina, I am advocating the design and implementation 
of a universal pre-kindergarten program (for newborns to 4-year-olds) 
based on best practices for early childhood. Research demonstrates that 
pre-K programs produce persistent gains on achievement test scores, 
along with fewer occurrences of being held back a grade. The benefits 
of early childhood education cross all economic and social lines, but 
the most significant gains are noted among children from families with 
the lowest income levels and the least amount of formal education.

    So, getting more schools open (with remediated facilities, high-
quality teachers and principals, and well-adjusted students) is the 
first key challenge for rebuilding New Orleans' public school system. 
While the Recovery School District's plan covers a number of these 
issues, it is critical that they are immediately addressed and 
adequately funded in all schools in the system.
    The second challenge will be to form a coordinated response and 
oversight mechanism for the schools in Orleans Parish. I believe the 
lack of a single oversight body is one of the biggest hurdles to the 
recovery and transformation of our public school system. There are 
multiple governing bodies responsible for making decisions--what the 
repopulation rate is in different parts of the parish, for example, and 
what schools are needed in response to that repopulation. These 
governing bodies include the Orleans Parish School Board, the Recovery 
School District, and the Louisiana Board of Elementary and Secondary 
Education. We are also faced with the challenge of having individual 
charter school boards and authorizers. Immense coordination in the 
short- and long-terms and a shared vision are the only ways to ensure 
success as public education in Orleans Parish is rebuilt.
    I strongly endorse the formation of a single oversight body, 
similar to Philadelphia's School Reform Commission, whose sole focus 
would be on educational transformation in Orleans Parish. Overseeing 
all Orleans Parish public schools, it would harness the power of the 
individual entities behind a unified effort to meet our short-term 
goals and long-term vision for better schools in New Orleans. Board 
members would operate at the governing and accountability level, not 
the execution level. A key emphasis should be on aligning focus on 
student achievement, not politics, and maintaining stability to 
consistently execute the plan over the next 5 to 10 years.
    This organization could serve to:

    <bullet> Coordinate the multiple governing bodies over New Orleans 
schools, providing direction and accountability;
    <bullet> Streamline decisionmaking and prevent duplication of 
effort and cost;
    <bullet> Ensure the credibility and legitimacy of the rebuilding 
process by providing an unbiased oversight function; and
    <bullet> Represent the best interests of New Orleans and the State 
of Louisiana as a whole--and, by doing so, the best interests of our 
children.

    We have been given a rare opportunity by Hurricane Katrina to 
transform New Orleans schools for the benefit of our students and the 
entire State. To ensure that we do not squander this opportunity, we 
need to quickly hire--and fairly compensate--a world-class educational 
leader with the experience and energy to serve as superintendent for 
all of the public schools in our school system. This person should be 
charged with:

    <bullet> Overseeing all New Orleans schools, including those run by 
the Recovery School District and the Orleans Parish School Board;
    <bullet> Securing funds for rebuilding;
    <bullet> Attracting and developing strong educators at every level, 
beginning immediately; and
    <bullet> Defining instructional and performance standards, as well 
as accountability systems.
    <bullet> Supporting charter schools by forming networks to 
facilitate communications between schools and launching a shared-
service organization, to create economies of scale not available to 
individual charter schools.

    Given sound financial management, dedicated leadership and a spirit 
of cooperation among all members of our community, the outlook for the 
Orleans Parish public school system is brighter than it has been in 
many, many years. It will require vigilance and diligence on everyone's 
part to ensure that we continue to make progress toward the long-term 
vision that has been developed.

                               CONCLUSION

    Repaired levees and rebuilt homes and businesses are things New 
Orleans needs in order to survive in the short term. But it is through 
its system of education at all levels that the city can achieve the 
substantive change, success and energy that it needs to become a 
healthy and thriving urban center.
    Our K-12 public education system has many challenges still to 
overcome. But with the support of the American people and through our 
public leaders such as those of you on this committee, it will recover. 
And through that recovery will come a major boost to the long-term 
revitalization of the city of New Orleans.

    Response to Questions of Senator Alexander and Senator Landrieu 
                           by Scott S. Cowen

    Question 1. The Bring New Orleans Back Education Committee's plan 
was released before the new Recovery School District plan was adopted. 
What recommendations do you have as implementation of the RSD plan 
moves forward, and as the RSD develops a 5-year plan?
    Answer 1. The Recovery School District (RSD) only controls a little 
over a third of the schools in the city. Sixty percent of the schools 
are charters and have a separate board and short- and long-term plan. 
At this time, there is not an integrated plan between the RSD, the 
Orleans Parish School Board, and the individual charter schools. In 
addition, there are huge gaps and inefficiencies in strategy and 
implementation. To assist, I highly suggest that the Louisiana State 
Legislature create a single body to coordinate the multiple governing 
bodies over New Orleans public schools to provide direction and 
accountability. This oversight board would hire a single, world-class 
superintendent to be the CEO for all public schools in the city.
    It should be noted that charter schools provided us with an 
expedient and effective approach to restart public education in New 
Orleans; however, I believe that the current model will have to be 
reconfigured to realize economies of scale across charter schools and 
foster collaboration with State- and district-run schools. With this 
school year, New Orleans becomes the city with the highest percentage 
of chartered public schools in the Nation for a system its size or 
larger. I support the immediate formation of schools into small groups 
or networks to provide support, foster collaboration and ensure 
accountability. The Algiers Charter School Association is a great 
example of this concept, yet there are 17 independent charter schools 
that are missing the opportunity to collaborate and benefit from shared 
services.

    Question 2. In your written testimony you strongly underscored the 
need for a single oversight body capable of coordinating the multiple 
governing bodies that currently exist. What challenges exist to 
creating such a body? How could such an oversight body function 
effectively?
    Answer 2. Today, we have a highly fragmented governance system in 
New Orleans. I believe that we need to migrate toward a single, aligned 
and highly-effective governing board that provides a stable leadership 
team with the skills to oversee successful implementation of the plan. 
This lean, apolitical and courageous governing board should focus on 
driving transformation of the system and place student learning and 
achievement ahead of any other agenda. At this time, the challenges are 
with the State constitution and current legislation.

    Question 3. How does the current operation of schools differ from 
what the Bring New Orleans Back Education Committee envisioned?
    Answer 3. The main differences are as follows: composition, 
structure, and working philosophy of the networks of schools; lack of a 
universal Pre-K program for children from birth to 4-years old; a 
complex and disjointed governance structure; the system's continued 
reliance on selective-admissions schools; and lack of coordinated 
communications with the community.

    Question 4. Before crafting its plan, the Bring New Orleans Back 
Education Committee conducted extensive research and outreach with 
students, parents, teachers, business leaders, and other New Orleans 
residents. Based on their input, do you think these groups will be 
pleased with the way their schools are re-opening and operating? What 
changes do you think they would seek?
    Answer 4. While I am pleased with the progress that has been made 
and am happy to see that most of it is in line with the recommendations 
presented by the Education Committee, I continue to have concerns. Due 
to the complex, multibody governance structure, there is a lack of 
clear and consistent communications among school leaders, parents, and 
the community. I highly recommend that school leaders manage 
communications with the community more effectively. In addition, the 
community should be allowed to actively participate in the planning 
process for their schools.

    Response to Questions of Senator Alexander and Senator Landrieu 
                           by Sarah Ottinger

    Question 1. How has Audubon Charter School changed after becoming a 
charter school?
    Answer 1. As a charter school, Audubon Charter School (ACS) is now 
far better able to offer an excellent education and more resources to 
children who attend the school.
    The school essentially has two curricula: French and Montessori. 
With respect to the Montessori curriculum, prior to becoming a charter, 
we were constantly subject to systemwide curriculum requirements that 
failed to acknowledge the Montessori curriculum and actually threatened 
to destroy it; those systemwide requirements could not be accommodated 
without changing the Montessori curriculum to such a degree that it no 
longer complied with basic Montessori tenets. Furthermore, the Orleans 
Parish school system refused to offer ongoing Montessori training and 
certification to teachers in the school. We are now able to make both 
the curriculum and ongoing training a priority with the funding we 
receive. As a result, ACS will become a model public Montessori school.
    With respect to the French curriculum, which is approved by the 
French government, we have been likewise able to make it conform 100 
percent to the requirements of the French government. For instance, the 
French curriculum requires that schools maintain a motility room for 
pre-K and K students. The French government was able to donate money 
directly to ACS to get the motility rooms furnished and operational. 
The Orleans Parish school system had never supported creating the rooms 
and the French government previously was unable to donate money for a 
specific purpose to ACS because it could not count on the Orleans 
system to spend the money in the way the French government wished for 
it to be spent.
    Our fundraising capabilities are great now, because donors trust 
our Board to spend money wisely.
    With our fundraising, we have been able to add a full-time dance 
teacher, art teacher, music/band teacher, social worker, and nurse. We 
did not have any of these resources as part of the Orleans Parish 
school system.
    We have been able to improve our facilities, so that they are 
welcoming and clean. This was not the case at all when we were part of 
the Orleans Parish system. We will soon be adding science labs and a 
computer lab--also not possible prior to becoming a charter school.
    The main, huge difference as a charter is that we are able to spend 
Federal, State, and local money in the way we see fit, establishing 
priorities that make sense to our individual school with its unique 
curricula. We are also able to supplement our MFP and other government 
grants with private fundraising to meet specific goals outside our 
means. We have been very successful at fundraising.
    I must mention, however, in this context that we have not yet 
received restart funds or displaced student funds for the 2005-2006 
school year. None of the schools open in Orleans Parish for the 2005-
2006 school year have received these funds--despite the fact that every 
other parish in the State has received them. In my opinion, the failure 
to distribute this funding borders on criminal; the parish most in need 
of this funding has yet to receive it from the State. Unpredictable 
payment from both the State and local governments of funds to which we 
are entitled threatens to undermine the existence of all charter 
schools.

    Question 2. What advice would you give to other parents who are 
considering enrolling their children in charter schools?
    Answer 2. The charter system is designed to foster schools with 
innovative curricula. I do not think it will work for schools that 
offer the same curriculum as parish-wide public schools. As a parent I 
would look to see if the charter school in question is taking an 
alternative or innovative approach to education and then I would look 
to see whether the budget of the charter school supports ongoing 
training of teachers in the curriculum offered.
    I would make sure the school is financially solvent and can weather 
times when payment of local, State, and Federal funding is delayed. I 
would look at whether the Board of Directors of the school has breadth 
and depth and can handle the financial, administrative, educational, 
and fundraising aspects of running a school.
    I would look at whether the faculty and administrative staff 
likewise have depth in education, training and experience.
    I would look to see whether the parent body of the school is strong 
and committed; it will go a long way toward preserving the existence of 
the school in hard times.
    And of course I would want to make sure that the school philosophy 
and curriculum is a good fit with my child and me. The culture of the 
school is very important and really the only way to learn about that is 
to spend time in the school, talk to teachers and parents, and attend 
school functions.

    Question 3. What would you recommend to other parents and community 
leaders who are considering seeking approval to open a charter school?
    Answer 3. I recommend that parents and other community leaders 
considering seeking approval to open a charter school work together 
over a year or two to build a vision of the school as well as a strong 
core community of diverse individuals committed to the culture of the 
school. The core community should consist of educators, business/
administrative experts and parents at a minimum. Additionally, there 
should be some funding available with which to open the school and 
cover costs, should there be a cash flow problem.

    Response to Questions of Senator Alexander and Senator Landrieu 
                            by Linda Johnson

    Question 1. Do you believe there is a need for more formal 
coordination among the multiple entities with authority over New 
Orleans schools?
    Answer 1. There should be formal coordination among the multiple 
entities because it provides more continuity and is easier to 
communicate to parents. There should be transparency among the various 
entities. Each entity should have its voice but the voice should be a 
better system for all students. This then allows parents to make a 
decision on where or which system they want to work with for the 
education of their children.

    Question 2. What will the Board of Elementary and Secondary 
Education do to facilitate coordination between the Recovery School 
District and the Orleans Parish School Board?
    Answer 2. The State Superintendent is charged with the coordination 
of services for students in Orleans. He is working with the Orleans 
Parish School Board administration to communicate educational 
opportunities.

    Question 3. What is the Board of Elementary and Secondary 
Education's vision for the future of New Orleans schools? Might lessons 
from New Orleans be applied to schools in other parts of the State?
    Answer 3. We are trying to create a model urban educational system 
that has the best practices and policies in place and serves all 
children in a manner that improves their quality of life. Therefore we 
envision a system that will have people from all over the world 
visiting to glean the reasons for the success. We also envision that we 
will build a system that changes the culture of New Orleans from a city 
with inherent poverty--as seen during the aftermath of Katrina--to a 
city of opportunities for all the citizens.

    Question 4. The State has adopted a ``follow the student'' model 
for school financing in the Recovery School District. How does that 
compare to the traditional school funding formula?
    Answer 4. The Recovery School District (RSD) receives its per-pupil 
allocation of MFP funding as other districts do. The Recovery School 
District will then allocate funds to each school using a differential 
funding formula calculating weighted funding for three levels of 
Special Education students in addition to the Regular Education 
allocation. This type of differentiated funding is used by other public 
school systems around the State.

    Question 5. How does the Board of Elementary and Secondary 
Education envision expanding public school choice in New Orleans?
    Answer 5. Public school choice is provided as the State implements 
its statutory authority over failing schools in New Orleans, modeling 
best practices of the State's key education reform initiatives, 
establishing high expectations for students and faculty, and focusing 
on improved student performance articulated from pre-kinder-
garten through postsecondary levels.

    Response to Questions of Senator Alexander and Senator Landrieu 
                      by Father William F. Maestri

    Question 1. How many schools does the Archdiocese expect to be able 
to open this fall?
    Answer 1. Eighty-eight schools (elementary and secondary) will be 
open as of September 2, 2006 with an enrollment of approximately 42,000 
children.

    Question 2. You stated that the Archdiocese has made great efforts 
to locate displaced students around the country. How many students do 
you expect to return? How does the Archdiocese plan to meet returning 
students' special needs, and assure their academic progress?
    Answer 2. We expect 42,000 children to return to Catholic schools 
in the Archdiocese of New Orleans this year. We were pleased that even 
in the midst of disaster and chaos, our students on the elementary and 
secondary school levels scored above average nationally, regionally and 
locally on the Stanford 10 (elementary) and ACT tests (secondary). It 
is our hope that through constant encouragement and the support of 
staff our children will continue to progress in all areas of their 
lives. Specifically to address the needs of our students post-Katrina 
and Rita, we have in a place a new program called Project Fleur-de-lis, 
a school-based, faith-based approach to mental health in our schools 
that works with teachers, students and families. We have also worked to 
make our schools a single point of access for families into the 
ministries of Catholic Charities that can assist those in need and 
support as they rebuild their homes and lives. You can find more 
information about Project Fleur-de-Lis at www.project-fleur-de-lis.org.

    Question 3. How easy or difficult has it been for private schools 
in the Archdiocese to access the Hurricane Education Recovery Act funds 
Congress provided? How are those funds being used?
    Answer 3. Once Congress made the funds available and the State 
created a process for distributing funding, accessing the funds has not 
been exceptionally difficult. We understand the system of 
accountability and the need for the appropriate applications and 
processes and timelines need to be followed. I think the most difficult 
and frustrating things to contend with were the length of time, 
especially for parents in need of tuition reimbursements and the lack 
of funding to replace infrastructure. If there was a way to streamline 
getting the money where it needs to go from the Feds and State that 
would have been helpful.

    Question 4. How have the Archdiocese and the public schools been 
partnering to meet students' needs?
    Answer 4. No Catholic school that I am aware of has rejected entry 
to a student from a public school or any school based on money. In 
fact, we took no tuition from those who could not pay. With the lack of 
schools open in New Orleans, we were happy to open our schools and take 
any children, for that is how we return families and commerce to the 
area.

    Question 5. What is the Archdiocese's plan for teacher recruitment? 
Will the Archdiocese schools opening this fall be fully staffed?
    Answer 5. I am happy to report that all of our schools are fully 
staffed and, as enrollment grows, we hire teachers to ensure quality 
education for our students. As for recruitment, we were sure to keep in 
contact with our teachers from pre-Katrina, we held job fairs for 
teachers looking for jobs and we continue to collect teacher resumes to 
fill spots that come up. The archdiocese has hired a number of teachers 
from the public school system as jobs became unavailable as schools 
were not reopened.

    Response to Questions of Senator Alexander and Senator Landrieu 
                        by Carole Butler-Wallin

    Question 1. What is your vision for the future of schools in New 
Orleans? What are your plans for turning the Recovery School District 
Schools back over to the Orleans Parish School Board?
    Answer 1. We envision a mixed model of schools operated by the 
local school system, as well as charter schools, which offers parents a 
choice of schools that will enable them to place their children in the 
school environment that best meets the needs of each individual child. 
Most schools will be community/neighborhood schools, but there will 
also be specialty schools, especially at the high school level, 
tailored to meet the needs of a specific student population. Examples 
include Career Academies that offer industry-based certifications and 
Freshman Academies designed to help students transition to high school 
and correct any academic deficiencies that would negatively impact 
their academic success. The ultimate goal is to provide schools where 
every child has a choice of schools and will receive the excellent 
education to which he is entitled.
    Louisiana law stipulates that low-performing schools in New Orleans 
that transfer to the Recovery School District shall remain there for at 
least 5 years. At this point, we are focused solely upon opening 
schools for 2006-2007 school year, in the midst of an area that is 
still significantly devastated from Hurricanes Katrina and Rita. After 
schools open in the fall, we will turn our attention to long-term 
planning, and the return of Recovery School District schools back to 
the local school board will be an item for consideration. A process and 
criteria for the eventual return of schools to the local school board 
will be developed.

    Question 2. What innovative ideas do you have for use of the 
Hurricane Education Recovery Act Restart funding that has not yet been 
allocated?
    Answer 2. We will assess the needs of the hurricane-impacted 
districts, focusing on the most severely impacted schools, and will 
work with them to develop innovative plans for these funds based on the 
needs that emerged over the last year. At this point, schools have been 
focused on basic and fundamental activities necessary to open schools 
for the 2006-2007 school year. This process has enabled us all to think 
of very different ways to use these funds, and I believe the knowledge 
gained from our experiences will be integrated into plans to spend the 
money.

    Question 3. The Recovery School District will run more schools than 
it anticipated this fall because not enough high-quality charter school 
applications were approved. What is the State and city leadership doing 
to attract high-quality charter school applicants to New Orleans?
    Answer 3. I cannot speak for the city, but the State has contracted 
with the National Association of Charter School Authorizers (NACSA) to 
help us recruit high-quality charter providers and to oversee the 
chartering efforts in New Orleans. The State Department of Education 
has also contacted a number of charter providers that are nationally 
recognized for academic excellence encouraging them to apply to be 
charter school providers in New Orleans. This is an ongoing process.

    Question 4. How does the Department plan to use the $24 million it 
was recently awarded under the Federal Charter Schools Program? What 
support does the State offer to charter schools?
    Answer 4. All new charter schools will receive a $200,000 start-up 
grant. Each new charter school will also be eligible to receive an 
additional $200,000 per year for their first and second year of 
operation.
    Unlike in other States, where charter schools have to procure their 
own funding and facilities, Louisiana is providing charter schools in 
New Orleans with school buildings, funding through the State's Minimum 
Foundation Formula, a share of local education moneys, and their 
appropriate share of all Federal moneys. The Recovery School District 
is also providing shared services for charters that wish to participate 
including food services, transportation, building maintenance, 
accounting, janitorial, and security. The Recovery School District is 
also including charter school teachers and administrators in 
professional development activities.

    Response to Questions of Senator Alexander and Senator Landrieu 
                            by Robin Jarvis

    Question 1. Congress intended for Hurricane Education Recovery Act 
aid to be distributed quickly and efficiently, with flexibility in use 
of funds for States and districts. How would you assess that process?
    Answer 1. Despite the best intentions of the Congress and our full 
understanding of the necessity for documentation and accountability, 
the process of working out the nuts and bolts of distributing this aid 
with the U.S. Department of Education made the process longer and more 
encumbered with details than hoped for. However, I want to emphasize 
how much I appreciate the work of the USDOE staff who worked diligently 
to get this funding flowing to the hurricane impacted States as quickly 
as possible so, in turn, we could get this money distributed to schools 
and local school systems as expeditiously as possible.

    Question 2. The Bring New Orleans Back Education Committee's plan 
was released early this year, but is not mentioned in the Recovery 
School District plan. To what extent did you consider the principles 
and recommendations in that plan when crafting the RSD plan? Will you 
incorporate some of those ideas into the 5-year plan that you are 
developing?
    Answer 2. The plan presented by the Bring New Orleans Back 
Education Committee (BNOB) was one of many resources used in developing 
the Recovery School District's plan. Much of the BNOB plan was 
incorporated into the final plan adopted by BESE, i.e., the need for 
meaningful professional development, universal early childhood 
education, the need for good leaders, and the importance of 
collaboration with the Orleans Parish School Board.

    Question 3. How does the Recovery School District plan to work with 
the Orleans Parish School Board to ensure a seamless system?
    Answer 3. Although Louisiana law clearly provides for separate 
systems for schools in New Orleans, Recovery School District staff and 
the Orleans Parish School Board have been working closely together for 
the past 6 months to provide information to parents to help them 
navigate the new school configurations offered in New Orleans and make 
informed choices about their children's education. They have 
collaborated on professional development activities for leaders, 
teachers, and jointly held a citywide open house in the New Orleans 
Arena to give parents information about school openings and 
registration procedures, and worked on financial issues of concern to 
both systems. The Recovery School District and the Orleans Parish 
School Board have agreed that an ongoing partnership is in the best 
interests of the students and the community.

    Question 4. What is your vision for the future of schools in New 
Orleans? Do you hope to be able to turn the Recovery School District 
schools back over to the Orleans Parish School Board? What criteria 
would be used to enable another entity to take over charter schools 
authorized by the Recovery School district, if the RSD releases control 
of its schools?
    Answer 4. My vision is to provide schools that give all parents a 
choice in acquiring an excellent education for their children, without 
regard to race, economic status, or disability. Our ultimate goal is to 
return the schools to an entity in New Orleans with proven capacity and 
to oversee the schools, and we will continue and maintain the academic 
progress made by these schools during their tenure in the RSD. The 
criteria that will govern the return of these schools is yet to be 
developed, and will be guided by the experience and knowledge gained 
during the time the transferred schools are under the jurisdiction of 
the RSD.

    Question 5. What is the Recovery School District doing to ensure 
the success of its authorized charter schools? Do you plan to encourage 
charter schools to form networks?
    Answer 5. The RSD has provided the charter schools with buildings 
and given them the opportunity to participate in shared services 
provided through the RSD. The RSD has also hired staff to respond to 
questions and issues. As stated earlier, Louisiana seems to be unique 
in the amount and level of aid and support given the charter schools.
    Networks are forming naturally through the charter management 
companies and the charter boards approved to operate multiple schools. 
Some schools prefer to be independent, and we respect that preference.

    Question 6. The Recovery School District Plan calls for additional 
performance pay for teachers who increase student achievement. If you 
receive the Federal Teacher Incentive Fund grant for which you have 
applied, how will you implement a plan to fairly reward teachers for 
teaching well?
    Answer 6. All schools operated by the Recovery School District will 
participate in the Teacher Advancement Program (TAP), a model that the 
State has modeled and promoted for a number of years. The TAP program 
was initially started by the Milken Family Foundation and is now the 
leading national teacher quality program in the country.
    Under the TAP system, good teachers can advance professionally 
without leaving the classroom, where they are needed most. TAP provides 
an opportunity for classroom teachers to earn higher salaries. At the 
same time, TAP facilitates and supports the professional development of 
teachers, provides opportunities to learn the most effective teaching 
strategies and holds them accountable for their classroom performance.
    RSD charter schools will also have the option of participating in 
the TAP model, as the Algiers Charter Schools have done. Some charters 
may choose other performance-based pay options or may choose not to 
participate at all in such a model.

    Question 7. Have all of the principals been hired for the Recovery 
School District for the upcoming school year? What percentages of 
teachers have been hired, and how do you plan to expedite this process?
    Answer 7. All but two principals and four assistant principals have 
been hired. Approximately two-thirds of the teachers have been hired.
    The RSD has an ongoing process in place to recruit, screen, 
interview, and offer jobs to qualified applicants. Our recruitment 
efforts are focused on hiring quality educators, and we are at a point 
in the hiring process for the 2006-2007 school year where we are 
targeting specific subject matter areas where we still have shortages, 
such as special education and high school math, science, and foreign 
languages.

    Question 8. How is the community reacting to the schools that are 
being reopened? What types of outreach efforts has the Louisiana 
Department of Education taken to make sure that the community is aware 
of which schools are being opened in their neighborhoods?
    Answer 8. Naturally, residents of New Orleans would like to have 
all of their neighborhood schools open and their communities back as 
they were prior to Hurricanes Katrina and Rita. Unfortunately, this is 
not possible at this time as many schools are irreparably damaged and 
the city has many fewer students. However, the RSD has worked 
diligently to ensure that schools are available, across the city, in 
locations where there are utilities and safe, usable buildings. We have 
taken every opportunity to open neighborhood schools, and the people we 
meet in the community are grateful we are making these efforts.
    The Department of Education and the Recovery School District 
mounted a comprehensive outreach program utilizing radio and television 
media, and public service announcements. Fliers were distributed 
throughout the community and RSD staff attended countless community 
meetings, working with community planning groups. Community outreach 
efforts are ongoing and are considered an integral part of the 
operation of the Recovery School District.

    Response to Questions of Senator Alexander and Senator Landrieu 
                          by Greg A. Richmond

    Question 1. What do Louisiana leaders need to do to attract more 
high-quality charter school operators to New Orleans?
    Answer 1. To be attracted to open schools in New Orleans, potential 
school operators need sufficient information, time and predictability. 
High quality operators throughout the Nation typically make decisions 
conservatively and grow slowly. They are already committed in other 
cities. They were implementing their own growth plans before Hurricane 
Katrina and will not serve New Orleans unless they receive thorough 
information that persuades them to change their plans. Louisiana's 
charter school development process must proactively disseminate the 
information operators need. This information must thoroughly address 
issues such as funding, facilities, student demographics, staffing, 
operations, accountability and timing. If operators do not understand 
how to operate in New Orleans, they will not come.
    Furthermore, Louisiana must persuade them that the risks of doing 
business in New Orleans are manageable. In fact, the risks must be low 
enough to persuade the operator to forego opportunities elsewhere in 
favor of New Orleans. This will be difficult because operators have 
often spent years planning to conduct business elsewhere. If the risks 
and rewards between New Orleans and another location are perceived to 
be equal, the operator will likely stick with its plans in the other 
city. Therefore, New Orleans must be perceived to be a superior 
location for operations. New Orleans must offer a better arrangement 
than other cities.
    Fortunately, because of the availability of school facilities, New 
Orleans already has an advantage over many cities. It must now 
capitalize on that advantage by offering a comprehensive package of 
conditions that attract operators to New Orleans.
    Local operators may not have opportunities elsewhere in the Nation, 
but they have the same need for thorough, accurate information about 
funding, facilities, student demographics, staffing, operations, 
accountability and timing.
    The information that is provided to potential operators, both local 
and national, must remain accurate and constant. Across the country, 
operators can deal with a wide range of educational circumstances, but 
in each locality they need a level of predictably in order to function.
    Finally, operators need adequate time--6 to 9 months--between 
approval and the first day of school. Therefore, Louisiana's 
application process should lead to State decisions in roughly January 
or February.

    Question 2. What supports do the city's newly chartered schools 
need to ensure their students achieve academically?
    Answer 2. Charter school operators are a notoriously independent 
group of people and providing support to them as a group is not easy. 
The first form of support that is needed is thorough, accurate 
information from the State, as described above. The arrangement between 
authorizer and school should be positive and stable, empowering the 
school to grow and improve. Schools that have to fight against their 
authorizers have little time to work to improve instruction.
    The quality of a school's governing board is also critical. A high 
quality, diverse, dedicated supportive board serves as a foundation for 
school success. If such a board is in place, the school will be able to 
continuously learn, make adjustments and improve. Without such a board, 
the school will stagnate or, worse, board conflict will drag down the 
entire school. New Schools for New Orleans has appropriately identified 
governance as a key issue.
    School leadership support is also essential for success. The job of 
a charter school principal is more demanding than that of a traditional 
principal because the charter school does not have a central office 
that provides a huge array of instructional and administrative support. 
The charter school principal is responsible for everything. 
Unfortunately, our traditional school leadership development programs 
at universities usually prepare leaders to serve within a school 
system, not outside of one. Thus, great teachers can be cast into roles 
as a charter school principal without the skills and training needed to 
survive. New Schools for New Orleans is addressing part of this 
challenge through its work on teacher recruitment and back-office 
administration. More can be done by working with local universities to 
enhance leadership development programs.

    Question 3. What changes should be made to Louisiana's charter 
school law to ensure optimal conditions for the growth of high-quality 
charter schools, not only in the Recovery School District, but also in 
Orleans Parish? Should the 5 types of charter schools set forth in 
current law be simplified?
    Answer 3. The five types of charter schools in Louisiana may be 
confusing at first, but the typologies themselves are not the cause of 
any problems. In fact, almost all States have different types of 
charter schools (e.g. new starts, appeals, conversions); they simply 
are not labeled by type.
    Rather, the greatest threat to charter schools in New Orleans is 
the fractured system of oversight between the Recovery School District 
and Orleans Parish. While the Recovery School District has put in place 
thoughtful systems to evaluate new charter applications, execute 
thorough charter contracts, and establish an accountability framework, 
Orleans Parish has not. Many believe that Orleans Parish has mostly re-
labeled a set of traditional schools as ``charter schools,'' without 
requiring adequate school plans upfront or creating adequate monitoring 
systems for the future.
    New Orleans's charter schools now have separate systems--or 
sometimes no systems--for ensuring fair student enrollment procedures, 
appropriate special education services, lawful student disciplinary 
actions, adequate financial monitoring and proper health and safety 
plans, to name only a few important issues.
    These separate systems have been created by State law. Types 1 and 
3 charter schools report only to Orleans Parish with no State 
involvement or quality control. Types 2, 4 and 5 report only to the 
State with no local involvement, planning or communication. The 
typology is not the problem; the separate oversight systems are.
    Because BESE/LDE/RSD has demonstrated a greater commitment and 
capacity for charter school authorizing than Orleans Parish, NACSA 
recommends that State law be amended to provide BESE and the LDE with 
oversight powers related to all types of charter schools in Louisiana. 
Types 1 and 3 charter schools could still be initiated locally but 
would need to be reviewed and approved by BESE. BESE should ensure two 
things: (1) that Type 1 and 3 charters schools that are forwarded to 
the State are of adequate quality and (2) that the local school 
district has adequate authorizing and oversight systems in place.
    A word of caution, while BESE and LDE have performed their charter 
school duties reasonably well over the past year, there is still room 
for improvement. In addition, in many other States, State education 
departments have been bastions of bureaucracy and resistance to charter 
schools. While this has not been the case in Louisiana, if the State is 
given a greater role overseeing charter schools, the legislature should 
also put safeguards in place to ensure that BESE and LDE do not slip 
into negative, bureaucratic practices. Such safeguards could include 
external annual reports and/or sunset procedures.

    Question 4. Is anything being done to help strengthen the 
applications of charter proposals you recommended that the Board of 
Elementary and Secondary Education reject, to help meet the demand for 
new schools?
    Answer 4. NACSA continued to work with ``the best of the rejected'' 
applicants over the summer and they re-submitted in late August. If 
they are of high quality, they may be able to open in mid-year. NACSA 
is also proposing to conduct a series of technical assistance workshops 
this fall for organizations developing applications for charter schools 
to start next fall.

    Question 5. What additional steps should be taken to ensure that 
the charter school movement can grow and succeed in New Orleans?
    Answer 5. This fall, New Orleans families are encountering an 
unintended accidental system of public schools. The number of schools, 
types of schools (OPSB-operated, RSD-operated, and charter), school 
sizes, school locations, educational programs and services, and systems 
of public oversight have been implemented under stress, without benefit 
of long-term analysis or planning.
    While the reasons for this may be understandable given the past 
year's unprecedented challenges, this situation should not continue 
indefinitely. Many long-term issues remain. Thus, the greatest 
challenge facing the charter school movement in New Orleans is the same 
challenge that is facing the city's entire system of public education--
a fractured array of governing bodies and schools operating without an 
overall plan.
    A long range, comprehensive plan would answer:

    <bullet> How many schools will be needed? Where? Over what time 
period? How will future facility planning decisions be made and by 
whom?
    <bullet> Will New Orleans and Louisiana make a determined effort to 
increase the number of charter schools or are they indifferent to the 
type of schools that will open in the future?
    <bullet> How will New Orleans develop an adequate pipeline of high 
quality teachers and school leaders?
    <bullet> How will families learn about and choose among the schools 
available to them?
    <bullet> How will school choice be preserved while ensuring fair 
student admissions, transfers and disciplinary actions?
    <bullet> How will special populations of students be served, such 
as students with disabilities, English Language Learners and the 
homeless?
    <bullet> Is adequate data being collected to monitor school 
performance, not just on State tests, but also on attendance, 
graduation and demographic characteristics?
    <bullet> What forms of communication and collaboration should exist 
between Orleans Parish and the Recovery School District?
    <bullet> How will funding be provided equitably among all schools 
(both OPSB and RSD)?
    <bullet> Will common performance expectations be applied to all 
schools?
    <bullet> In the future, under what circumstances will schools shift 
from the RSD to OPSB?
    <bullet> What is the role of the public in the overall governance 
of New Orleans schools?
    <bullet> Should school system governance continue to be split 
between OPSB and the RSD indefinitely, or should the city and State 
develop and move toward a new model of governance?

    It is essential that these questions be asked and answered 
regarding New Orleans's long-term educational future. The work of 
thousands of people will be affected by the answers: teachers, 
principals, current charter school boards, potential future charter 
schools, universities, community organizations, the Orleans Parish 
School Board and administration, and the Board of Elementary and 
Secondary Education and its staff, to name a few. More importantly, the 
answers to these questions will determine the quality of education 
received by tens of thousands of New Orleans children.

    Response to Questions of Senator Alexander and Senator Landrieu 
                         by Brian A. Riedlinger

    Question 1. Given your experience in quickly establishing the 
Algiers Charter Schools Association, what guidance can you offer to 
others who may be interested in applying to open charter schools in New 
Orleans?
    Answer 1. The process is strictly defined by the State in the RSD 
guidelines. I'd suggest they first check with the State and follow the 
guidelines. Chartering in New Orleans now is much more about taking 
failing schools from the State than any other method--in fact, that may 
be the only method.

    Question 2. What supports do you believe are necessary to establish 
and maintain healthy, high-performing charter schools?
    Answer 2. Some sort of startup funding even before the school 
opens. We had a $500 per student startup and it solved most of our cash 
flow problems and I know that was/is a problem for many charters here.
    Ongoing, job embedded professional over years. Financial support 
connected with a viable school plan that must receive approval before 
funding is the best way to ensure ongoing success. Ongoing means years.
    Something that promotes networking; stand alone charters miss the 
opportunity for collegial support and the sharing of craft knowledge 
which is how good schools become great. This is at the teacher level 
(first grade teachers from different schools working together) and 
school leaders.

    Question 3. The Bring New Orleans Back plan recommends establishing 
small networks of schools that share services, much as the Algiers 
Charter Schools Association is already doing. The Recovery School 
District plan also supports a greater role for charter schools. As a 
charter school operator, what is your reaction to these two plans? What 
actions would you recommend to State and local leaders?
    Answer 3. The Bring New Orleans Back Commission suggested what many 
have suggested the last few years--that is, since the large Orleans 
School Board was ineffective, perhaps smaller ``districts'' would work 
better. Algiers was on that path before Katrina. I believe we are an 
example that the smaller associations really can work. It is important 
to realize though that just making smaller networks alone does NOT 
ensure success. The history of school improvement is filled with 
improvement plans that changed the structure and never changed what 
happened in the classroom. Before granting networks a charter--I would 
require a detailed answer to the question . . . How will you improve 
the instruction of every teacher and what happens if they do not 
improve? That is the key.
    The RSD plan frankly is about maintaining some control over what is 
happening--massive chartering. That is probably good in most cases, but 
not for ACSA. The RSD control eliminates some of the freedom that makes 
chartering such a positive. I understand why; I just would wish there 
could be levels of control that lessen as trust is built. (Examples 
include mandates regarding a student information system, constant 
reporting of things like waiting lists, etc.)

    Question 4. What is the reaction of Algiers Charter Schools 
Association teachers toward the plan to implement the Teacher 
Advancement Program this fall? Do you think the opportunity to earn a 
higher salary and take on additional responsibility will help recruit 
talented teachers in the future?
    Answer 4. Even though it was not required, we had each school staff 
vote to accept or reject TAP. The votes were overwhelmingly in favor of 
the plan. I think the money is only a small part of what the teachers 
like about TAP. Most teachers want to improve their skills, but until 
TAP no one in this area showed them a plan to do just that. I believe 
our teachers saw the wisdom in having master teachers and therefore 
supported the effort.

    Response to Questions of Senator Alexander and Senator Landrieu 
                          by Phyllis Landrieu

    Question 1. How does the Orleans Parish School Board plan to work 
with the Recovery School District to ensure a seamless system?
    Answer 1. We have an unwritten partnership that has been working 
very well. However, there are a number of unresolved issues--like the 
Recovery School District shouldering their share of the $250 million 
bond debt, the $60 million unemployment debt, insurance on the 
properties, and what will happen with those school properties they 
choose not to open. We want them back now so they can be sold.

    Question 2. What is your vision for the future of schooling in New 
Orleans? After the Recovery School District's initial 5-year 
authorization has expired, what should happen to schools under its 
authority?
    Answer 2. Now and in the future: ``The Unified Orleans Parish 
School System.''

    Question 3. The schools Orleans Parish School Board currently 
oversees have selective enrollment, and were considered among the 
higher-performing schools before Hurricane Katrina. Do you envision 
opening more schools with open access?
    Answer 3. No response.

    Question 4. The State has made efforts to strengthen its 
authorizing and oversight procedures for charter schools. What efforts 
has Orleans Parish School Board made to do the same? Should charter 
schools authorized by the State and by the local board be under the 
control of one entity?
    Answer 4. We have adopted similar criteria. Basically all schools 
are under the ultimate control of the State. Our system differs in that 
some charters are located in school buildings controlled by the State 
and some controlled by the OPSB.
    Question 5. What challenges has students' mobility presented to the 
district? What efforts is the district making to help meet mobile 
students' unique needs?
    Answer 5. There is some unrest in the RSD schools due to mixed 
localities of students and inexperience of the RSD.

    Response to Questions of Senator Alexander and Senator Landrieu 
                         by State Senator Ullo

    Question 1. The State has adopted a ``follow the student'' model 
for school financing in the Recovery School District. Is this under 
consideration for the traditional school financing formulas?
    Answer 1. The State has used different weights for different types 
of students to determine costs for educating students and allocating 
money to local school districts, since 1992. This allocation then goes 
to local school districts in a block grant for them to distribute to 
individual schools as best meets the needs of the schools and the 
district. The Louisiana Constitution (Article VIII, Section 3) 
prohibits BESE from interfering in the business affairs of a local 
public school board and the State is restrained from specifying how the 
districts allocate their MFP dollars.
    Since BESE functions as the school board for the Recovery School 
District, this constitutional prohibition does not apply, thereby 
allowing the use of weighted funding down to the school level. This 
innovative approach to school funding has been used in a number of 
cities, including Seattle and Houston.

    Question 2. What are the legislature's primary oversight 
responsibilities for education?
    Answer 2. With respect to pre-K-12 Public Education, the Louisiana 
Constitution of 1974 provides:

    Article VIII, Section 1:

        The Legislature shall provide for the education of the people 
        of the State and shall establish and maintain a public 
        educational system.

    Article VIII, Section 13:

        <bullet>  The Legislature must approve the Minimum Foundation 
        Formula developed by the State Board of Elementary and 
        Secondary Education (BESE) to establish the amount of the funds 
        to be appropriated by the legislature to support the cost of a 
        minimum foundation program of education (MFP).
        <bullet>  The legislature may not amend the formula, but may 
        return it to BESE and recommend an amended formula to the BESE 
        for their approval and resubmission to the Legislature for 
        approval.
        <bullet>  The Legislature shall annually appropriate funds 
        sufficient to fully fund the current cost of the MFP in 
        accordance with the formula adopted by BESE and approved by the 
        Legislature.

    Senate Rule 13.4. Referral to standing committees; jurisdiction.--
Each legislative instrument or other matter to be referred to committee 
shall be referred, on the basis of the subject matter contained 
therein, to the committee having jurisdiction thereof as provided in 
the following enumeration of subject matter jurisdiction for the 
committees of the Senate:
    Education Committee, all matters relating to:

    <bullet> Adult education
    <bullet> College or university agricultural extension service
    <bullet> Colleges and universities
    <bullet> Cultural affairs
    <bullet> Education generally
    <bullet> Educational television
    <bullet> Employees of colleges and universities, including pay, 
except where an appropriation of State funds is required
    <bullet> Employees of vocational-technical education schools, 
including pay, except where an appropriation of State funds is required
    <bullet> Museums
    <bullet> Preservation of historic landmarks and objects
    <bullet> School employees, administrators, teachers, bus drivers, 
and others
    <bullet> School employees' and teachers' pay, except where an 
appropriation of State funds is required
    <bullet> School lunch program
    <bullet> Schools and secondary education
    <bullet> Schools for the blind
    <bullet> Schools for the deaf
    <bullet> State and public libraries
    <bullet> Vocational-technical education

    Question 3. What criteria will the legislature use to determine 
whether to transfer authority over schools back to the Orleans Parish 
School Board once the Recovery School District's initial 5-year 
authorization ends?
    Answer 3. The responsibility to make this determination lies with 
the Recovery School District and the State Board of Elementary and 
Secondary Education.
    Louisiana Revised Statutes--R.S. 17:10.7 provides that low-
performing schools in a district in ``academic crisis'' that are 
transferred to the Recovery School District (RSD) shall remain in the 
RSD for a minimum of 5 years. The RSD is charged with making 
recommendations to BESE prior to the end of the 5-year period as to 
whether the school should remain in the RSD or be returned to the local 
school district, along with any stipulations or conditions for the 
return to local control. BESE must act on the RSD recommendations 
within 6 months of the end of the 5-year period.

    Question 4. In light of the rapid growth of charter schools in New 
Orleans, is the legislature considering amending the State's charter 
school law to improve accountability and uniformity of procedures among 
authorizers?
    Answer 4. State law already provides for a statewide system of 
educational accountability. The State Board of Elementary and Secondary 
Education is currently in the process of establishing an accountability 
system for charter schools that is in line with our State standards. 
The Legislature's role in this effort is primarily through its 
oversight authority over the rules established by BESE.

    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]

</pre></body></html>
